TIGTA SEMIANNUAL REPORT TO CONGRESS




                                 April 1, 2013 – September 30, 2013   3
                                  TIGTA SEMIANNUAL REPORT TO CONGRESS




2   April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



       Inspector General’s
       Message to Congress
It is my privilege to submit this Semiannual Report to Congress for
the Treasury Inspector General for Tax Administration (TIGTA) for
the reporting period of April 1, 2013 to September 30, 2013. This
report highlights TIGTA’s dual responsibility to provide oversight of
the Internal Revenue Service (IRS) and protect the integrity of our
Nation’s system of tax administration.

This reporting period is significant for several reasons. First, July
22nd marked the 15th anniversary of the passage of the Internal
Revenue Service Restructuring and Reform Act of 1998 (RRA 98).
With the approval of that legislation, the IRS Inspection Service was reconstituted into TIGTA in
January 1999, marking the birth of our agency and the beginning of a new era of commitment to
efficiency, professionalism, and integrity in IRS operations.

Also during this period, several TIGTA reports have brought the IRS under some of the most
intense scrutiny that it has experienced since the events leading up to the passage of RRA 98.
Our report on the IRS’s use of inappropriate criteria to review applications for tax-exempt status
stands out for having drawn the most attention to internal IRS procedures of any reports
published during my tenure as Inspector General.

Meanwhile, other TIGTA audits and evaluations raised important questions about the IRS’s
spending on travel and training. TIGTA reported that the IRS’s Small Business/Self-Employed
(SB/SE) Division spent a reported $4.1 million on a single conference in Anaheim, California.
Another TIGTA report found that the IRS purchase card program lacked consistent oversight to
identify and address inappropriate use, leading to inappropriate and illegal purchases by IRS
employees. Yet another report, by TIGTA’s Office of Inspections and Evaluations, disclosed
that the IRS spent $9.5 million on executive travel over a two-year period, much of it to and from
Washington, D.C.

TIGTA’s work on tax-related identity theft also drew significant public interest during this
reporting period. In the first of three reports on the issue, we addressed the IRS’s efforts to
assist victims of identity theft, while in the second we examined the IRS’s efforts to detect and
prevent the filing of fraudulent tax returns by identity thieves. In the third report, issued in June
2013, we evaluated whether the Taxpayer Protection Program was effectively assisting
taxpayers that the IRS proactively identifies as potential identity theft victims.

TIGTA’s Office of Investigations (OI) continued its emphasis on investigations of allegations of
wrongdoing by IRS employees who abuse the public’s trust in the integrity of Federal tax
administration. One such instance involved an IRS employee indicted in the Eastern District of
Kentucky on identity theft and related charges.

Significant legal action taken during the reporting period as a result of TIGTA’s investigations
included the sentencing of an IRS employee to 19 years in prison for fraud and extortion
charges and the guilty plea and sentencing of a former supervisory Internal Revenue Agent on
charges of accessing taxpayer information contained in the IRS computer system over 2,000
times for the purpose of conducting her private tax and accounting business.



                                                         April 1, 2013 – September 30, 2013             3
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS


As part of a proactive initiative to promote IRS employee integrity, OI worked with State and
local officials in New York, California, and Tennessee to identify seasonal IRS employees who
continued to receive unemployment benefits after being recalled to work from furlough status.
OI continued its efforts to protect IRS employees during the performance of their official duties
by assisting the Justice Department in prosecuting individuals who threaten or assault IRS
employees.

Finally, during this reporting period we also examined the IRS’s international programs.
TIGTA’s reports found that: the IRS has not established a process to ensure that billions of
dollars in taxes withheld from foreign persons are remitted; improvements are needed to
strengthen systems development controls for the Foreign Financial Institution Registration
System; and the IRS’s International Campus Compliance Unit is improving individual tax
compliance by United States taxpayers or foreign taxpayers whose cross-border transactions
are subject to U.S. taxation.

TIGTA’s work has significant quantifiable results. Our combined audit and investigative efforts
have recovered, protected, and identified monetary benefits totaling $15.45 billion during this
reporting period. Over the past six months, TIGTA’s Office of Audit has completed 85 audits,
and OI has closed 1,711 investigations.

Just as important and less easy to quantify is the impact our reports, evaluations, and
investigations have on the American taxpayer. For many Americans, their most direct interaction
with the Federal Government comes through the payment of Federal income taxes. If they are
to have faith in their Government, particularly in trying times, we must be relentless in our quest
to ensure that the IRS achieves excellence in all of its operations, acts as a responsible steward
of the people’s money, and finally, enforces the law with impartiality and fairness for all.

                                               Sincerely,




                                        J. Russell George
                                        Inspector General




4         April 1, 2013 – September 30, 2013
              TIGTA SEMIANNUAL REPORT TO CONGRESS



                                          Table of Contents
Inspector General’s Message to Congress ................................................................                                   3

TIGTA’s Profile .................................................................................................................          7
        Statutory Mandate ......................................................................................................           7
        Organizational Structure .............................................................................................             8
        Authorities ...................................................................................................................    8

TIGTA’s Highlights ..........................................................................................................
                                                                                                               9
        Examples of High-Profile Cases by the Office of Investigations .................................. 9
        Examples of High-Profile Reports by the Office of Audit ............................................. 11

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .... 15
    Audit Emphasis Areas for April 2013 through September 2013…………………….. 15
        Security for Taxpayer Data and Employees ................................................................                         15
        Tax Compliance Initiatives ..........................................................................................             18
        Modernization .............................................................................................................       23
        Implementing the Affordable Care Act and Other Tax Law Changes ............................                                       24
        Fraudulent Claims and Improper Payments ................................................................                          26
        Achieving Program Efficiencies and Cost Savings ......................................................                            31

Protect the Integrity of Tax Administration ............................................................... 33
        The Office of Investigations Performance Model ...........................................................                        33
        Employee Integrity ........................................................................................................       33
        Spotlight on Integrity .....................................................................................................      36
        Employee and Infrastructure Security ...........................................................................                  38
        External Attempts to Corrupt Tax Administration...........................................................                        40
        Investigative Support ....................................................................................................        43

Advancing Oversight of America’s Tax System ....................................................... 45
        Bicameral Request on Climate Change ........................................................................ 51

TIGTA’s International Programs .................................................................................. 53
        The International Tax Gap ............................................................................................ 53
        International Visitors ..................................................................................................... 56

American Recovery and Reinvestment Act of 2009 ................................................. 57

Congressional Testimony ............................................................................................. 59

Audit Statistical Reports ................................................................................................ 65
        Reports With Questioned Costs .................................................................................. 65
        Reports With Recommendations That Funds Be Put to Better Use ............................. 66
        Reports With Additional Quantifiable Impact on Tax Administration ............................ 67

Investigations Statistical Reports ................................................................................ 70
        Significant Investigative Achievements .......................................................................                    70
        Status of Closed Criminal Investigations .....................................................................                    71
        Criminal Dispositions ..................................................................................................          71
        Administrative Dispositions on Closed Investigations ..................................................                           71

                                                                               April 1, 2013 – September 30, 2013                              5
                                                     TIGTA SEMIANNUAL REPORT TO CONGRESS


Inspections and Evaluations Statistical Reports.................................................... 72
       Report with Questioned Costs .................................................................................... 72


Ap p e n d i c e s
Appendix I – Statistical Reports – Other .................................................................... 73
       Audit Reports With Significant Unimplemented Corrective Actions ............................. 73
       Other Statistical Reports ............................................................................................. 78

Appendix II – Audit Products ........................................................................................ 79

Appendix III – TIGTA’s Statutory Reporting Requirements .................................... 83

Appendix IV – Section 1203 Standards ...................................................................... 95

Appendix V – Statistical Reports – Other……………………………………………… 96
       Inspection Reports With Significant Unimplemented
       Corrective Actions......................................................................................................... 96

Appendix VI – Implementing Section 989C of the Dodd-Frank Wall Street
Reform and Consumer Protection Act ........................................................................ 97

Appendix VII – Data Tables Provided by the IRS ...................................................... 98
       IRS Memorandum ....................................................................................................... 98
       Report of Employee Misconduct, Summary by Disposition Groups ............................. 99
       Report of Employee Misconduct, National Summary .................................................. 101
       Summary of Substantiated I.R.C. § 1203 Allegations Recorded in ALERTS ............... 102

Glossary of Acronyms ................................................................................................... 103




6           April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS



                              TIGTA’s Profile
        he Treasury Inspector General for


T      Tax Administration (TIGTA) provides
       independent oversight of the
       Department of the Treasury’s matters
       involving IRS activities, the IRS
Oversight Board, and the IRS Office of Chief
Counsel. Although TIGTA is placed
                                                                 Statutory Mandate

                                                              • Protect against external
                                                                attempts to corrupt or
organizationally within the Department of the                   threaten IRS employees.
Treasury and reports to the Secretary of the                  • Provide policy direction and
Treasury and to Congress, it functions                          conduct, supervise, and
independently from all other offices.                           coordinate audits and
                                                                investigations related to IRS
                                                                programs and operations.
TIGTA oversees all aspects of activity related
to the Federal tax system as administered by                  • Review existing and
                                                                proposed legislation and
the IRS. TIGTA protects the public’s
                                                                regulations related to IRS
confidence in the tax system by identifying and                 programs and operations,
addressing the IRS’s management challenges                      and make recommendations
and implementing the priorities of the                          concerning the impact of
Department of the Treasury.                                     such legislation or
                                                                regulations.
TIGTA’s organizational structure is comprised                 • Promote the economy and
of the Office of the Inspector General and six                  efficiency in the
functional offices: the Office of Investigations;               administration of tax laws.
the Office of Audit; the Office of Inspections                • Prevent and detect waste,
and Evaluations; the Office of Mission Support;                 fraud, and abuse in IRS
the Office of Information Technology; and the                   programs and operations.
Office of Chief Counsel (see chart on page 8).                • Inform the Secretary of the
                                                                Treasury and Congress of
TIGTA provides audit, investigative, and                        problems and deficiencies
inspection and evaluation services that                         identified and of the
promote economy, efficiency, and integrity in                   progress made in resolving
the administration of the Internal Revenue                      them.
laws.




                                                    April 1, 2013 – September 30, 2013          7
                                                   TIGTA SEMIANNUAL REPORT TO CONGRESS



                                Organizational Structure

                                                    Inspector General

                                                     Principal Deputy
                                                    Inspector General




                                              Deputy
    Deputy              Deputy               Inspector             Associate                Chief                  Chief
   Inspector           Inspector            General for             Inspector            Information              Counsel
  General for         General for           Inspections            General for              Officer
Investigations           Audit                  and                  Mission
                                            Evaluations              Support




                                                Authorities
         TIGTA has all of the authorities granted under the Inspector General Act of 1978, as
         amended. 1 TIGTA has access to tax information in the performance of its tax
         administration responsibilities. TIGTA must also report potential criminal violations
         directly to the Department of Justice. TIGTA and the IRS Commissioner have
         established policies and procedures delineating responsibilities to investigate potential
         criminal offenses under Internal Revenue laws. In addition, the Internal Revenue
         Service Restructuring and Reform Act of 1998 (RRA 98)2 amended the Inspector
         General Act of 1978 to give TIGTA the statutory authority to carry firearms, execute and
         serve search and arrest warrants, serve subpoenas and summonses, and make arrests
         as set forth in Internal Revenue Code (I.R.C.) Section 7608(b)(2).




         1
          5 U.S.C. app. 3 (amended 2008).
         2
          Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C.
         app., 16 U.S.C., and 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).

         8         April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



                               TIGTA’s Highlights
Examples of High-Profile Cases by the Office of
Investigations:
IRS Employee Sentenced to Total Term of Imprisonment of 228 Months

On June 11, 2013, in the Eastern District of Pennsylvania, IRS employee Patricia
Fountain 3 was sentenced for conspiracy to defraud the United States and the IRS, false
claims to the IRS, filing a false tax return, aiding and abetting the presentation of a false
tax return, and Hobbs Act extortion. 4 Fountain was convicted of the charges on March
13, 2013. 5

As an IRS employee, Fountain was entrusted with a variety of duties, including sending
disallowance letters to taxpayers whose claims for certain tax credits or refunds were
not properly calculated or lacked supporting documentation. Fountain and her co-
conspirators knowingly, intentionally, and voluntarily conspired and agreed together and
with others to defraud the United States and the IRS by obtaining and aiding to obtain
the payment or allowance of false, fictitious, and fraudulent claims, that is tax returns,
claiming undeserved tax credits and refunds. 6

According to court documents, from November 2006 to December 2007, Fountain and
her co-conspirators obtained the personal identifying information (PII) of various
taxpayers, including their name and Social Security Numbers, and filed false Federal
income tax returns in the names of those taxpayers claiming refunds to which they were
not entitled. Fountain directed each taxpayer who received a refund from the IRS to
pay a $400 fee, warning them that if they failed to pay the cash fee she would “red flag”
their account. For those taxpayers who failed to pay the $400 fee, Fountain prepared
and filed IRS Forms 1040X, reversing the refunds for eight taxpayers. 7

Fountain was sentenced to a total term of imprisonment of 228 months and ordered to
pay $1,740,211.40 in restitution. 8 This case was worked jointly with the IRS’s Criminal
Investigation Division.




3
  E.D. Pa. Third Superseding Indict. filed Oct. 9, 2012.
4
  E.D. Pa. Judgment filed June 11, 2013.
5
  E.D. Pa. Verdict Sheet filed Mar. 13, 2013.
6
  E.D. Pa. Third Superseding Indict. filed Oct. 9, 2012.
7
  Id.
8
  E.D. Pa. Judgment filed June 11, 2013.

                                                           April 1, 2013 – September 30, 2013   9
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS


Former IRS Employee Sentenced for Conflict of Interest, Unauthorized Disclosure

On July 16, 2013, in the Southern District of New York, former IRS employee Dennis
Lerner9 was sentenced for acts affecting a personal financial interest and unauthorized
disclosure of information. 10
According to court documents, Lerner, while an IRS employee, personally and
substantially participated in IRS settlement negotiations with a company while actively
seeking employment with the company. Lerner also, while still an IRS employee,
knowingly and willfully disclosed tax return information regarding audits being
conducted by the IRS to an individual who was not an IRS employee. 11
Lerner was sentenced to three years of probation and 150 hours of community service,
and was fined $10,000. 12




9
  S.D. N.Y. Info. filed Dec. 18, 2012.
10
   S.D. N.Y. Judgment In A Criminal Case filed July 16, 2013.
11
   S.D. N.Y. Info. filed Dec. 18, 2012.
12
   S.D. N.Y. Judgment In A Criminal Case filed July 16, 2013.

10        April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



Examples of High-Profile Reports by the Office of
Audit:
Inappropriate Criteria Were Used to Identify Tax-Exempt Applications for Review

The IRS used inappropriate criteria to identify for review Tea Party and other
organizations applying for tax-exempt status based upon their names or policy positions
instead of indications of potential political campaign intervention. The kind of tax
exemption an organization is granted under the I.R.C. determines the nature of the
activities it may undertake.

For example, I.R.C. § 501(c)(3) 13 charitable organizations are prohibited from directly or
indirectly participating or intervening in any political campaign on behalf of or in
opposition to any candidate for public office (hereinafter referred to as political
campaign intervention). 14 However, I.R.C. § 501(c)(4) 15 social welfare organizations,
I.R.C. § 501(c)(5) 16 agricultural and labor organizations, and I.R.C. § 501(c)(6) 17
business leagues may engage in limited political intervention. Tax-exempt
organizations formed under Section 501(c)(4) can participate in some political campaign
activity, but those activities cannot be a significant portion of their activity.

Ineffective management:

     •   Allowed inappropriate criteria to be developed and stay in place for more than 18
         months;
     •   Permitted substantial delays in processing certain applications; and
     •   Allowed unnecessary information to be requested.

Although the IRS began processing some applications with indications of potential
significant political campaign intervention soon after receiving them, no work was
completed on the majority of these applications for 13 months because the IRS
specialists were awaiting assistance from the Exempt Organizations function
Headquarters Office. Of the 296 total political campaign intervention applications
TIGTA had reviewed as of December 17, 2012, 108 had been approved, 28 had been
withdrawn by the applicant, none had been denied, and 160 had been open from 206 to
1,138 calendar days (some for more than three years and crossing two election cycles).

More than 20 months after the IRS identified the initial case with indications of
significant political campaign intervention, it began processing the cases. The IRS
requested from many organizations additional information that included unnecessary
and burdensome questions (e.g., lists of past and future donors). The IRS later

   I.R.C. § 501 (c)(3) (2012).
13

   Political campaign intervention is the term used in Treasury Regulations §§ 1.501(c)(3)-1, 1.501 (c)(4)-
14

1, 1.501(c)(5)-1, and 1.501(c)(6)-1.
   I.R.C. § 501 (c)(4) (2012).
15

   I.R.C. § 501 (c)(5) (2012).
16

   I.R.C. § 501 (c)(6) (2012).
17



                                                            April 1, 2013 – September 30, 2013                11
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


informed some organizations that they did not need to provide the information it had
previously requested. IRS officials stated that any donor information received in
response to a request from its Determinations Unit was later destroyed.

TIGTA recommended that the IRS:
     •   Finalize the interim actions taken;
     •   Provide better documentation for the reasons why applications potentially
         involving political campaign intervention are chosen for review;
     •   Develop a process to track requests for assistance;
     •   Finalize and publish guidance;
     •   Develop and provide training to employees before each election cycle;
     •   Craft and provide workshops to employees before each election cycle to define
         what constitutes a political campaign intervention versus general advocacy, and
         follow up with those organizations that conduct activities which may jeopardize
         their tax-exempt status;
     •   Expeditiously resolve remaining political campaign intervention cases (some of
         which have been in process for three years);
     •   Request that social welfare activity guidance be developed by the Department of
         the Treasury; and
     •   Develop and provide training to employees on the process of how to obtain
         additional information and the appropriate format in which to request it.

In their response to the report, IRS officials agreed with seven of our nine
recommendations and proposed alternative corrective actions for two more. TIGTA
does not agree that the alternative corrective actions will accomplish the intent of the
recommendations and continues to believe that the IRS should better document the
reasons why it chooses applications with indications of significant political campaign
intervention for review, and should develop and publish guidance thereto.
Reference No. 2013-10-053

Review of the August 2010 SB/SE Division’s Conference in Anaheim, California

The Small Business/Self-Employed (SB/SE) Division held a conference for an estimated
2,609 Division executives and managers at a reported cost of $4.1 million at the
Marriott, Hilton, and Sheraton hotels located in Anaheim, California. Procedures at the
time of the conference did not require IRS management to track and report actual
conference costs. As a result, TIGTA could not validate the conference costs reported
by the IRS.

TIGTA determined that the IRS did not use available internal personnel to assist in
searching for the most cost-effective location, as required. Instead, SB/SE Division
management approached two non-governmental event planners to identify a suitable
off-site location for the conference. These two planners were not under contract with
the IRS; hence, they had no incentive to negotiate a favorable room rate for the IRS.
Instead, the three hotels paid the event planners an estimated $133,000 commission
based on the total cost of rooms paid for by the IRS.


12         April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS


The IRS may have been able to negotiate a lower lodging rate to reduce conference
expenses if it had not used non-governmental event planners and had eliminated some
of the negotiated concessions provided by the hotels (e.g., daily continental breakfast, a
welcome reception with two drink coupons for all attendees, and a significant number of
suite upgrades). TIGTA also identified other questionable expenses related to the
conference, including planning trips, outside speakers, video productions, an
information corridor, and promotional items and gifts for IRS employees.

TIGTA recommended that the IRS:

   •   Verify that costs are being tracked for recent conferences;
   •   Track conference attendance;
   •   Ensure that the appropriate IRS office is contacted and used to plan future
       conferences;
   •   Develop procedures outlining the appropriate use of non-governmental event
       planners for IRS conferences;
   •   Establish procedures related to planning trips, information corridors, videos, and
       other technology for future conferences;
   •   Evaluate whether hotel upgrades should be sought for future conferences; and
   •   Ensure that taxable travel is identified and Forms W-2, Wage and Tax Statement,
       are issued to applicable employees.

IRS management agreed with all of TIGTA’s recommendations. The IRS plans to issue
additional guidance related to conference spending and attendance, the tracking of
Continuing Professional Education credits, the use of event planners, the solicitation of
hotel room upgrades, video productions, planning trips, and the conference approval
process. The IRS also stated that it plans to issue Forms W-2 to all applicable
employees.
Reference No. 2013-10-037




                                                  April 1, 2013 – September 30, 2013         13
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




14   April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



       Promote the Economy, Efficiency, and
        Effectiveness of Tax Administration
       IGTA’s Office of Audit (OA) strives to promote the economy, efficiency, and


T      effectiveness of tax administration. TIGTA provides recommendations to
       improve the IRS’s systems and operations and to ensure the fair and equitable
       treatment of all taxpayers. TIGTA’s comprehensive and independent
       performance and financial audits of the IRS’s programs and operations primarily
address TIGTA’s statutorily mandated reviews and high-risk challenges faced by the
IRS.

The IRS’s implementation of audit recommendations results in:

   •   Cost savings;
   •   Increased or protected revenue;
   •   Protection of taxpayers’ rights and entitlements; and
   •   More efficient use of resources.

Each year, TIGTA identifies and addresses the IRS’s major management and
performance challenges. OA places audit emphasis on the statutory coverage required
by RRA 98 and other laws, as well as areas of concern to Congress, the Secretary of
the Treasury, the Commissioner of the IRS, and other key stakeholders.


Audit Emphasis Areas for April 2013 through September 2013

       •   Security for Taxpayer Data and Employees
       •   Tax Compliance Initiatives
       •   Modernization
       •   Implementing the Affordable Care Act and Other Tax Law Changes
       •   Fraudulent Claims and Improper Payments
       •   Achieving Program Efficiencies and Cost Savings



The following summaries highlight significant audits completed in each of these areas of
emphasis during this six-month reporting period:

Security for Taxpayer Data and Employees
The IRS faces the daunting task of securing its massive computer systems against the
growing threat of cyberattacks. Effective information systems security is essential to
ensure that data are protected against inadvertent or deliberate misuse, improper
disclosure, or destruction, and that computer operations supporting tax administration
are secured against disruption or compromise.


                                                  April 1, 2013 – September 30, 2013       15
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


Contractor Employees Have Millions of Dollars of Federal Tax Debts

As of June 14, 2012, 691 (5 percent) of the 13,591 IRS contractor employees reviewed
by TIGTA had $5.4 million in Federal tax debt. These Federal tax debts were either
agreed to by the taxpayers or affirmed by courts of law. Of the 691 contractor
employees, 352 were not on a payment plan to resolve their tax debt. Most of the
contractor employees appeared to have been compliant when their initial staff-like
access was granted. However, at least 319 contractor employees had tax debts
assessed after they were granted staff-like access, and these employees were not on a
payment plan. Under IRS policy, these 319 contractor employees were not eligible for
staff-like access and should not have had access to IRS facilities, systems, or data.

TIGTA identified five IRS contractor employees who either did not file required tax
returns or filed them late but were still granted staff-like access. TIGTA also identified
13 employees of IRS contractors who were tax-compliant at the time staff-like access
was granted, but who subsequently failed to file a required Federal tax return while
assigned to an active IRS contract.

TIGTA identified weaknesses in the IRS’s existing practices that allowed contractor
employees with Federal tax debts and instances of nonfiling to go undetected after staff-
like access had been initially granted, because the IRS does not continuously monitor
contractor employee tax compliance in the same way it monitors IRS employee tax
compliance. Instead, the IRS reviews contractor tax compliance only every five years or
if the contractor employee has longer than a two-year break in service.

TIGTA recommended that the IRS:

     •   Monitor contractor employee tax compliance in a manner similar to the way it
         monitors Federal tax compliance by IRS employees;
     •   Conduct a complete tax compliance check after a break in service longer than
         two years; and
     •   Evaluate contractor employees identified as potentially noncompliant, and either
         bring noncompliant individuals into compliance or remove them from IRS
         contracts.

IRS management agreed with our recommendations and plans to convene a team to
fully explore all viable options to address any future tax noncompliance.
Reference No. 2013-10-082

While Efforts Are Ongoing to Deploy a Secure Mechanism to Verify Taxpayer
Identities, the Public Still Cannot Access their Tax Account Information Via the
Internet

RRA 98 requires the IRS to allow taxpayers to access tax account information online.
The IRS successfully implemented Release 1 of the eAuthentication application during
Fiscal Year (FY) 2012, which allowed a small number of taxpayers to securely verify
their identities with the IRS and participate in the eTranscripts for Banks application.


16         April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS


While several applications have been developed and implemented by the IRS, none of
these applications meet RRA 98 requirements. TIGTA also determined that required
capacity testing was not adequately completed to ensure that the eAuthentication
application can support the expected number of users at any given time and noted
deficiencies with the reporting functionality in Release 1 of the eAuthentication
application, which will be addressed in future releases. Finally, TIGTA noted that total
cost information for the project is not readily obtainable for project management.
TIGTA recommended that the IRS:
    •   Reprioritize its efforts to develop and implement applications that both serve the
        taxpayer and comply with RRA 98 requirements;
    •   Perform complete capacity testing of the eAuthentication application prior to
        Release 2;
    •   Continue its efforts in upgrading the reporting functionality of the eAuthentication
        application; and
    •   Develop a formal system to provide reports of actual costs received and
        accepted by Contracting Officer Representatives.

The IRS agreed with three of our four recommendations. The IRS plans to: prioritize
release of applications that meet the requirements of RRA 98; complete performance
and capacity testing as part of Release 2 of the eAuthentication application; and
increase reporting functionality in Release 2 of the eAuthentication application.

The IRS agreed with the intent and spirit of the fourth recommendation, to develop a
formal system to provide reports of actual costs received and accepted by the
Contracting Officer Representatives, but disagreed with TIGTA’s finding that actual cost
information is not readily available for project management purposes. The IRS
contends that this finding is based on an isolated example.
Reference No. 2013-20-127

Better Cost–Benefit Analysis and Security Measures Are Needed for the Bring
Your Own Device Pilot

The IRS has taken several noteworthy actions to implement its Bring Your Own Device
(BYOD) pilot. For example, the IRS has proceeded toward BYOD in phases and has
begun a proof-of-concept effort that will allow the IRS to apply security settings on
BYOD devices to mitigate risks. However, the IRS has not developed a complete cost-
benefit analysis to fully justify the implementation of the BYOD concept.

Federal-level guidance states that BYOD should be cost-effective and that a cost-
benefit analysis is essential. While the IRS did prepare a simple cost analysis that
compared the estimated cost of BYOD to the cost of the IRS’s existing mobility
programs prior to the start of the BYOD pilot, that analysis was not updated with
complete information on assumptions and costs. BYOD could provide significant
benefits; however, these benefits are just conjecture until a thorough analysis is
conducted.



                                                   April 1, 2013 – September 30, 2013          17
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


Additionally, increased attention is still needed to address security concerns related to
the 460 users participating in the BYOD pilot. The IRS allows BYOD devices access to
resources on the IRS network in addition to e-mail access, thereby increasing the risk
that privacy and taxpayer data could be put at risk. The IRS also allows devices based
on the Android® operating system to participate in the BYOD pilot, even though these
devices are more subjected to malware than the Apple® devices tested in earlier
phases. Audit trails and training also need to be improved.

TIGTA recommended that the IRS:

     •   Ensure that a cost-benefit analysis for BYOD is completed that complies with
         Federal guidance;
     •   Ensure that BYOD users are allowed access to e-mail functions only;
     •   Defer admitting Android into a BYOD pilot or program until a security risk
         assessment has been completed;
     •   Retain and review audit trails in compliance with existing IRS policies; and
     •   Provide periodic training for BYOD participants on threats and recommended
         security practices specific to BYOD.

In its response to the report, the IRS agreed with four of TIGTA’s five recommendations
and proposed some corrective actions that it plans to take only if the BYOD pilot is
expanded or funding is identified. The IRS disagreed with TIGTA’s recommendation to
defer admitting Android devices into the pilot until a security risk assessment is
completed. TIGTA believes that some of the corrective actions proposed by the IRS are
inadequate because they are contingent on BYOD expansion or additional funding. The
relevant controls should be put in place for the existing BYOD effort, which is being
used by hundreds of employees and devices within the production environment.
Reference No. 2013-20-108

Tax Compliance Initiatives
Tax compliance initiatives include the administration of tax regulations, collection of the
correct amount of tax from businesses and individuals, and oversight of tax-exempt and
Government entities. Increasing voluntary taxpayer compliance and reducing the Tax
Gap 18 remain the focus of many IRS initiatives. Although the IRS reported that the Tax
Gap is caused by both unintentional taxpayer errors and willful tax evasion or cheating,
it does not have sufficient data to distinguish the amounts attributable to each. The IRS
also reported that a meaningful improvement in the voluntary compliance rate requires a
long-term, focused effort involving taxpayer service, modernization, and enforcement.

Payment Agreements

Payment agreements are programs which allow taxpayers to make partial payments on
their tax liability and provide a simple and convenient format to do so. Often times
these payments can be made paperless, involving a toll-free call and no personal
18
  The Tax Gap is defined as the difference between the estimated amount taxpayers owe and the
amount they voluntarily and timely pay for a tax year.

18         April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS


interaction with the IRS. These agreements are beneficial to taxpayers or their
authorized representatives because they reduce taxpayer burden. They also decrease
costs and increase revenue for the IRS.

Controls Over Partial Payment Installment Agreements Can Be Improved

When establishing a Partial Payment Installment Agreement (PPIA), the IRS is required
to complete a financial analysis of the taxpayer and to continue assessing the financial
condition of taxpayers with a PPIA every two years. TIGTA reviewed a random sample
of 100 PPIAs and found that the two-year reviews were not always properly performed,
and that some PPIAs were established without a complete financial analysis and/or
manager approval.

To begin the two-year financial assessment, the IRS should conduct an automated
review process of PPIAs at the two-year mark. However, the automated two-year
review processes did not occur in eight (10 percent) of the 84 PPIAs that required a
two-year review. If the automated review process determines that the financial
condition of the taxpayer may have improved, a manual review is required. However,
the manual reviews were not performed properly for 15 (52 percent) of the 29 PPIA
cases for which a manual review was required. IRS procedures do not require
managers to review or approve the results of the two-year review of PPIAs.

In addition, 15 (15 percent) of 100 PPIAs sampled were established without a complete
financial analysis. Without a complete financial analysis, there is a higher risk that the
taxpayers are not paying the maximum amount that they can afford, or that they are
unable to afford the amount in the agreement. Further, 34 (34 percent) of the 100
PPIAs did not have evidence that a manager approved the PPIA. The absence of
documented manager approval indicates that the managers are not reviewing PPIAs
before they are established.

The IRS Collection Process Study report recommended that the IRS expand the use of
PPIAs by offering a modified minimum PPIA to all individual taxpayers in uncollectible
status. The report estimated that if PPIAs were offered to 230,000 individual taxpayers
classified as unable to pay, the collection potential could be as high as $69 million
annually. The IRS advised TIGTA that it does not have plans to implement this
recommendation due to resource limitations.

TIGTA made recommendations to improve controls over the establishment and two-
year review process of PPIAs. TIGTA also recommended that management test the
viability of expanding the use of PPIAs on a sample of taxpayers in uncollectible status.

IRS management agreed with most of the recommendations and plans to take
corrective actions. The IRS did not agree to test the viability of expanding the use of
PPIAs. However, its disagreement was based on results from a different program which
TIGTA does not believe is comparable.
Reference No. 2013-30-040



                                                   April 1, 2013 – September 30, 2013        19
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS


The Online Payment Agreement Program Benefits Taxpayers and the IRS, but
More Could Be Done to Expand Its Use

The Online Payment Agreement (OPA) program allows an individual taxpayer to enter
into a payment agreement with the IRS while eliminating the need for personal
interaction. This program is beneficial to both the taxpayer and the IRS. Taxpayers’
use of the OPA program has increased from 18,291 taxpayers in FY 2007 to 95,979 in
FY 2012 (a 425 percent increase). In addition, the default rate of streamlined
installment agreements processed with the OPA program is 44 percent lower than the
overall default rate.

The IRS projected that the OPA program would process 3.2 million streamlined
installment agreements for FYs 2007 through 2012. However, only 308,246 taxpayers
(10 percent of the goal) used the OPA program to establish their installment
agreements during this period.

The IRS did not establish a process to measure program results against the OPA
program goals. IRS managers and employees associated with the OPA program were
unaware of its goals. Management could do more to promote the program and identify
and remove potential barriers, which could further expand the use of the program.

Despite the modest annual growth, the OPA program has significantly underperformed
and is not meeting usage goals. The OPA projected that the program would process
583,443 streamlined installment agreements in FY 2012. However, it processed only
95,979 installment agreements in FY 2012, which is only 16 percent of the FY 2012
goal. The OPA program would have had to process more than six times as many
installment agreements as it did in FY 2012 to meet its goal.

TIGTA recommended that the IRS:

     •   Measure OPA performance results against program goals;
     •   Improve promotion efforts; and
     •   Perform an evaluation of the OPA and installment agreement programs to
         identify barriers and the reasons taxpayers used the methods they did to
         establish their payment agreements.

The IRS agreed with our recommendations and stated that it has begun taking steps to
implement them.
Reference No. 2013-30-121

Employers Do Not Always Follow IRS Worker Determination Rulings

The Determination of Worker Status Program was established in 1994. This program
allows either a business or a worker to request a letter from the IRS regarding the
worker’s tax status as either an independent contractor or an employee. Known as the
SS-8 Program, it has faced a growing inventory of cases, longer processing times, and
limited employer adherence to program determination rulings. In response to these
issues, the SS-8 Program implemented new prescreening techniques that have the

20        April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS


potential to reduce the time required to process cases while improving the quality of the
inventory.

TIGTA analyzed 5,325 closed Calendar Year (CY) 2009 worker determination rulings in
which the individual was identified as an employee. Results showed that not all
employers are complying with the determination rulings. However, some of these
employers may qualify for relief from employment taxes if their business qualifies under
Section 530 of the Revenue Act of 1978. Section 530 provides for relief from
employment taxes related to the proper classification of workers if certain requirements
are met. The IRS should identify the reasons for employer noncompliance and develop
a strategy to increase compliance with its worker determinations.

TIGTA recommended that the IRS:

     •   Incorporate documentation in the Internal Revenue Manual 19 (IRM) that
         describes the features of the new prescreening techniques;
     •   Update performance goals for case processing times;
     •   Evaluate the new prescreening techniques including the impact on staffing; and
     •   Assess SS-8 Program changes needed to increase employer compliance with
         determination rulings.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2013-30-058

The Correspondence Audit Selection Process Could Be Strengthened

TIGTA evaluated a statistical sample of 102 of 7,470 single-year correspondence audits
in which the taxpayers involved agreed that they understated their tax liabilities by at
least $4,000. For 43 of the 102 taxpayers in the statistical sample, TIGTA found that
similar tax issues also existed on their prior and/or subsequent-year tax returns. TIGTA
also found that 32 of those 43 taxpayers did not have their tax returns audited and, as a
consequence, may have avoided additional assessments ranging from $2,343 to
$18,874.
The IRS places an emphasis on keeping its audit inventories free of older tax years, so
there is sufficient time to complete audits and assess any resulting taxes within the
three-year assessment statute of limitations. This emphasis is one factor that
contributed to the limited number of prior and/or subsequent-year tax audits in our
sample. Control issues also exist over how current-year audit results are used in
deciding whether to audit the prior and/or subsequent-year returns.




19
  The Internal Revenue Manual is the IRS’s primary source of instructions to its employees relating to the
administration and operation of the IRS. It contains directions that employees need in order to carry out
their operational responsibilities.

                                                           April 1, 2013 – September 30, 2013                21
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA recommended that the IRS:

     •   Develop and implement procedures that instruct how current-year
         correspondence audit results are to be used in deciding whether the prior and/or
         subsequent-year tax returns warrant an audit;
     •   Ensure that the instructions are followed; and
     •   Monitor the procedures to determine how effectively current-year
         correspondence audit results are used in deciding to audit prior and/or
         subsequent-year returns.

The IRS agreed with TIGTA’s recommendations and plans to develop an IRM section to
address the case selection and delivery process and the duties and roles of analysts
and examiners.
Reference No. 2013-30-077

Trends in Compliance Activities Through FY 2012

During FYs 2011 and 2012, the IRS encountered challenges that included administering
recent legislative changes in an environment of decreasing resources. For example,
approximately 50 of the 500 Affordable Care Act 20 (ACA) provisions add to or amend
the Internal Revenue Code. At the same time, the IRS operated under a continuing
resolution for FY 2012 that funded it at a little more than $11.8 billion, which is a 2.7
percent reduction since FY 2010.
Since FY 2010, approximately 8,000 full-time IRS positions have been lost—about
5,000 of those from front-line enforcement personnel. In addition to the IRS offering
early retirements and buyouts, more than one-third of its executives and nearly 20
percent of its non-executive managers are currently eligible for retirement.

Enforcement revenue collected declined by 9 percent in FY 2012, from $55.2 billion to
$50.2 billion. This number has decreased for two straight years and is 13 percent less
than the $57.6 billion collected in FY 2010. The 13 percent reduction in enforcement
revenue correlates to the 14 percent reduction in the number of enforcement personnel.

IRS Collection function activities showed mixed results for FY 2012. For the third
straight year, revenue collected on Taxpayer Delinquent Accounts 21 by the IRS
Collection Field function has increased. However, collections by the Automated
Collection System declined for the first time in four years. The IRS continues to receive
more new Taxpayer Delinquent Accounts than it closes. The amount owed increased
by 22 percent in FY 2011 ($56.2 billion) and by 12 percent in FY 2012 ($63.1 billion)
and has grown 46 percent over the past five years.

The Examination function’s recent decrease in revenue agents and tax compliance
officers contributed to a decline in the examinations of individual tax returns, resulting in

20
   Pub. L. No. 111-148, 124 Stat. 119 (2010) (codified as amended in scattered sections of the U.S.
Code), as amended by the Health Care and Education Reconciliation Act of 2010, Pub. L. No. 111-152,
124 Stat. 1029.
21
   A Taxpayer Delinquent Account is a balance due on a taxpayer account.

22        April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS


an overall decrease in examinations. The number of corporate, partnership, and
S corporation examinations increased during FYs 2011 and 2012. The no-change rate
for examinations of individual income tax returns by revenue agents in FY 2012 was 11
percent, but remained lower than the no-change rate reported in FY 2008.

TIGTA made no recommendations in this report, nor did the IRS provide any comments.
Reference No. 2013-30-078

Modernization

The Business Systems Modernization Program is a complex effort to modernize IRS
technology and related business processes. It involves integrating thousands of
hardware and software components while replacing outdated technology and
maintaining the current tax system. The IRS’s modernization efforts are expected to
provide the foundation for implementing a real-time tax system, reducing improper
payments and fraudulent refunds, and providing the technology infrastructure and
architecture that will enable taxpayers and other stakeholders to securely access tax
account information.

Improvements Are Needed to Ensure Successful Development and System
Integration for the Return Review Program

The IRS has not yet established roles for program-level governance for the Return
Review Program (RRP), nor has it documented or clearly identified the key role of
system integrator. From January to December 2012, the IRS conducted activities to
validate that technology product solutions had been integrated successfully. However,
critical systems development products were not completed or approved by major
stakeholders before the IRS committed significant resources. Uncertainty about the
systems development path for the RRP and the absence of Enterprise Life Cycle
guidance for prototypes hindered initial systems development efforts. Further,
alternative commercial software products were not fully considered prior to selecting
technology solutions for the RRP system.

TIGTA recommended that the IRS:

   •   Establish appropriate program-level governance with enterprise-wide authority
       for the RRP;
   •   Document the RRP systems integrator’s roles and responsibilities;
   •   Complete the RRP Prototype Management Plans, clarify how to measure
       prototype success, map prototype activities to requirements, incorporate lessons
       learned, and obtain approval from governance bodies;
   •   Document for approval by established RRP governance bodies the decided RRP
       systems development path;
   •   Establish sufficient Enterprise Life Cycle guidance for prototypes; and
   •   Take appropriate steps to ensure that change requests include alternative
       analyses and impact assessments and also establish and implement Enterprise
       Architecture guidelines for evaluating later versions of tested commercial
       products.
                                                 April 1, 2013 – September 30, 2013       23
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS


The IRS agreed with the recommendations and stated that it has taken or plans to take
corrective actions.
Reference No. 2013-20-063

Annual Assessment of the IRS Information Technology Program

Since TIGTA conducted last year’s assessment report, the IRS has made progress
improving information security. As a result, the Government Accountability Office made
a determination to downgrade information security from a material weakness to a
significant deficiency. Even still, TIGTA’s reviews identified weaknesses in system
access controls, audit trails, and remediation of security weaknesses.
In addition, the IRS took important steps to correct system performance issues of the
Modernized e-File system, allowing delivery of a successful filing season. However,
TIGTA continues to believe that the IRS’s Modernization Program is a major risk.
TIGTA identified several systems development issues that should be addressed to
further strengthen and support the IRS’s modernization efforts. For example, our review
of the Customer Account Data Engine 2 database determined that existing data quality
issues prevented the downstream interfaces from being implemented. Further, the
development and implementation of new systems for the ACA present major information
technology management challenges. As a result, TIGTA plans to continue its strategic
oversight of this area.

Achieving program efficiencies and cost savings is an important goal for the IRS. In
October 2012, the IRS achieved Information Technology Infrastructure Library® Maturity
Level 3 to help achieve greater efficiency delivering information technology services.
While the IRS has made progress on improving program effectiveness and reducing
costs, TIGTA’s recent audit work involving data center consolidation, the Aircard and
BlackBerry® smartphone program, and hardware and software management, identified
several opportunities for the IRS to achieve additional cost savings.

As this was an assessment report of the IRS’s Information Technology Program through
FY 2013, TIGTA did not make any recommendations. However, TIGTA provided
recommendations to the IRS in the audit reports referenced throughout this report.
Reference No. 2013-20-126

Implementing the Affordable Care Act and Other Tax Law Changes

Each filing season tests the IRS’s ability to implement tax law changes made by
Congress, because the IRS must often act quickly to assess the changes and
determine the necessary actions to:

     •   Ensure that all legislated requirements are satisfied;
     •   Create new or revise existing tax forms, instructions, and publications;
     •   Revise internal operating procedures; and
     •   Reprogram major computer systems used for processing returns.




24        April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS


The ACA contains an extensive array of tax law changes that will present a continuing
source of challenges for the IRS in the coming years. While the Department of Health
and Human Services will have the lead role in the policy provisions of the ACA, the IRS
will administer the law’s numerous tax provisions. The IRS estimates that at least 50
provisions will either add to or amend the tax code, and that at least eight provisions will
require the IRS to build new processes that do not exist within the current system of tax
administration.

Late Legislation Delayed the Filing of Tax Returns and Issuance of Refunds for
the 2013 Filing Season

As of May 4, 2013, the IRS received more than 133.6 million tax returns and issued
more than 99.5 million refunds totaling more than $264 billion. However, due to the late
passage of the American Taxpayer Relief Act of 2012 and errors in tax preparation
software packages, approximately 11.6 million taxpayers were unable to file their tax
returns until February or March 2013, depending on the type of forms they included.

The IRS reported that it identified 579,183 tax returns with $3.6 billion claimed in
fraudulent refunds during tax return processing and that it prevented the issuance of
$3.47 billion (96.4 percent) of those refunds. The IRS continues to expand its efforts to
identify fraudulent tax returns and prevent them from being processed.

The IRS offered a number of different options for taxpayers to seek information and
assistance. The use of self-assistance options has grown significantly. These options
provide taxpayers with access to the IRS 24 hours a day, seven days a week. In
comparison, declining IRS resources have reduced the number of taxpayers the IRS
estimates that it can assist at Taxpayer Assistance Centers.

Finally, many tax return preparers continue to not comply with the Earned Income Tax
Credit (EITC) due diligence reporting requirements; questionable education credits and
Qualified Plug-in Electric Drive Motor Vehicle Credits continue to be issued; and
Homebuyer Credit repayments and dispositions are still being incorrectly processed.

TIGTA recommended to the IRS that it:

   •   Ensure the Earned Income Tax Credit penalty is assessed for those who failed to
       comply;
   •   Update the filters to verify the age of those claiming education credits;
   •   Initiate a program to recover education credits from those who were ineligible;
   •   Correct programming errors to eliminate the overassessment of ineligible
       applicants for the Homebuyer Credit;
   •   Implement computer programming changes to eliminate the incidence of errors in
       processing Homebuyer Credits;
   •   Institute a program to accurately record the transfer of Homebuyer Credit
       repayments;
   •   Establish procedures to safeguard the proper recording of the 17-character
       Vehicle Identification Number; and


                                                   April 1, 2013 – September 30, 2013          25
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


     •   Create a program to identify, review, and recover erroneous Plug-in Motor
         Vehicle credits.

The IRS agreed with seven of the recommendations and partially agreed to another.
Form 8936 Qualified Plug-in Electric Drive Motor Vehicle Credit will be reviewed to
determine if changes are necessary to ensure that reported VINs contain the requisite
number of characters.
Reference No. 2013-40-124

Affordable Care Act: Improvements Are Needed to Strengthen Systems
Development Controls for the Premium Tax Credit Project

The IRS has completed development and testing for the Premium Tax Credit
Computation Engine, (PTC-CE) needed to calculate the Advanced Premium Tax Credit
and the Remainder Benchmark Household Contribution, and the IRS developed a
process to verify the accuracy of the PTC-CE calculations. However, improvements are
needed to ensure the long-term success of the PTC Project by adherence to systems
development controls for: (1) configuration and change management; (2) the
interagency test management process; (3) security; and (4) fraud detection and
mitigation in accordance with applicable guidance.
TIGTA recommended that the IRS improve the identification of questionable claims for
the education credits and Qualified Plug-In Electric Drive Motor Vehicle Credit and
reduce errors associated with the Homebuyer Credit repayments and dispositions. In
addition, TIGTA recommended that the IRS initiate programs to recover the erroneous
and questionable credits TIGTA identified and to ensure that EITC due diligence
penalties are assessed when appropriate.

The IRS agreed with a majority of TIGTA’s recommendations and plans to implement
corrective actions. However, the IRS disagreed with one of our recommendations to
ensure that the cybersecurity organization resolves or develops an action plan for the
failed security tests. TIGTA maintains that this recommendation should be addressed to
verify that corrective measures for failed controls have been implemented.
Reference No. 2013-23-119

Fraudulent Claims and Improper Payments

Improper payments include any payments that should not have been made or that were
made in an incorrect amount (both overpayments and underpayments) under statutory,
contractual, administrative, or other legally applicable requirements. Erroneous and
improper payments issued by the IRS generally involve improperly paid refunds, tax
return filing fraud, or improper payments to vendors or contractors. They also include
the growing problem of identity theft.

Identity Theft

Identity theft continues to be a serious and growing problem with a significant impact on
tax administration. The IRS reported that this crime affected 1.2 million taxpayers in CY
2012, and that, as of June 29, 2013, an additional 1.6 million were impacted in CY
26         April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS


2013. Undetected tax refund fraud results in substantial unintended Federal outlays
and erodes taxpayer confidence in the Federal tax system.

The Taxpayer Protection Program Improves Identity Theft Detection; However,
Case Processing Controls Need to Be Improved

The Taxpayer Protection Program has improved identity theft detection. In CY 2012,
the Program identified 324,670 tax returns that involved identity theft and prevented the
issuance of fraudulent tax refunds totaling $2.2 billion. These tax returns were identified
before processing was completed, to protect tax refunds from being issued.

However, controls over identity theft tax returns that the IRS worked in the Taxpayer
Protection Program need to be strengthened. Tests of identity theft cases showed that
the controls, cases worked, and training related to the Taxpayer Protection Program
data were insufficient. For example:

   •   Identity theft indicators are not always added to taxpayer accounts;
   •   Account Management Services system cases are not clearly documented or
       closed accurately;
   •   Timeliness measures have not been established to accurately track the time
       frame required to resolve cases; and
   •   Documentation of employee training is insufficient.

TIGTA recommended that the IRS:

   •   Develop a process to ensure that required identity theft indicators are placed on
       taxpayer accounts;
   •   Create procedures to update the Account Management Services system
       regarding employee actions taken when working identity theft cases;
   •   Establish measures to accurately track the time frame for resolving Taxpayer
       Protection Program cases; and
   •   Ensure that employees complete mandatory training and maintain the required
       documentation in the Enterprise Learning Management System.

The IRS agreed with the recommendations and plans to take corrective actions.
Reference No. 2013-40-062

Detection Has Improved; However, Identity Theft Continues to Result In Billions
of Dollars in Potentially Fraudulent Tax Refunds

Our review identified that expanded identity theft detection efforts by the IRS are helping
identify fraudulent tax returns. However, billions of dollars in potentially fraudulent
refunds continue to be paid. Our analysis of Tax Year (TY) 2011 tax returns identified
approximately 1.1 million undetected tax returns filed using Social Security Numbers
that have the same characteristics as those in IRS-confirmed identity theft tax returns.
Potentially fraudulent tax refunds issued totaled approximately $3.6 billion, which is
down by $1.6 billion compared to the $5.2 billion TIGTA reported for TY 2010.


                                                   April 1, 2013 – September 30, 2013         27
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


In addition, TIGTA expanded its TY 2011 analysis to include tax returns for which the
primary Taxpayer Identification Number on the tax return is an Individual Taxpayer
Identification Number (ITIN). TIGTA identified more than 141,000 TY 2011 tax returns
filed with an ITIN that have the same characteristics as IRS-confirmed identity theft tax
returns involving an ITIN. Potentially fraudulent tax refunds the IRS issued for these
undetected tax returns totaled approximately $385 million.

Lastly, actions still have not been taken to prevent multiple tax refunds from being
deposited to the same bank account. This continues to provide identity thieves with an
easy method to obtain fraudulent tax refunds.

TIGTA recommended that the IRS:

     •   Deactivate ITINs assigned to individuals prior to January 1, 2013, who no longer
         have a tax filing requirement, in an effort to reduce tax filing fraud; and
     •   Continue to analyze the characteristics of identity theft tax returns, including
         using the characteristics of questionable ITIN application data to expand identity
         theft filters.

The IRS agreed with the recommendations and plans to take corrective actions.
Reference No. 2013-40-122

Case Processing Delays and Tax Account Errors Increased Hardship for Victims
of Identity Theft

A review of a statistical sample of 100 identity theft cases closed during the period
August 1, 2011, through July 31, 2012 showed that the IRS correctly determined the
rightful owner of the Social Security Number in all cases. However, taxpayers
continued to face delays, with some cases showing significant inactivity during case
processing. In addition, tax accounts were not always correctly resolved before the
cases were closed.

For the 100 sample cases reviewed, case resolution averaged 312 days and cases
showed significant periods of inactivity (i.e., no work was being performed to resolve the
case). Inactivity on these 100 identity theft cases averaged 277 days. In addition, the
IRS did not correctly resolve tax accounts in 25 of the cases, which resulted in delayed
refunds and/or incorrect refunds.

Finally, processes to ensure the accuracy of identity theft management information
need to be developed. In the CY 2012 Refund Fraud and Identity Theft Global Report,
(Global Report) the Accounts Management function’s open case inventory was
overstated by 95,429 cases. In addition, documentation was not maintained to support
the inventory provided by the Accounts Management function.

The Global Report is the IRS’s authoritative source for identity theft management
information. It provides key statistics on the number of identity theft cases open and
closed, incidents, affected taxpayers, and the amount of fraudulent refunds the IRS
identified.

28         April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA recommended that the IRS:

   •   Ensure that assistors assigned to identity theft cases work these cases
       exclusively and are provided with ongoing training and the ability to perform
       actions to work these cases to conclusion;
   •   Develop clear and consistent processes and procedures to ensure that taxpayer
       accounts are correctly updated when cases are resolved;
   •   Create a standard format for information provided for inclusion in the Global
       Report;
   •   Establish validation processes and procedures to ensure the accuracy of the
       information included in the Global Report; and
   •   Create retention requirements for the documentation supporting information
       included in the Global Report.

The IRS agreed with the recommendations and plans to continue to ensure that there
are sufficient resources assigned to identity theft inventory and phones and that
processes and procedures are developed to ensure that all appropriate actions are
taken on identity theft victims’ accounts. The IRS also plans to develop a template for
use when reporting inventory for the Global Report and plans to use a certification
process for each function to verify the data it provided. Lastly, the IRS plans to ensure
that each function maintains documentation in accordance with retention standards.
Reference No. 2013-40-129

The Purchase Card Program Lacks Consistent Oversight to Identify and Address
Inappropriate Use

While some controls are working as intended, the IRS purchase card program lacks
consistent oversight to identify and address inappropriate use. TIGTA determined that
the IRS does not have a policy to timely cancel purchase cards prior to employee
separation. Of the 387 cards associated with employees who separated during TIGTA’s
audit period, 98 percent were not closed prior to the employee’s departure. TIGTA
believes that this could leave such purchase cards vulnerable to misuse. In addition,
the IRS did not have sufficient guidance to define “split purchases” for office supplies,
which contributed to cardholders unwittingly dividing purchases. Further, current IRS
controls do not include a review specifically designed to detect personal use.

Most IRS cardholders appear to use their purchase cards properly. However, TIGTA
identified some instances of inappropriate use that include improper decorative and
giveaway items for managers’ meetings and Combined Federal Campaign fundraising
events. In addition, IRS representatives who were entertaining foreign officials used
purchase cards to pay for multiple lunches, dinners, and related alcohol purchases. For
example, one dinner cost approximately $140 per guest and a lunch cost $100 per
guest. TIGTA did not find any Department of the Treasury or IRS criteria to assess the
reasonableness of these charges, but TIGTA considers the costs related to this
entertainment to be high. Finally, the Credit Card Services Branch did not report for
potential disciplinary action all instances of inappropriate purchase card use that it
identified.


                                                  April 1, 2013 – September 30, 2013        29
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


TIGTA recommended that the IRS:

     •   Update current purchase card guidance to require purchase card accounts to be
         closed prior to the date of a cardholder’s separation;
     •   Analyze and review transactions to ensure compliance with procurement
         policies;
     •   Clearly define what constitutes a split purchase;
     •   Develop an oversight process to identify IRS employee personal use of
         purchase cards and other inappropriate transactions; and
     •   Require that the Credit Card Services Branch report all identified instances of
         potentially inappropriate use of purchase cards to the Labor and Employee
         Relations function for potential disciplinary action.

IRS management agreed with the recommendations and stated that it plans to take
corrective actions.
Reference No. 2013-10-056

Income and Withholding Verification Processes Are Resulting in the Issuance of
Potentially Fraudulent Tax Refunds

IRS access to third-party income and withholding information is not available until well
after the tax return filing season begins and tax returns are being processed.

In July 2012, TIGTA reported that its analysis of TY 2010 tax returns identified almost
1.5 million tax returns that were not detected by the IRS as potentially fraudulent despite
having the same characteristics as other tax returns which had been confirmed by the
IRS to be fraudulent. Analysis of the 1.5 million undetected fraudulent tax returns
resulted in a determination that only 120,197 (8 percent) received a fraud score high
enough to be sent for verification.

TIGTA’s review of a random sample of 272 of those 120,197 tax returns found that in
some of the cases fraudulent refundable credits were issued because the IRS does not
have the authority to prevent the issuance of the credits. In FY 2012, the IRS requested
expanded math error authority to deny the issuance of refundable credits.

In addition, some potentially fraudulent tax refunds were issued. In certain instances,
the documentation was not sufficient to determine the actions taken by examiners
performing the verifications.

TIGTA recommended that the IRS:

     •   Ensure that actions are taken to prevent the issuance of potentially fraudulent
         refunds when tax returns are not timely screened and verified;
     •   Verify that case actions are sufficiently documented;
     •   Revise procedures to safeguard that when tax returns are identified as potentially
         fraudulent they are re-assigned to another IRS function; and
     •   Retain the tax refund until the tax return is screened and verified.


30         April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS


IRS management agreed with these recommendations and stated that it has taken or
plans to take corrective actions.
Reference No. 2013-40-083

The Law Which Penalizes Erroneous Refund and Credit Claims Was Not Properly
Implemented

The IRS incorrectly interpreted the erroneous refund penalty law, which significantly
limited the types of erroneous tax refund or credit claims to which the penalty would
apply. The IRS assessed only 84 erroneous refund penalties, totaling $1.9 million,
between May 2007 and May 2012.

In response to concerns raised by various IRS functions, in an updated memorandum in
May 2012, the IRS Office of Chief Counsel subsequently revised its interpretation of the
law as to when the erroneous refund penalty could be assessed and issued.

Although the IRS revised its interpretation of the law, it has not developed processes or
procedures to enable those functions (Campus Operations) that disallow the majority of
individual tax credits to assess the erroneous refund penalties that are excessive and
do not have a reasonable basis. For example, in the year after the IRS revised its
interpretation of the law (June 3, 2012, through May 25, 2013), Campus Operations
disallowed 709,123 individual tax credits for which the IRS could have potentially
assessed erroneous refund penalties totaling more than $1.5 billion.

IRS management raised concerns about the costs and benefits of establishing
processes and procedures for the Campus Operations to assess penalties for
erroneous refunds. However, the IRS has not provided any documentation and/or
analysis to support the validity of these concerns. In view of the significant problem of
erroneous claims for credits and refunds and the related costs to the Government, we
believe the IRS should reexamine its decision and put appropriate procedures and
processes in place to comply with this section of the law.

TIGTA recommended that the IRS develop processes and procedures to enable
Campus Operations to asses the erroneous refund penalty for disallowed credit claims
that are excessive and do not have a reasonable basis.

The IRS agreed with the recommendation and stated that a cross-functional team of
affected stakeholders will determine the operational and procedural changes needed to
integrate assessment of the erroneous refund penalty into the Campus Operations.
Reference No. 2013-40-123

Achieving Program Efficiencies and Cost Savings
Given the challenging economic environment and the increased focus by the
Administration, Congress, and the American people on Government accountability and
efficient use of resources, the American people must be able to trust that their
Government is taking action to stop wasteful practices and to ensure that every tax
dollar is spent wisely. While the IRS has made progress in using its data to improve

                                                   April 1, 2013 – September 30, 2013       31
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


program effectiveness and reduce costs, this area continues to be a source of needed
focus.

The Data Center Consolidation Initiative Has Made Significant Progress, but
Program Management Should Be Improved to Ensure That Goals Are Achieved

While the IRS has exceeded its first two years’ goals for reducing data center space and
improving the energy efficiency of its data centers, management of the Data Center
Consolidation Initiative (DCCI) needs to be improved to ensure that the IRS meets its
future DCCI goals. Two years of the IRS’s DCCI have elapsed without a clear plan for
how to accomplish data center space reduction goals. The IRS’s DCCI Program
Management Office (PMO) has not formalized a project management plan that
addresses challenges and details decisions, milestones, and time frames related to how
the IRS will achieve its goals for data center consolidation.

In addition, the IRS has not identified the optimal footprint for its data centers. TIGTA
observed a significant amount of empty space at the IRS’s Enterprise Computing
Center in Detroit, Michigan. TIGTA was informed by IRS management that the IRS’s
lease for this space will expire in April 2015 and that the systems at this location could
be moved to other IRS data centers. During TIGTA’s audit, the IRS announced plans to
close the Enterprise Computing Center in Detroit, estimating that the closing will enable
the IRS to save approximately $15 million annually. Further, the IRS’s DCCI does not
include within its baseline inventory all of its data centers that meet the standard
Federal definition of a data center. The IRS has an additional 115,343 square feet of
data center space in 61 buildings.

TIGTA recommended that the IRS:

     •   Provide resources as appropriate to the DCCI PMO;
     •   Develop a project management plan that addresses challenges to accomplishing
         project goals and solutions;
     •   Consolidate the Enterprise Computing Center in Detroit in the Martinsburg and
         Memphis Enterprise Computing Centers;
     •   Correct the inventory when discrepancies are identified during local site visits;
     •   Formalize plans to develop and apply a baseline footprint to the IRS’s small data
         centers;
     •   Update the annual inventory submitted to the Department of the Treasury to
         include all data centers;
     •   Identify and shut down computer room air conditioners no longer needed; and
     •   Adjust the set point temperatures as appropriate on the remaining computer
         room air conditioners in accordance with industry best practices.

IRS management agreed with seven of the eight report recommendations and partially
agreed with one recommendation. The IRS stated that it has taken or plans to take
appropriate corrective actions.
Reference No. 2013-20-013



32         April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS



Protect the Integrity of Tax Administration


T
         IGTA is mandated by law to protect the integrity of Federal tax administration.
         TIGTA accomplishes its mission, in part, through the investigative work
         conducted by the Office of Investigations (OI). Through its investigative
         programs, OI protects both the integrity of the IRS and its ability to collect
         revenue owed to the Federal Government by investigating violations of criminal
and civil law that adversely impact Federal tax administration as well as administrative
misconduct by IRS employees, all of which undermines the integrity of the Nation’s
voluntary tax system.

The Office of Investigations Performance Model
OI accomplishes its strategic mission objectives through its hardworking employees and
the use of performance measures. These measures are defined as the percentage of
results derived from investigative activities which most accurately align with the mission
of the organization and which provide the greatest impact on the protection of the
integrity of Federal tax administration. Investigations are based on a performance
model that focuses on OI’s three primary areas of investigative responsibility:

   •   Employee integrity;
   •   Employee and infrastructure security; and
   •   External attempts to corrupt tax administration.

OI investigates allegations of wrongdoing that fall within its area of responsibility.

Employee misconduct undermines the IRS’s ability to deliver taxpayer service, to
enforce tax laws effectively, and to collect taxes owed. Threats of physical violence,
harassment, and intimidation of IRS employees are criminal violations and are
aggressively investigated and referred for prosecution. As a result, employees feel
more secure in their work environment and can focus on performing their critical jobs.
With a continued focus on the expanding threat environment, OI balances its attention
to this critical area with its other investigative programs to protect the integrity and
effectiveness of the Federal tax system.

Employee Integrity

IRS employee misconduct, real or
perceived, can erode public trust and
impede the IRS’s ability to effectively
enforce tax laws. This misconduct
manifests itself in a variety of ways,
including misuse of IRS resources or
authority, theft, fraud, extortion, taxpayer abuses, and unauthorized access to, and
disclosure of, tax return information. During this reporting period, employee integrity
investigations accounted for 50 percent of OI’s work.


                                                    April 1, 2013 – September 30, 2013       33
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


The following cases represent OI’s efforts to ensure employee integrity during this six-
month reporting period:

GS-15 Information Technology Specialist Sentenced for False Statements

IRS employee Antonio Willabus was sentenced in the District of Maryland for making
false statements. 22 Willabus was a GS-15 information technology specialist who
worked a compressed schedule and was placed on a “flexiplace” work schedule that
permitted him to work at his home on designated days. He entered his own time,
attendance, and leave data into the IRS’s time reporting database. His supervisor
validated the time and attendance based upon approved leave requests. 23

From about January 13, 2012 to June 8, 2012, Willabus falsely certified in his database
entries that he had worked designated hours when, in fact, he had not worked the hours
and had taken personal time off without authorization. As a result, Willabus received
approximately $28,692 in salary for hours that he did not work. 24

On April 18, 2013, Willabus was sentenced to four months of imprisonment and one
year of supervised release with the additional condition to perform 400 hours of
community service. He was also ordered to pay $24,427.45 in restitution and a $100
assessment. 25 Willabus had previously pled guilty to the false statements charge on
January 18, 2013. 26

IRS Revenue Agent Sentenced for Theft of Public Money

On May 21, 2013, IRS employee Becky L. Book 27 was sentenced in the District of
Kansas for theft of public money, a felony. 28 Between March 2010, and April 2011,
Book, an IRS Revenue Agent, fraudulently charged 744 hours to her cases which she
did not actually work and prepared travel vouchers which claimed fraudulent mileage to
appointments with taxpayers she never attended, resulting in a total loss to the IRS of
$26,449.65. When interviewed by TIGTA Special Agents, Book admitted to filing
fraudulent travel vouchers and "pencil whipping" her Examining Officer’s Activity
Records to cover for her lack of work. 29

Book previously pled guilty to the charge of theft of public money on February 14, 2013,
in the District of Kansas. 30 She was sentenced to two years of probation and ordered to
make restitution in the amount of $26,449.65. 31



22
   D. Md. Judgment filed Apr. 19, 2013.
23
   D. Md. Indict. filed July 16, 2012.
24
   Id.
25
   D. Md. Judgment filed Apr. 19, 2013.
26
   D. Md. Plea Agr. filed Jan. 18, 2013.
27
   D. Kan. Plea Agr. filed Feb. 14, 2013.
28
   D. Kan. Judgment filed May 22, 2013.
29
   D. Kan. Plea Agr. filed Feb. 14, 2013.
30
   D. Kan. Plea Agr. filed Feb. 14, 2013.
31
   D. Kan. Judgment filed May 22, 2013.

34         April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS


Former Supervisory Internal Revenue Agent and Group Manager Sentenced for
Exceeding Authorized Access to a Government Computer and Conflict of Interest

On September 12, 2013, in the Middle District of Louisiana, Jeanne Gavin was
sentenced for exceeding her authorized access to a Government computer and
engaging in a criminal conflict of interest. 32 Gavin pled guilty to the violations on April
29, 2013. 33

Gavin, who was a Supervisory Internal Revenue Agent and Group Manager, was
employed by the IRS starting in 1979. Her group was primarily responsible for auditing
small businesses and self-employed taxpayers. As a manager, Gavin was involved in
identifying taxpayers to be audited, assigning the auditor, and overseeing the audit. 34

While employed by the IRS, Gavin established a private tax and accounting business
where she performed tax and accounting services for a fee, including representation of
taxpayers before the IRS. Gavin made over $70,000 in cash and other payments
through her business. IRS employees are not permitted to engage in outside
employment unless they obtain a written conflict of interest waiver from the IRS. Gavin
did not seek or obtain a waiver for her business, as she knew the IRS would not have
granted her a waiver to perform private tax services. 35

From 2005, through 2009, Gavin accessed and obtained taxpayer information contained
in the IRS computer system over 2,000 times for the purpose of conducting her private
tax and accounting business. She directed unsuspecting subordinate IRS employees,
who believed that the information was being requested for official purposes, to access
the information for her. IRS employees are only authorized to access this information to
carry out their official duties, and not to conduct a private business. 36

Gavin was sentenced to 12-months imprisonment, followed by one year of supervised
release, which includes three months in a residential community corrections center.
Additionally, Gavin was fined $20,000. 37

IRS Tax Examiner Pleads Guilty to Conspiracy to Commit Passport Fraud

On April 4, 2013, in the Southern District of Texas, Temi Russell, an IRS employee,
pled guilty to conspiracy to commit passport fraud. From October 11, 2007 through
September 2, 2010, Russell and a co-conspirator, Nyle Churchwell, worked at a Federal
building in Houston, Texas. 38 Russell was an IRS Tax Examiner and Churchwell was
an Adjudication Manager for the Houston Passport Agency. 39 Russell introduced
another co-conspirator, Lorna Brown, to Churchwell. 40
32
   M.D. La. Judgment filed Sept. 26, 2013.
33
   M.D. La. Minute Entry filed Apr. 29, 2013; M.D. La. Bill of Information filed Mar. 28, 2013.
34
   M.D. La. Bill of Information filed Mar. 28, 2013.
35
   Id.
36
   Id.
37
   M.D. La. Judgment filed Sept. 26, 2013.
38
   S.D. Tex. Plea Agr. filed Apr. 5, 2013; S.D. Tex. Superseding Indict. filed Sept. 5, 2012.
39
   S.D. Tex. Superseding Crim. Indict. filed Sept. 5, 2012.
40
   S.D. Tex. Plea Agr. filed Apr. 5, 2013.

                                                             April 1, 2013 – September 30, 2013   35
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS


As part of the scheme, Brown, who was found guilty of aiding and abetting in this
matter, 41 brought non-U.S. citizens to the passport office to get false U.S. passports.
Churchwell approved the false passports knowing that the documents and witness
information submitted was false. After the passports were issued, Russell would pick
up and deliver them. 42

Spotlight on Integrity
The Federal tax system is based on voluntary compliance
and, as such, it is critical that the American public has
confidence, not only in the security of the sensitive personal
and financial information supplied to the IRS, but also in the
integrity of the IRS employees who access, use, and review                       “Identity theft not only
the information for tax administration purposes.                                  has a negative impact
                                                                                    on the economy, but
Identity Theft by Employees                                                     the damage it causes to
                                                                                       its victims can be
In the current fiscal environment, Federal policymakers are                                   personally,
increasingly concerned with securing the economic health of                          professionally, and
the United States—which includes combating those crimes                                        financially
that threaten to further undermine the Nation’s financial                                   devastating.”
stability. Identity theft is one such crime, and OI is
committed to detecting and investigating identity theft that
falls within its jurisdiction of protecting the integrity of tax                J. Russell George
                                                                                Inspector General for Tax
administration.                                                                 Administration, “Review of the
                                                                                President’s Fiscal Year 2014
TIGTA focuses its limited investigative resources on identity                   Funding Request and Budget
theft cases that include any type of IRS employee                               Justification for the
involvement, theft, or misuse of client information by tax                      Department of the Treasury”
                                                                                testimony on May 8, 2013
preparers, or the impersonation of the IRS through phishing
schemes 43 and other means.

The identity theft landscape is constantly changing as
identity thieves continue to create new ways of stealing PII (e.g., name, address, Social
Security Number, and date of birth) to use for their gain. PII is the lifeblood of identity
theft schemes, and criminals have increasingly turned to the healthcare, financial, and
insurance industries as well as government entities to obtain PII.

It is particularly troubling when IRS employees misuse their positions to facilitate or
participate in identity theft schemes. TIGTA proactively reviews the activities of IRS


41
   S.D. Tex. Order for Presentence Investigation and Disclosure & Sentencing Dates filed Sept. 5, 2012;
S.D. Tex. Superseding Crim. Info. filed Aug. 23, 2012.
42
   S.D. Tex. Plea Agr. filed Apr. 5, 2013.
43
   Phishing is an attempt by an individual or group to solicit personal and financial information from
unsuspecting users in an electronic communication by masquerading as trustworthy entities such as
government agencies, popular social websites, auction sites, online payment processors, or information
technology administrators.

36        April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS


employees who access taxpayer accounts, to identify unauthorized accesses that may
be part of a larger fraud scheme.

The following case represents OI’s efforts to investigate employee identity theft during
this six-month reporting period:

IRS Employee Indicted in Identity Theft Scheme

On July 18, 2013, in the Eastern District of Kentucky, IRS employee Joy Fox was
indicted for fraud and related activity in connection with computers, aggravated identity
theft, mail fraud, and conspiracy to file a false claim. 44 According to court documents,
as part of her duties with the IRS, Fox had access to an IRS computer system which
maintains taxpayer information, including names, Social Security Numbers, and dates of
birth of taxpayers. On dates between January 2013 and March 2013, Fox and a co-
conspirator, Patrick Sharpe, devised a scheme to defraud and obtain money by means
of false pretenses. As part of the plan, Sharpe requested that Fox provide identifying
information on individuals 65 years of age or older who were entitled to receive Social
Security benefits. Fox exceeded her authorized access to the IRS computer system
and improperly, without authority, obtained the personal identifying information of at
least eight individuals. This information was provided to Sharpe for use in the
scheme. 45

Employee Integrity Projects

TIGTA promotes employee integrity by conducting proactive investigative initiatives to
detect misconduct in the administration of IRS programs. During this reporting period,
TIGTA initiated 19 proactive investigations to detect systemic weaknesses or potential
IRS program vulnerabilities.

A recent proactive initiative identified seasonal IRS employees who continued to receive
unemployment benefits after being recalled to work from furlough status by the IRS.
This initiative resulted in the arrests of 13 current and former IRS employees in the
Western District of Tennessee on April 17, 2013. 46

According to indictments filed in March 2013, all 13 were individually charged in
separate indictments and were alleged to have concealed material information and
falsely stated that they were unemployed while applying for or recertifying to obtain
unemployment payments. However, at all times relevant to the indictments, the




44
   E.D. Ky. Indictment, filed July 18, 2013.
45
   Id.
46
   W.D. Tenn. Arrest Warrants Returned Executed: Angela Allison, Dorothy Simmons, Teresa Jenkins,
Angela Scales, Mary Weeks, Evonna Yarbrough, Lillian Hamilton, Jessica Davis, Shari House, Talari
Mitchell, Serina Gaither, Joanne Johnson, and Gale Baker filed Apr. 17, 2013; W.D. Tenn. Indictments:
Angela Allison, Dorothy Simmons, Teresa Jenkins, Angela Scales, Mary Weeks, Evonna Yarbrough,
Lillian Hamilton, Jessica Davis, Shari House, Talari Mitchell, Serina Gaither, Joanne Johnson, and Gale
Baker filed Mar. 27, 2013.

                                                           April 1, 2013 – September 30, 2013             37
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS


individuals were employed by the IRS. 47 Some individuals were also charged with
concealing material information and making false statements to obtain food stamps, 48
welfare, 49 and housing vouchers. 50

In another case, Tracey Lewis, a former IRS employee, was sentenced on June 27,
2013, in the Southern District of Indiana for making fraudulent claims in connection with
unemployment benefits. 51 Lewis knowingly made a false claim for unemployment
benefits by certifying she was not employed when she was employed by the IRS. 52
Lewis was sentenced to three years of probation, 80 hours of community service, and
ordered to pay restitution in the amount of $4,493 to the Indiana Department of
Workforce Development. 53
                                                           OI Provides Bribery Awareness Training to the IRS
Bribery Awareness Initiative

As part of an ongoing effort to promote
employee integrity, OI partnered with the IRS
to produce a well-received bribery awareness
training webinar titled, Bribery: What You
Should Know and How You Should Respond.
The training featured subject matter experts
from OI and was presented to employees
throughout IRS business units.

Employee and Infrastructure
                                                          Pictured from left: Michael A. Delgado, Assistant Inspector
Security                                                   General for Investigations, and Robert O'Malley, Special
                                                                  Agent in Charge, New York Field Division
All reports of threats, assaults, and forcible
interference against IRS employees performing their official duties are referred to
TIGTA’s Office of Investigations. TIGTA special agents are committed to protecting
Federal tax administration by identifying, investigating, and responding to threats of all
types against the approximately 90,000 personnel and 670 facilities of the IRS. During
this six-month reporting period, OI responded to 1,437 threat-related incidents.

TIGTA’s partnership with the IRS Office of Employee Protection (OEP) to identify
potentially dangerous taxpayers is one example of TIGTA’s commitment to protecting
IRS employees. If OEP designates a taxpayer as potentially dangerous, TIGTA
conducts a follow-up assessment of the taxpayer after five years, so that OEP can
determine if the taxpayer still poses a danger to IRS employees. TIGTA’s special
agents provide physical security, known as “armed escorts,” to IRS employees who

47
   W.D. Tenn. Indictments: Angela Allison, Dorothy Simmons, Teresa Jenkins, Angela Scales, Mary
Weeks, Evonna Yarbrough, Lillian Hamilton, Jessica Davis, Shari House, Talari Mitchell, Serina Gaither,
Joanne Johnson, and Gale Baker, filed Mar. 27, 2013.
48
   W.D. Tenn. Indictments: Angela Allison, Dorothy Simmons, and Teresa Jenkins, filed Mar. 27, 2013.
49
   W.D. Tenn. Indictment: Dorothy Simmons, filed Mar. 27, 2013.
50
   W.D. Tenn. Indictment: Angela Allison, filed Mar. 27, 2013.
51
   S.D. Ind. Judgment filed July 1, 2013; S.D. Ind. Info. filed Nov. 15, 2012.
52
   S.D. Ind. Info. filed Nov. 15, 2012.
53
   S.D. Ind. Judgment filed July 1, 2013.

38        April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS


have face-to-face contact with a taxpayer who may pose a danger to the employee.
Armed escorts are conducted to ensure a secure environment in which employees can
perform their critical tax administration functions. During this six-month reporting period,
OI conducted 31 armed escorts for IRS employees.

Collecting taxes is a critical function of the Federal Government. Threats and assaults
directed at IRS employees, facilities, data, and computer systems impede the effective
administration of the Federal tax system and the IRS’s ability to collect tax revenue.
Contact with the IRS can be stressful and emotional for taxpayers. Although the
majority of taxpayer contacts are routine,
some may become confrontational and even
violent. During this six-month reporting
period, threat and assault investigations
accounted for 38 percent of OI’s work.

The following cases represent OI’s efforts to
ensure the safety of IRS employees during this six-month reporting period:

Man Sentenced in Washington for Threatening to Shoot IRS Employees

Leroy Altona was sentenced, in the Western District of Washington, for interference with
the administration of Internal Revenue laws. 54 Altona called the IRS in November 2012,
to complain about a tax penalty that had been assessed in connection with his previous
business. During the call, he threatened to shoot any IRS employees who entered his
property by making such statements as, “How ‘about if I tell ‘em to come and get it and
I’ll wait here with my, uh, Mac 15, and pick ‘em off as they come up the driveway?” and,
“My attitude is like, Revenuers, you shoot ‘em on sight.” 55 Altona was sentenced to two-
years of probation on April 30, 2013. 56 He previously pled guilty to the charge on
January 29, 2013. 57

Man Indicted in Utah on Weapons Charges after Previously Threatening to Bomb
IRS Office

On July 23, 2013, in the District of Utah, Central Division, Keith Pierce was indicted for
failure to register as a dealer and manufacturer, illegal possession of machine guns,
and possession of a firearm with an obliterated serial number. 58 Pierce was arrested on
July 10, 2013, in Provo, Utah on Federal weapons charges. 59

According to court documents, an investigation was initiated on Pierce in November
2012 after he made statements to a confidential source about bombing the IRS office in
Provo, Utah, the Provo Police Department, and a court building. Pierce also claimed to
have access to automatic weapons, as well as the tools and knowledge to make fully

54
   W.D. Wash. Judgment filed Apr. 30, 2013.
55
   W.D. Wash. Plea Agr. filed Jan. 29, 2013.
56
   W.D. Wash. Judgment filed Apr. 30, 2013.
57
   W.D. Wash. Plea Agr. filed Jan. 29, 2013.
58
   D. Utah Indictment filed July 23, 2013.
59
   D. Utah Warrant for Arrest filed July 10, 2013.

                                                     April 1, 2013 – September 30, 2013        39
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS


automatic weapons. During the investigation, Pierce delivered a fully automatic firearm
with an obliterated serial number to a Federal Bureau of Investigations (FBI) undercover
employee. The Bureau of Alcohol, Tobacco, Firearms, and Explosives (BATF) review
and testing of the weapon revealed its modified configuration and concluded it could be
defined as a machine gun. 60 After his arrest, the court found that Pierce constitutes a
risk of danger to the community and ordered he be detained pending trial. 61

The investigation was worked by members of the Joint Terrorism Task Force. The
arrest was conducted by agents of the FBI, BATF, and TIGTA.

Man Pleads Guilty in New York to Assaulting an IRS Employee

On June 19, 2013, in the Southern District of New York, Joseph P. Fienga pled guilty to
Count One of an Information, 62 charging him with assaulting an IRS employee in
Middletown, New York. 63 According to court documents, on or about October 22, 2012,
Fienga did forcibly assault, resist, oppose, impede, intimidate, interfere with, and
commit simple assault on an IRS employee, who was engaged in the performance of
his official duties, by throwing coffee on him. 64

External Attempts to Corrupt Tax Administration
TIGTA is statutorily mandated to investigate external attempts to corrupt or impede tax
administration. There are many ways in which taxpayers may interfere with the IRS’s
ability to collect revenue for the United States, such as impersonating IRS employees or
misusing IRS seals, filing false or frivolous documents against IRS employees, using
fraudulent IRS documentation to perpetrate criminal activity, committing fraud in
contracts awarded by the IRS, and offering bribes to IRS employees to influence their
tax cases.

These attempts to corrupt or otherwise interfere with tax administration inhibit the IRS's
ability to collect revenue and create personal financial troubles for the affected
Government employees. They also undermine the American public's confidence in fair
and effective tax administration. During this
reporting period, investigations into attempts to
corrupt or impede tax administration
accounted for 12 percent of OI’s work.

The following cases represent OI’s efforts to
address and deter external attempts to corrupt
tax administration during this six-month
reporting period:



60
   D. Utah Complaint filed July 9, 2013.
61
   D. Utah Criminal Docket Minute Entry filed July 15, 2013.
62
   S.D.N.Y. Criminal Docket filed June 19, 2013.
63
   S.D.N.Y. Information filed May 8, 2013.
64
   Id.

40        April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS


Woman Sentenced in Louisiana to 27 Months in Prison

On May 17, 2013, Veta Thompson was sentenced in the Western District of Louisiana
for corruptly endeavoring to obstruct or impede the due administration of the Internal
Revenue laws. 65 In 2008, Veta Thompson contacted the IRS to find out how they
handled overpayments to taxpayers' accounts. She was told that if an overpayment
was made to her account, the IRS would issue her a refund. From January 15, 2008,
and continuing through April 29, 2010, Thompson submitted 386 payments to the IRS
totaling $12,825,992.33, knowing that she had no tax liability and that no money was
owed to her by the IRS. All of the payments were rejected by the bank because the
accounts were either closed or there were insufficient funds in the accounts. 66

After Thompson submitted these payments to the IRS, the IRS credited her tax account
before they knew the payments were drawn on accounts that were either closed or that
contained insufficient funds. Because her IRS account showed a credit balance, the
IRS issued nine refund checks to her, totaling $77,349.09. After the IRS realized what
had happened, they placed a freeze on her account, preventing any additional
erroneous refunds from being issued to her. 67 Thompson was sentenced to 27 months
in prison and ordered to make restitution to the IRS in the amount of $77,349.09. 68 She
previously pled guilty to the charge on January 17, 2013. 69

Man Sentenced in New Hampshire for Bribery of a Public Official

On July 10, 2013, in the District of New Hampshire, Hoang O. Hoang was sentenced for
bribery of a public official. 70 Beginning in December 2011, and continuing through
January 2012, Hoang corruptly gave, offered, and promised United States currency to
an IRS Revenue Agent with the intent to influence official acts. Specifically, Hoang
intended to cause the Revenue Agent to falsely reduce the amount of tax due and
owing by Hoang with respect to an audit of Hoang’s business being conducted by the
Revenue Agent. 71 Hoang pled guilty to the violation on April 4, 2013. 72 Hoang was
sentenced to two years of probation and ordered to perform 100 hours of community
service. 73

Man Pleads Guilty in New Jersey to Bribery of Public Officials

On June 21, 2013, in the District of New Jersey, Woodland Park resident 74 Michael
Kazmark entered a guilty plea 75 for knowingly and corruptly giving something of value to


65
   W.D. La. Judgment filed May 22, 2013.
66
   W.D. La. Stipulated Factual Basis filed Jan. 17, 2013.
67
   Id.
68
   W.D. La. Judgment filed May 22, 2013.
69
   W.D. La. Plea Agr. filed Jan. 17, 2013.
70
   D. N.H. Judgment filed July 11, 2013.
71
   D. N.H. Info. filed Oct. 2, 2012.
72
   D. N.H. Crim. Docket filed Oct. 2, 2012.
73
   D. N.H. Judgment filed July 11, 2013.
74
   D. N.J. Info. filed June 21, 2013.
75
   D. N.J. Application for Permission to Enter Plea of Guilty filed June 21, 2013.

                                                             April 1, 2013 – September 30, 2013   41
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


public officials with the intent to influence official acts. 76 Kazmark had an outstanding
Federal tax liability of approximately $98,046 and was seeking to reduce it. 77 Kazmark
made two bribe payments totaling $18,500 to public officials he understood to work for
the IRS in exchange for their official assistance. 78 In addition to the payments, it was
further a part of Kazmark’s bribery scheme that the public officials agree to accept an
offer in compromise for the amount of $9,760 that he had already paid to the IRS, and
place his Federal tax liability in a non-collectible status for two years. 79

Man Pleads Guility in Arkansas to Interference with Tax Administration and
Retaliation of Federal Officials

On June 18, 2013, in the Eastern District of Arkansas, Fred Neal, Jr. pled guilty to
corruptly interfering with the Internal Revenue laws, and filing false liens against
Government employees and officials. 80 A February 2, 2011 indictment charged that
Neal corruptly endeavored to obstruct or impede the due administration of the Internal
Revenue Code by attempting to intimidate, harass, and attack the financial integrity of
Government officials believed to be party to legal actions brought against Neal by the
IRS. 81 Neal acknowledged he did so with the intent to secure an unlawful advantage or
benefit to himself by attempting to keep the United States from foreclosing on his
property. 82 Neal and his spouse had outstanding Federal income tax assessments of
approximately $1.3 million. 83

Neal engaged in open defiance of the liability after legal action and collection
proceedings were initiated. 84 Neal caused repeated filings of fictitious legal and tax
documents attacking the personal financial integrity and well-being of officials and
employees of the United States, including the Secretary of the Treasury, seven IRS
employees, three Department of Justice Tax Division attorneys, at least three Federal
judges and associated United States Court personnel, and a United States Attorney. 85

Neal’s filings of fictitious forms misrepresented that the Government employees and
officials had paid and received personal income reportable to the IRS totaling more than
one billion dollars. 86 Additionally, Neal filed in public records false and fraudulent liens
against the real and personal property of these officers and employees of the United
States on account of the performance of their official duties. 87 Neal acknowledged he
knew the liens or encumbrances were false or contained materially false statements. 88

76
   D. N.J. Plea Agr. filed June 21, 2013.
77
   D. N.J. Info. filed June21, 2013.
78
   D. N.J. Info. filed June 21, 2013; D. N.J. Plea Agr. Filed June 21, 2013.
79
   D. N.J. Info. filed June 21, 2013.
80
   E.D. Ark. Plea Agr. filed June 18, 2013.
81
   E.D. Ark. Indict. filed Feb. 2, 2011.
82
   E.D. Ark. Plea Agr. filed June 18, 2013.
83
   Id.
84
   E.D. Ark. Indict. filed Feb. 2, 2011.
85
   E.D. Ark. Indict. filed Feb. 2, 2011 and E.D. Ark. Plea Agr. filed June 18, 2013.
86
   E.D. Ark. Indict. filed Feb. 2, 2011.
87
   E.D. Ark. Indict. filed Feb. 2, 2011 and E.D. Ark. Plea Agr. filed June 18, 2013.
88
   Id.


42         April 1, 2013 – September 30, 2013
              TIGTA SEMIANNUAL REPORT TO CONGRESS


Woman Indicted in Pennsylvania for Extortion and False Personation of IRS
Employee

On June 5, 2013, in the Middle District of Pennsylvania, Merarys Paulino was indicted
for extortion and false personation of an employee of the United States. 89 Between
February 2013, and May 2013, Paulino falsely pretended to be an employee of the
United States, specifically, a criminal investigator with the IRS named “LaBella
Williams.” Under the false pretense of her employment with the IRS and with the intent
to defraud, Paulino and her co-conspirator, Maria Colvard, falsely demanded and
obtained the client list, money, and closure of Cristina’s Tax Service, through the
wrongful use of fear, including the fear of economic loss. 90

Tax Preparer Integrity

In addition to promoting employee integrity, TIGTA is also committed to educating tax
preparers on integrity. During this semiannual reporting period, TIGTA special agents
provided integrity presentations to tax preparers at IRS tax forums nationwide. The
focus of these presentations was, “Doing the Right Thing: Integrity, TIGTA, and You.”
The presentations provided tax preparers with an understanding of TIGTA’s role in
investigations of alleged misconduct by tax preparers, how to recognize and report
misconduct committed by IRS employees or paid preparers, and when to report
potential risks to IRS employee safety.

Investigative Support
The Forensic Science Laboratory

TIGTA’s Forensic Science Laboratory’s (FSL)
primary customers -- field agents, prosecutors, and
the courts -- often rely upon forensic analysis of
evidence to identify subjects and corroborate or
contest subject testimony. TIGTA’s lab conducts
examinations for OI and other Federal Office of
Inspector General (OIG) agencies. During this six-
month reporting period, the lab conducted 28,240                 Latent Print
questioned document and latent print examinations
for OI and 624 questioned document and latent print examinations for other OIGs.

FSL staff members are certified as expert witnesses and provide courtroom testimony
regarding their forensic analyses. In a recent criminal investigation, FSL staff analyses
and related courtroom testimony were instrumental in the successful prosecution of an
IRS employee who was charged with defrauding the United States Government.




89
     M.D. Pa. Indictment filed June 5, 2013.
90
     Id.

                                                  April 1, 2013 – September 30, 2013        43
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS


                               FSL’s forensic examiner successfully matched a footprint
                               and toeprint found on fraudulent documents to those
                               belonging to the IRS employee. The employee was
                               subsequently convicted for conspiracy to defraud the United
                               States and the IRS, false claims to the IRS, filing a false tax
                               return, aiding and abetting the presentation of a false tax
                               return, and Hobbs Act 91 extortion. 92



       Latent Print
                                      TIGTA’s lab is accredited and its staff individually certified
                                      by the American Society of Crime Laboratory
                                      Directors/Laboratory Accreditation Board (ASCLD/LAB).




91
   The Hobbs Act,18 U.S.C. § 1951, prohibits the actual or attempted robbery or extortion affecting
interstate commerce. 18 U.S.C. § 1951 also proscribes conspiracy to commit robbery or extortion without
reference to the conspiracy statute at 18 U.S.C. § 371.
92
   E.D. PA Judgment, filed June 11, 2013.

44        April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS



Advancing Oversight of America’s Tax
System
      IGTA’s Office of Inspections and Evaluations (I&E) provides responsive, timely,


T     and cost-effective inspections and evaluations of challenging areas within the
      IRS, providing TIGTA with additional flexibility and capability to produce value-
      added products and services to improve tax administration. I&E’s work is not a
      substitute for audits and investigations; in fact, its findings may result in
subsequent audits and/or investigations.

The Office has two primary product lines: inspections and evaluations.

Inspections are intended to:

     •   Provide factual and analytical information;
     •   Monitor compliance;
     •   Measure performance;
     •   Assess the effectiveness and efficiency of programs and operations;
     •   Share best practices; and
     •   Inquire into allegations of waste, fraud, abuse, and mismanagement.

Evaluations are intended to:

     •   Provide in-depth reviews of specific management issues, policies, or programs;
     •   Address Governmentwide or multi-agency issues; and
     •   Develop recommendations to streamline operations, enhance data quality, and
         minimize inefficient and ineffective procedures.

The following reports highlight some of the significant activities that I&E engaged in
during this six-month reporting period:

Inspection of the IRS’s Travel Gainsharing Program

This report presented the results of I&E’s inspection to determine the effectiveness of
the controls established by the IRS over its Gainsharing Travel Savings Program
(GTSP).

The IRS established the GTSP to allow its employees who save the Government money
while traveling to receive as an award one-half of the amount of those savings. In FY
2008 through 2011, 2,122 IRS employees participated in the GTSP and received
approximately $1.9 million in awards. The IRS generally has adequate controls in place
to ensure adherence with GTSP requirements. However, we could not verify the
accuracy of most awards in our sample because the IRS could not locate adequate
supporting documentation. Additionally, IRS employees did not follow some of the


                                                   April 1, 2013 – September 30, 2013     45
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


GTSP requirements when applying for program awards, which resulted in inaccurate
award amounts. Better managerial oversight may have prevented many of these errors.
We recommended that the Chief Financial Officer (CFO) amend the IRM to better
define document retention standards for Gainsharing Program awards and supporting
documentation. Additionally, the CFO should either require that each business unit
establish a centralized repository for Gainsharing Program award documentation or
establish a centralized repository within the Office of the CFO for all Gainsharing
Program award documentation that is generated Service-wide. We also recommended
that the CFO revise Form 13631-A, IRS Travel Savings, to include a space for the first-
level manager’s initials, and that the CFO clarify in the IRM that an employee can only
receive one Gainsharing Program award per fiscal year.

IRS management agreed with all of the recommendations in the report. The CFO plans
to: better define document retention standards, require each business unit to establish a
centralized repository for such documentation, revise Form 13631-A, and clarify the
number of Gainsharing Program awards an employee may receive in a fiscal year.
Report Reference No. 2013-IE-R005

Review of the Implementation of the Telework Enhancement Act of 2010

This report presented the results of our inspection to determine whether the IRS has
taken appropriate actions to comply with the Telework Enhancement Act of 2010 (the
Act). 93 We did not evaluate the effectiveness of the IRS Telework Program in this
review.

The President and Congress encourage increased participation in telework by Federal
agencies in order to ensure continuity of operations during an emergency, reduce
overhead, and improve employees’ ability to manage their work-life obligations. The
IRS has implemented most of the requirements of the Act, establishing a telework policy
that includes requirements for eligibility, as well as employee and manager
requirements for issues such as performance, training, and completing a written
telework agreement. The IRS’s Headquarters Continuity of Operations Plan
recommends telework in appropriate situations.

One purpose of telework in the Government is to ensure that Federal agencies can
continue to provide services when offices are closed due to inclement weather, a
pandemic, or an emergency. However, IRS teleworkers are required to telework during
an emergency only on their scheduled telework day(s). Management anticipates
negotiating with the National Treasury Employees Union (NTEU) to require teleworkers
to work from alternative locations on unscheduled telework days when the office is
closed due to an emergency. However, the IRS could implement this policy for non-
bargaining unit employees without negotiations.

Also, while the IRS captures and reports some telework data, it cannot provide the level
of detail required by the Act due to some systems limitations. The time and attendance
system captures hours worked under the Telework Program but not days. Also, it

93
     Pub. L. No. 111-292, 124 Stat. 3165 (2010).

46           April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS


captures those employees whose telework type code is selected in the time and
attendance system, but not the total number of eligible employees. According to the
Telework Program Manager, 94 the IRS is considering how to best meet the reporting
requirements, but changes to the existing time reporting system may be cost prohibitive
and must also be negotiated with the NTEU.

We recommended that the IRS Human Capital Officer revise the IRS’s telework policy
to indicate that a non-bargaining unit employee with an approved telework agreement
can be expected to telework outside his or her normal telework schedule in the case of
an emergency situation. Additionally, the Human Capital Officer should require that
telework agreements include specific language indicating whether or not the employee
is expected to telework when the office is closed due to an emergency.

Management partially agreed with our recommendations to require non-bargaining unit
teleworkers to telework when the office is closed due to an emergency and to include
emergency expectations for teleworkers in telework agreements. To ensure that all IRS
employees are treated consistently, changes to telework requirements for bargaining
unit employees will be addressed with the NTEU in upcoming term negotiations.
Implementation for both bargaining and non-bargaining unit employees will be
contingent on the outcome of these negotiations.
Report Reference No. 2013-IE-R006

Analysis of Executive Travel Within the IRS

This report presented the results of our inspection to assess the costs and frequency of
IRS executives’ temporary duty travel. Additionally, we determined whether the IRS
considered alternatives to reduce travel expenses incurred by IRS executives.

The Federal Travel Regulation 95 requires that, in administering the authorization and
payment of travel expenses, Federal agencies:

     •   Must limit the authorization and payment of travel expenses to travel that is
         necessary to accomplish the agency’s mission in the most economical and
         effective manner,
     •   Should give consideration to budget constraints, adherence to travel policies, and
         reasonableness of expenses, and
     •   Should always consider alternatives, including teleconferencing, prior to
         authorizing travel. Other alternatives include reduced per diem 96 and a
         temporary change of station. 97

94
   The Telework Program is included in a division of the Human Capital Office.
95
   The Federal Travel Regulation is contained in 41 Code of Federal Regulations (C.F.R.) Chapters 300
through 304, which implements statutory requirements and Executive Branch policies for travel by
Federal civilian employees and others authorized to travel at Government expense.
96
   A daily allowance for expenses; a specific amount of money that an organization gives an individual per
day to cover living and travel expenses in connection with work done away from the individual’s home or
post of duty.
97
   The relocation to a new post of duty while performing a long-term assignment and subsequent return to
the previous post of duty upon completion of that assignment.

                                                           April 1, 2013 – September 30, 2013                47
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS


Furthermore, Executive Order 13,589, 98 Promoting Efficient Spending, requires each
agency to reduce administrative costs in FY 2013, including travel and conference-
related activities, by not less than 20 percent below FY 2010 levels.

In FYs 2011 and 2012, there were 351 and 373 executives in the IRS, respectively. 99 In
FY 2011, the IRS spent approximately $4.8 million for executive travel. In FY 2012,
spending for executive travel decreased to about $4.7 million. 100 We analyzed travel
information for IRS executives from GovTrip 101 and the Integrated Financial System 102
for IRS executives to determine whether executive travel appeared to be excessive
based on travel expenses claimed and the number of days traveled.

Overall, executive travel does not appear to be excessive. However, we noted that a
small number of executives had extremely high travel expenses compared to the rest of
the executives, and that several executives frequently traveled to the Washington, D.C.
area to conduct day-to-day operations. Moreover, 12 executives (seven in FY 2011 and
five in FY 2012) were in travel status for over 200 days. In April 2013, the IRS instituted
a new interim travel policy that generally restricts executives from being in travel status
more than 75 nights in any fiscal year.

The cost and frequency of travel for some executives indicate that they may not live in
the best location to economically accomplish their roles and responsibilities. While the
Federal Travel Regulation does not set any total monetary or durational limits on
temporary duty travel, the IRS should consider a temporary or permanent change of
station as an alternative to long-term temporary duty travel. However, the IRS does not
have a policy that requires decision makers to document whether a temporary or
permanent change of station was considered as an alternative to long-term temporary
duty travel.

We recommended that the CFO require an analysis that compares the costs and
benefits of a long-term taxable travel situation 103 to those of a temporary or permanent
change of station to demonstrate that the more favorable alternative was selected. The
analysis should be in writing and prepared before placing the employee on long-term
travel status or authorizing a temporary or permanent change of station.

98
   76 Fed. Reg. 70,863, 70,864 (Nov. 15, 2011). Executive orders are official documents through which
the President of the United States manages the operations of the Federal Government.
99
   The number of executives for each fiscal year was calculated based on the number of executives on-
roll as of fiscal year end and the number of executives that worked during the fiscal year but separated
before fiscal year end.
100
    Because some executives were not executives for the entire fiscal year, travel expenses may include
travel for trips made as non-executives.
101
    GovTrip is a computer application and database that provides IRS travelers with automated travel
planning and reimbursement capabilities. The system also includes authorization, reservation, and
vouchering capabilities.
102
    The Integrated Financial System (IFS) contains the IRS’s core financial systems, including expenditure
controls, accounts payable, accounts receivable, general ledger, and budget formulation.
103
    The IRS city-to-city policy, IRM 1.32.11.9.1, provides for two situations that can be overnight long-term
taxable travel: (1) travel to a single location that is expected to last more than one year; or (2) employee
performs principal duties the majority of the time in a location away from the official station, and this
arrangement is expected to last indefinitely or long enough that the new location becomes the main work
location.

48         April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS


IRS management agreed with the recommendation. The CFO plans to develop and
implement guidance to require a business case in each circumstance that would place
an employee in a long-term taxable travel situation. The business case will be used to
evaluate and document the costs and benefits of placing the employee on long-term
taxable travel status, as compared to those of temporarily or permanently changing the
employee’s official station.

Additionally, in June 2013 the IRS issued interim guidance 104 that requires each
executive position to have an identified position post of duty and the official station to be
identified as either location-specific or location-neutral. 105 This policy is to be
implemented in a manner that strikes the appropriate balance between reducing
executive travel and maintaining operations.
Report Reference No. 2013-IE-R007

The IRS Needs to Improve the Comprehensiveness, Accuracy, Reliability, and
Timeliness of the Tax Gap Estimate

The Tax Gap is defined as the difference between the estimated amount taxpayers owe
and the amount they voluntarily and timely pay for a tax year. The IRS’s most recent
Tax Gap estimate was $450 billion for TY 2006. 106 The Tax Gap estimate is a widely
used measure in tax policy and administration. Some officials state that the absolute
number is unimportant since the estimate is a significant amount. However, an
important consideration regarding accuracy is the relationship between the different
forms of noncompliance and the types of tax. Furthermore, as Congress considers tax
reform, it is important that the Tax Gap estimate reflect as accurately as possible the
many forms and areas of noncompliance so that tax policy options can be considered.

Several issues affect the comprehensiveness, accuracy, reliability, and timeliness of the
Tax Gap estimate. First, the voluntary compliance rate computation derived from the
Tax Gap estimate is now used by the IRS and the Department of the Treasury as the
measure for achieving the Agency Priority Goal 107 of increasing voluntary compliance.
This may require more frequent or interim updates to the estimates. Furthermore, in
order to have a credible goal, the data should be verifiable and valid. However, the IRS
develops the Tax Gap estimates in accordance with its own policies and procedures.




104
    IRS, Memorandum for All Executives: Guidance on Executive Travel – Determining Position Post of
Duty and Official Station for Executives (June 26, 2013).
105
    In cases where the work activities can be performed in virtually any geographical location, the post of
duty will be considered neutral.
106
    IRS, IRS News Release IR-2012-4, IRS Releases New Tax Gap Estimate; Compliance Rates Remain
Statistically Unchanged From Previous Study (Jan. 6, 2012), available at http://www.irs.gov/uac/IRS-
Releases-New-Tax-Gap-Estimates;-Compliance-Rates-Remain-Statistically-Unchanged-From-Previous-
Study. IRS, Tax Gap for Tax Year 2006 Overview (Jan. 6, 2012), available at
http://www.irs.gov/pub/newsroom/overview_tax_gap_2006.pdf.
107
   PERFORMANCE.GOV – DEPARTMENT OF THE TREASURY,
http://goals.performance.gov/goal_detail/TREAS/333#Progress_and_Next_Steps (last visited Mar. 14,
2013).

                                                            April 1, 2013 – September 30, 2013                49
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS


While Federal agencies are generally required to follow Office of Management and
Budget (OMB) Standards and Guidelines for Statistical Surveys108 (OMB Standards),
the IRS stated that these standards are not technically applicable to the conduct of the
National Research Program. The IRS does adhere to several aspects of the OMB
Standards through its own policies and procedures, including elements in the planning
and design phases, but does not adhere completely to other aspects associated with
developing cost estimates, the production of estimates and projections, and conducting
a formal peer review process.

Second, the individual income tax underreporting gap estimate could be more
comprehensive if it included estimates for the informal economy 109 and offshore tax
evasion. While the estimation method does include a process to impute undetected
income, separate quantified estimates would provide better information on the size of
these compliance issues. These areas present significant challenges to tax
administration, and the absence of a related estimate could hinder or delay possible
solutions.

Third, the current method of estimating the corporate Tax Gap needs to be improved.
TIGTA has two concerns about the accuracy and reliability of the TY 2006 corporate
income tax underreporting gap estimate. Both concerns relate to using recommended
tax from operational examinations as the basis for projecting the Tax Gap.

      •   The difficulty in deriving the actual tax liability of large corporations. While
          recommended tax assessments for individual and small corporate taxes are not
          frequently contested, large corporations often contest recommended taxes. The
          result is often an assessed amount that is substantially less than the
          recommended tax. Therefore, using recommended tax as a basis for projections
          of noncompliance may not provide reliable information.

      •   A significant portion of small corporations are substantially no more than
          incorporated sole proprietorships. In fact, in TY 2003, there were about
          758,000 corporations with reported gross receipts of less than $100,000.
          Consequently, it is extremely likely that many of the tax returns of small
          corporations exhibit the same pathologies as those of sole proprietorships. That
          is, a small percentage of these returns also account for a significant portion of the
          underreporting.

We recommended that the Director, Office of Research, Analysis, and Statistics, take
the following actions: (1) conduct a study to determine the feasibility of providing interim
updates of the Tax Gap estimate; (2) develop a process and procedures to ensure
compliance with the applicable OMB Standards; (3) issue a published report to explain
the methods, assumptions, and premises used to develop the estimates; (4) develop
the capability to estimate the Tax Gap for the informal economy; (5) perform a study to

108
    OMB, Standards and Guidelines for Statistical Surveys (Sept. 2006), see
http://www.whitehouse.gov/sites/default/files/omb/inforeg/statpolicy/standards_stat_surveys.pdf.
109
    The informal economy is that part of the economy that involves the purchase and sale of legal goods
and services in an unregulated environment, though the processes of production and distribution may be
illegal; for example, selling goods without a necessary permit or evading taxes.

50          April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS


determine the feasibility of creating an estimate of the Tax Gap due to offshore tax
evasion; (6) consider modifying the estimation model for large corporations from using
recommended tax from operational examinations to tax assessments from operational
examinations; and (7) consider conducting a National Research Program review on
small corporations with total assets of less than $10 million that file Form 1120, U.S.
Corporate Income Tax Return.

The IRS agreed with our first three recommendations and substantially agreed with
Recommendation Four by agreeing to perform a feasibility study to estimate the Tax
Gap for the informal economy. The IRS also agreed with Recommendation Five and
substantially agreed to Recommendation Six by studying the merits of alternative
approaches to estimating noncompliance by large corporations. Finally, the IRS is
conducting a National Research Program review of small corporations with less than
$250,000 in assets. However, because this review is based on a very small sample, the
IRS will consider the feasibility of conducting more studies of small corporations.

The IRS response addressed the substantive issues identified in our evaluation. The
corrective action to Recommendation Four, to perform a feasibility study for estimating
the informal economy portion of the Tax Gap, addresses our concerns about that issue.
Likewise, the corrective action to study the merits of alternative approaches to
estimating large corporation noncompliance, and performing a limited study of small
corporation noncompliance while considering the feasibility of conducting additional
studies, addresses our sixth and seventh recommendations.
Report Reference No. 2013-IE-R008

Bicameral Request on Climate Change

TIGTA responded to a congressional request for information concerning the IRS’s
efforts to confront the growing threat of climate change. We gathered data about the
IRS's relevant programs and operations related to climate change and coordinated our
efforts with the Treasury Inspector General, who received a similar request and has the
oversight responsibility for most other bureaus of the U.S. Department of the Treasury.

Based on our review of relevant documents and interviews, we found that, while much
of the climate change policy and subsequent annual reporting is centralized at the
departmental level, the IRS's size makes it a significant contributor to the Department of
the Treasury's performance in reaching its energy and environmental goals, including
those related to climate change. For example, 3,059 (86 percent) of the Department of
the Treasury's 3,569 vehicles are owned or operated by the IRS. Furthermore, IRS
facilities account for 15 (58 percent) of the 26 facilities for which the Department of the
Treasury reports environmental and energy progress. 110




110
  The energy and environmental goals and accomplishments for properties leased by the IRS from the
General Services Administration are reported by the General Services Administration.

                                                        April 1, 2013 – September 30, 2013           51
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


The IRS reported the following recent accomplishments, among others, to the
Department of the Treasury:

     •   A 22 percent reduction in energy intensity, defined as energy consumption per
         square foot of building space, in IRS facilities in FY 2012, exceeding the IRS's
         goal of 21 percent;
     •   The construction of a new facility in Martinsburg, West Virginia, for the
         replacement of all mechanical, electrical, and plumbing systems with energy-
         efficient upgrades for the major equipment associated with these systems; and
     •   Renovations at the IRS facility in Andover, Massachusetts, including energy-
         efficiency upgrades such as new lighting, a new geothermal system to heat and
         cool the entire facility, and right-sizing the facility's data center with best practices
         implemented as part of the construction effort.




52         April 1, 2013 – September 30, 2013
            TIGTA SEMIANNUAL REPORT TO CONGRESS



               TIGTA’s International Programs


T
          IGTA is committed to providing comprehensive oversight of IRS international
          programs and operations by developing a strategy of international audit,
          inspection, and law enforcement liaison and outreach. This strategy will enhance
          TIGTA’s capacity to execute its oversight model in the international environment.

The United States taxes U.S. individuals and businesses on their worldwide income and
taxes foreign persons on their U.S. source income. The international tax administration
can be divided into four general areas:

      •    U.S. business cross-border;
      •    Foreign business in the U.S.;
      •    Individual cross-border; and
      •    Foreign person in the U.S.

The tax law for cross-border transactions and investments can be highly complex and
specialized. Both businesses and individuals can use partnerships and tiered structures
for business purposes and to obscure the beneficial owner of the assets.

The President, the Secretary of the Treasury, and the IRS Commissioner have placed
an emphasis on international tax compliance. Also, business tax reform discussions
include potential substantive changes to intercompany transfer pricing policy. In
addition, the IRS is implementing the Foreign Account Tax Compliance Act 111 to help
prevent U.S. taxpayers from hiding assets offshore.

The International Tax Gap

The International Tax Gap – the amount the U.S. loses each year that is attributable to
the abuse of offshore tax havens – is estimated to be approximately $100 billion. 112

The IRS has embraced a Service-wide approach to international tax administration that
seeks to address more effectively the increased globalization of both individuals and
businesses. This strategy is designed to improve voluntary compliance with
international tax provisions and to reduce the portion of the Tax Gap that is attributable
to international transactions.

The following reports highlight some of the significant activities that TIGTA has engaged
in during this six-month reporting period:




111
    Pub. L. No. 111-147, Subtitle A, 124 Stat 71, 96-116 (2010) (codified in scattered sections of 26
U.S.C.).
112
    Staff of S. Comm. On Homeland Sec. and Governmental Affairs, Permanent Subcomm. on
                   th
Investigations, 110 Cong., Tax Haven Banks and U.S. Tax Compliance (Comm. Print 2008),
http://hsgac.senate.gov/public/_files/071708PSIReport.pdf.

                                                            April 1, 2013 – September 30, 2013          53
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


Systemic Penalties on Late-Filed Forms Related to Certain Foreign Corporations
Were Properly Assessed, but the Abatement Process Needs Improvement

Overall, controls ensured that systemic penalties for late-filed Forms 5471 were properly
assessed and compliance was improved for many taxpayers. While a standardized
framework was not used to develop a pilot program for systemically assessing late-filed
Form 5471 penalties, the IRS objectives to enhance revenue and improve taxpayer
compliance were met.
However, controls are not in place to properly abate systemic penalties on late-filed
Forms 5471. Specifically, in 40 (43 percent) of 93 sampled cases, the penalties were
incorrectly abated. Total abatements for these cases amounted to $1.75 million,
resulting in approximately $31 million in incorrect abatements when projected to the
population. In addition, the IRS did not properly process eight filing extensions. This
resulted in $6.41 million in unnecessary late-filed Form 5471 penalty assessments that
were ultimately abated, resulting in approximately $11.6 million in incorrect
assessments.
Further, in 80 (86 percent) of the 93 sampled cases, IRS employees did not adequately
document their decisions to abate these penalties.
TIGTA recommended that the IRS:

     •   Conduct a study to determine if the automated late-filed Form 5471 penalty-setting
         process should be expanded;
     •   Provide refresher training to employees and their managers on the importance of
         documenting penalty abatement request decisions;
     •   Require managers to review all late-filed Form 5471 penalty abatements; and
     •   Ensure that filing extension requests received with a payment are properly coded
         and timely processed.

IRS officials agreed with all of the recommendations and have taken measures to
implement the corrective actions.
Reference No. 2013-30-111

The Referral Process for Examinations of Tax Returns Claiming the Foreign
Earned Income Exclusion Needs to Be Improved

Of the approximately 140 million TY 2009 individual income tax returns filed during
Processing Years 2010 and 2011, 372,119 (0.27 percent) included a Form 2555/2555-
EZ. The exclusions, credits, and deductions claimed were as follows:

     •   $23.3 billion in Foreign Earned Income Exclusion (FEIE);
     •   $5 billion in Foreign Tax Credits;
     •   $2.7 billion in Foreign Housing Exclusions; and
     •   $102.6 million in the Foreign Housing Deductions.

From a statistical sample of 150 tax returns from a population of 331,405 TY 2009
individual income tax returns filed during Processing Year 2010 and claiming the FEIE

54         April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS


and/or the Foreign Housing Exclusion/Deduction, we estimate that U.S. taxpayers living
and working in foreign countries who claimed the FEIE reduced their Federal income
taxes by $562 million. Taxpayers claiming the Foreign Housing Exclusion/Deduction
reduced their Federal income taxes by an additional $174 million for TY 2009.

In addition, we found that from FYs 2009 through 2011, 2,851 (99 percent) of the 2,876
individual income tax returns claiming the FEIE and/or the Foreign Housing Exclusion/
Deduction should have been referred to an international examiner under IRS
procedures, but were not. We estimate that improving the audit referral process could
result in approximately $2.7 million in additional tax assessments, or about $13.5 million
over five years.

Moreover, 1,583 examinations that were not required by the IRS to be referred might
warrant referral to international examiners. Referral of these tax returns could
potentially result in approximately $1.5 million in additional tax assessments, or about
$7.5 million over five years.

TIGTA recommended that the IRS ensure that:

   •   Domestic examiners and their managers are aware of the international referral
       criteria, and that a cross-reference to those criteria is incorporated into the
       Campus Reporting Compliance section of the IRM; and
   •   Evaluate the international referral criteria process to determine if it should be
       expanded to include the Wage and Investment Division.

IRS officials agreed with these recommendations and plan to take corrective action.
Reference No. 2013-30-112

The International Campus Compliance Unit Is Improving Individual Tax
Compliance

The IRS successfully planned the International Campus Compliance Unit (CCU) and
followed general Government guidelines and steps for implementing a new business
process during the planning. The IRS is still developing inventory selection criteria for
the CCU. However, from FY 2011 through March 13, 2013, the CCU conducted almost
18,000 audits and assessed approximately $36 million. Furthermore, the no-change
rate decreased from FY 2012 to FY 2013, while agreed assessments increased.

Despite its accomplishments, the CCU does not have specific performance measures
for its operations. The current performance measures incorporate all tax examiner
groups in the Individual International Compliance Program. However, tax examiner
groups outside of the CCU work different issues and cases. Ideally, an agency should
have measures for all its major processes to track costs, quality, and timeliness.

TIGTA recommended that the IRS enhance the performance measures for the CCU to
more specifically reflect the work performed by CCU examiners. The IRS agreed with



                                                   April 1, 2013 – September 30, 2013        55
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS


this recommendation and plans to evaluate the current performance measures and
CCU inventory results to determine how to enhance the measures and achieve them.
Reference No. 2013-30-113

International Visitors

TIGTA’s international strategy includes engaging with foreign tax authorities in the
sharing of mutually beneficial strategies for providing oversight of the IRS and foreign
national revenue collection agencies.

During this six-month reporting period, TIGTA was very pleased to host delegations
from Cambodia and Sri Lanka/Maldives. International visits with delegations from other
countries, administered in association with the IRS International Visitors Program, serve
to build working relationships and foster increased
cooperation in the arena of international tax
administration.

In June 2013, TIGTA hosted a delegation from
Cambodia led by His Excellency Sim Eang,
Director General of the General Department of
Taxation. Eang met with representatives from OI,
OA, and I&E to achieve an understanding of how
the Inspector General system works, and how
internal audits are conducted within the
Department of the Treasury. The audit-centric
discussion provided the visiting delegation a better understanding of TIGTA’s role in our
Nation’s tax administration and its relationship with the IRS.

In September 2013, TIGTA hosted a joint delegation from the countries of Sri Lanka and
the Maldives led by Ahmed Ali of the Maldives Inland Revenue Authority. The
delegation met with OI and OA to gain a perspective of how the United States oversees
Federal tax administration to better conduct the same services in Sri Lanka.




56       April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



American Recovery and Reinvestment Act
of 2009
The American Recovery and Reinvestment Act of 2009 (Recovery Act) 113 was enacted
on February 17, 2009. The Recovery Act presented significant challenges to all Federal
agencies as they moved to implement provisions quickly while attempting to minimize
risk and meet increased standards for transparency and accountability. However, with
its more than 50 tax provisions, the Recovery Act poses especially significant
challenges to the IRS as the Nation’s tax collection agency and administrator of the tax
laws.

TIGTA has issued numerous reports related to the IRS’s efforts to implement Recovery
Act tax provisions. For this six-month reporting period, TIGTA issued the following
significant report:

Review of the IRS’s American Recovery and Reinvestment Act Fund Expenditures
for FY 2011

This report presented the results of our inspection to verify the accuracy, timeliness, and
reporting of the payment by the IRS of invoices for Recovery Act expenses. Our
inspection included invoices paid during the period October 1, 2010, through
September 30, 2011.

The IRS is responsible for administering more than 50 114 tax law provisions contained in
the Recovery Act. In April 2009, the IRS received $202 million of its appropriation of
Recovery Act funds. 115 These funds were required to implement the necessary tax
changes resulting from provisions of the Recovery Act. These changes included
reprogramming the IRS computer systems, updating related tax forms and publications,
and providing customer service to assist taxpayers in obtaining their Recovery Act
benefits. As of September 30, 2011, the IRS had obligated more than $201 million, with
disbursements exceeding $198 million.

One of the stated goals of the Recovery Act is to “foster unprecedented levels of
accountability and transparency in Government spending.” The Recovery
Accountability and Transparency Board (Recovery Board) 116 provides transparency to


113
    Pub. L. No. 111-5, 123 Stat. 115.
114
    This number could be as high as 56, depending on how the law is interpreted.
115
    This appropriation included $80 million for FY 2009 through FY 2010 to implement the Health
Coverage Tax Credit program. The IRS also received $123 million to support tax provision changes cited
in the Recovery Act. The Department of the Treasury retained $1 million for administrative oversight,
resulting in the IRS receiving $202 million.
116
    The Recovery Board was created by the Recovery Act with two goals: to provide transparency of
Recovery Act funds and to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors
General from various Federal agencies serve with the Chairman. The Recovery Board issues quarterly
and annual reports to the President and Congress and, if necessary, “flash reports” on matters that
require immediate attention.

                                                         April 1, 2013 – September 30, 2013              57
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS


the public concerning Recovery Act funds. One way the Recovery Board accomplishes
this goal is by publishing Federal agencies’ use of Recovery Act funds weekly.

The OMB 117 issued guidance documents118 that outlined steps for implementing the
Recovery Act and clarified the requirements for processing procurements. Federal
agencies are required to report to the Recovery Board, on a weekly basis, all cumulative
Recovery Act obligations and gross outlays (expenditures)119 in a standard reporting
format. They also must use separate Treasury Appropriation Fund Symbols 120 to track
and report Recovery Act obligations and disbursements.

The IRS generally executed adequate internal controls to ensure timely and accurate
reporting for Recovery Act expenditures during the review period. The IRS has
adequate, documented operating procedures for ensuring that Recovery Act procedures
are properly and timely reported.

The IRS obtained approximately $123,000 (57.5 percent) of the $214,000 in total
discounts offered by vendors. Even though the Prompt Payment Act does not require
that Federal agencies take all available discounts that are offered, taking the discounts
provides the IRS with the opportunity to make better use of these funds. Due to the
limited scope of our inspection, we did not determine the IRS’s ability or inability to
obtain the offered discounts.

The IRS was in general compliance with OMB’s guidance and Recovery Act
requirements by:

      •   Submitting all 52 weekly reports of its cumulative Recovery Act obligations and
          gross outlays in the prescribed format;
      •   Using separate Treasury Appropriation Fund Symbols for its two Recovery Act
          funds; and
      •   Ensuring that Recovery Act expenditures were timely forwarded to the
          Department of the Treasury for posting to Recovery.gov.

TIGTA made no recommendations.
Report Reference No. 2013-IE-R009


117
    The OMB has primary responsibility for developing Governmentwide rules and procedures to ensure
that Recovery Act funds are awarded and distributed in a prompt and fair manner, that the use of funds is
transparent to the public, and that steps are taken to mitigate fraud, waste, and abuse.
118
    OMB, M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of
2009 (Feb. 18, 2009); M-09-15, Updated Implementing Guidance for the American Recovery
Reinvestment Act of 2009 (April 3, 2009); and M-10-34, Updated Guidance on the American Recovery
and Reinvestment Act (Sept. 24, 2010).
119
    Total obligations equal the sum of financial commitments and expenditures. Total outlays consist of
expenditures only.
120
    The Treasury Appropriation Fund Symbol is an identification code assigned by the Department of the
Treasury, in collaboration with the OMB and the owner agency, to an individual appropriation, receipt, or
other fund account. It is used to describe a particular type of Treasury Fund Symbol that has budget
authority. All financial transactions of the Federal Government are classified by a Treasury Fund Symbol
for reporting to the Department of the Treasury and the OMB.

58          April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



                     Congressional Testimony
During this reporting period, Inspector General J. Russell George testified before
Congress on eight occasions. Out of his eight appearances before congressional
committees, five were related to the TIGTA audit report entitled, “Inappropriate Criteria
Were Used to Identify Tax-Exempt Applications for Review.”

On May 17, 2013, Mr. George first testified about the results of TIGTA’s tax-exempt
application report before the House Committee on Ways and Means. The following is a
summary of his testimony.

During the 2012 election cycle, some Members of Congress raised concerns to the IRS
about its selective enforcement efforts and reemphasized the IRS’s duty to treat
similarly situated organizations consistently. In addition, several organizations applying
for I.R.C. § 501(c)(4) tax-exempt status made allegations that the IRS: (1) targeted
specific groups applying for tax-exempt status, (2) delayed the processing of targeted
groups’ applications for tax-exempt status, and (3) requested unnecessary information
from targeted organizations. Lastly, several Members of Congress requested that the
IRS investigate whether existing social welfare organizations are improperly engaged in
a substantial, or even predominant, amount of campaign activity.

An audit was initiated based on these concerns expressed by Congress and reported in
the media regarding the IRS’s treatment of organizations applying for tax-exempt status.
It focused on the processing of applications for tax-exempt status and on determining
whether there was any basis for the allegations made against the IRS.

In summary, the audit found that all three allegations were substantiated. The IRS used
inappropriate criteria that identified for review Tea Party and other organizations
applying for tax-exempt status based upon their names or policy positions instead of
indications of potential political campaign intervention. Because of ineffective
management by IRS officials: (1) inappropriate criteria were developed and stayed in
place for a total of more than 18 months, (2) the processing of certain applications was
substantially delayed, and (3) unnecessary information requests were issued to the
organizations.

Developing and using criteria that focus on organizations’ names and policy positions
instead of the activities permitted under the Treasury Regulations erodes public
confidence that tax-exempt laws are being applied impartially. The IRS’s actions
regarding the use of inappropriate criteria over such an extended period of time has
brought into question whether the IRS has treated all taxpayers fairly, which is an
essential part of its mission statement. 121




121
  The IRS’s mission is to provide America’s taxpayers top-quality service by helping them understand
and meet their tax responsibilities and enforce the law with integrity and fairness to all.

                                                         April 1, 2013 – September 30, 2013            59
                                         TIGTA SEMIANNUAL REPORT TO CONGRESS


On May 21, 2013, the Inspector General testified before the Senate Committee on
Finance on the tax-exempt application matter. The following day, Mr. George appeared
before the House Committee on Oversight and Government Reform. Then, on June 3,
2013, the Inspector General testified before the House Committee on Appropriations,
Subcommittee on Financial Services and General Government. During these hearings,
the Inspector General reemphasized the tax-exempt application report’s scope and
findings, reiterated his previous testimony, and addressed questions relating to the
audit. For example, a common question throughout the hearings was whether TIGTA
saw any evidence that IRS employees were politically motivated in their creation or use
of the inappropriate screening criteria. The Inspector General consistently answered
that TIGTA had not found any evidence to that effect.

The final hearing resulting from TIGTA’s tax-exempt application report occurred on July
18, 2013, before the House Committee on Oversight and Government Reform. Mr.
George was accompanied by Greg Kutz, Assistant Inspector General for Audit,
Management Services and Exempt Operations, and Chief Counsel Michael McCarthy.

On April 10, 2013, Mr. George appeared before the Senate Special Committee on
Aging to provide testimony on the subject of tax refund-related identity theft and the
targeting of senior citizens for identity theft. TIGTA has provided ongoing oversight and
testimony on the issue of tax fraud-related identity theft because of the rapidly growing
nature of this tax crime and the need for further improvement in the IRS’s handling of
identity theft.

Identity theft and other fraud schemes targeting senior citizens are on the rise. The
identities of senior citizens are targets for identity thieves because many are not
required to file a tax return. These individuals are often unaware that their identities
have been stolen and used to file fraudulent tax returns. Similarly, the IRS is often
unaware that a tax return is fraudulent unless the legitimate taxpayer also files a tax
return, resulting in a duplicate filing. If these fraudulent refunds are not recovered,
taxpayer dollars will be lost.

The IRS has described identity theft as the leading tax scam for 2013. 122 Incidents of
identity theft that affect tax administration have continued to rise since CY 2011, when
the IRS identified more than one million incidents of identity theft. As of December 31,
2012, the IRS identified almost 1.8 million incidents during CY 2012.

As we have previously reported, the total impact of identity theft on tax administration is
significantly greater than the amount the IRS detects and prevents, 123 and the IRS is not
providing effective assistance to taxpayers who report that they have been victims of
identity theft. 124 Although the IRS is continuing to make changes to its processes to
increase its ability to detect, prevent, and track fraudulent tax returns and improve

122
    IRS Press Release, IR-2013-33 (March 26, 2013), available at http://www.irs.gov/uac/Newsroom/IRS-
Releases-the-Dirty-Dozen-Tax-Scams-for-2013.
123
    TIGTA, Ref. No. 2012-42-080, There Are Billions of Dollars in Undetected Tax Refund Fraud Resulting
From Identity Theft (July 2012).
124
    TIGTA, Ref. No. 2012-40-050, Most Taxpayers Whose Identities Have Been Stolen to Commit Refund
Fraud Do Not Receive Quality Customer Service (May 2012).

60        April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS


assistance to victims of identity theft, more work needs to be done. We remain
concerned about the IRS’s ability to address this matter and will continue to monitor this
problem closely.

On May 8, 2013, the Inspector General testified before the Senate Committee on
Appropriations, Subcommittee on Financial Services and General Government. Mr.
George’s testimony focused on the IRS’s FY 2014 budget request, TIGTA’s recent work
related to the most significant challenges currently facing the IRS, and TIGTA’s FY 2014
budget request.

The budget request for the IRS, the largest component of the Department of the
Treasury, supports Treasury’s goals to pursue comprehensive tax and fiscal reform and
to manage the Government’s finances in a fiscally responsible manner. The IRS’s role
is unique within the Federal Government in that it collects the revenue that funds the
Government and administers the Nation’s tax laws. It also is responsible for protecting
Federal revenue by detecting and preventing the growing risk of fraudulent tax refunds
and other improper payments.

To achieve these goals, the proposed FY 2014 IRS budget requests appropriated
resources of approximately $12.9 billion. The total appropriations amount is an
increase of slightly more than $1 billion, or approximately 9 percent more than the FY
2012 enacted level of approximately $11.8 billion. The budget request includes a net
staffing increase of 4,572 full-time equivalents (FTE) 125 for a total of approximately
96,200 appropriated FTEs.

TIGTA also examined several of the most significant challenges now facing the IRS as it
administers the Nation’s tax laws. One such challenge is the Tax Gap. TIGTA has
identified several concerns both with estimating the Tax Gap and with efforts to reduce
it. For example, while the IRS has not developed an estimate for the International Tax
Gap, non-IRS estimates range from $40 billion to $123 billion. 126 Another concern
about the IRS’s methods of estimating the size of the Tax Gap is that the various
sample sizes used in the employment tax study may be insufficient to determine
compliance levels. 127

The growth of identity theft also presents considerable challenges to tax administration.
Real-time access to third-party income and withholding information at the time tax
returns are processed is the single most important tool the IRS could use to detect and
prevent the kind of identity theft tax fraud that results from the reporting of false income
and withholding. Another important tool that could immediately help the IRS prevent tax
fraud-related identity theft is the National Directory of New Hires. 128


125
    A full-time employee working 40 hours per week for 52 weeks.
126
    TIGTA, Ref. No. 2009-IE-R001, A Combination of Legislative Actions and Increased IRS Capability
and Capacity Are Required to Reduce the Multi-Billion Dollar U.S. International Tax Gap (Jan. 2009).
127
    TIGTA, Ref. No. 2011-10-034, Limitations in the Sample Size for the Internal Revenue Service’s
Employment Tax Study May Impact Ability to Determine Compliance Levels (May 2010).
128
    A Department of Health and Human Services national database of wage and employment information
submitted by Federal agencies and State workforce agencies.

                                                        April 1, 2013 – September 30, 2013             61
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS


Another challenge facing the IRS involves the administration of refundable tax credits.
For several years, TIGTA has reported significant concerns with the growth in
noncompliance and fraud in refundable tax credits. 129 The EITC remains the largest
refundable credit, based on the total claims paid, and it continues to be vulnerable to a
high rate of noncompliance, including incorrect or erroneous claims caused by taxpayer
error or resulting from fraud. The IRS has made little improvement in reducing improper
EITC payments in the years since it was first required to report estimates of these
payments to Congress in CY 2002. The rate of improper EITC payments has remained
high, and there continues to be a risk that the IRS will make no significant improvement
in reducing EITC improper payments.

On June 6, 2013, Mr. George appeared before the House Committee on Oversight and
Government Reform to testify about the IRS’s conference spending for Fiscal Years
2010 through 2012. Assistant Inspector General for Audit, Management Services and
Exempt Operations Greg Kutz also appeared with the Inspector General. Mr. George’s
testimony summarized the findings of the TIGTA audit report entitled, “Review of the
August 2010 Small Business/Self-Employed Division’s Conference in Anaheim,
California.” The audit focused on the Anaheim conference because TIGTA received an
allegation of excessive spending concerning the conference and it was the most
expensive conference held by the IRS during FYs 2010 through 2012.

TIGTA identified several areas of concern associated with the August 2010 SB/SE
Anaheim conference. First, procedures at the time of the conference did not require
IRS management to track and report actual conference costs. As a result, TIGTA could
not validate the conference cost reported by the IRS. TIGTA also determined that the
IRS did not use available internal personnel to assist in searching for the most cost-
effective location as required. In addition, TIGTA identified concessions provided by the
hotels and questionable expenses paid by the IRS.

The IRS did not follow established guidelines when selecting Anaheim, California for the
conference location because it did not use available internal personnel to identify the
most cost-effective location. Instead, IRS management approached two non-
governmental event planners to identify an off-site location for the conference. These
event planners were not under contract with the IRS but were instead each paid a five
percent commission directly by the hotels based on the cost of rooms the IRS paid for
the conference.

The Anaheim conference included numerous expenses beyond basic travel costs that
TIGTA identified as questionable expenses. For example, the IRS paid $135,350 for
outside speakers. One keynote speaker was paid $17,000 to create six paintings to
reinforce the message of his presentation. More than $64,000 in gifts and promotional
items, including travel mugs, pens, clocks, and brief bags, were provided to attendees.
This included approximately $27,000 in promotional items distributed at the information
corridor booths.


129
    TIGTA, Ref. No. 2012-40-105, Expansion of Controls Over Refundable Credits Could Help Reduce the
Billions of Dollars of Improperly Paid Claims (Sep. 2012).

62        April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS


Over the last three fiscal years, the IRS has spent approximately $49 million on at least
225 conferences. However the trend of spending has dropped from approximately $38
million in FY 2010, to approximately $6 million in FY 2011, to approximately $5 million in
FY 2012. The IRS attributes this reduction in spending in part to enhanced controls
over conference spending. These procedures, issued since the Anaheim conference
occurred, will help to ensure that some of the questionable expenses identified in
TIGTA’s report are not incurred in the future. However, notwithstanding these recent
actions, TIGTA suggested that additional improvements be made and made nine
recommendations to enhance controls, to which the IRS agreed. TIGTA believes that
its recommendations will strengthen controls over conference spending and ensure that
taxpayer funds are expended more responsibly in the future.

During this reporting period, two senior-level TIGTA officials also testified before
Congress on two separate occasions.

On July 17, 2013, Assistant Inspector General for Audit, Security and Information
Technology Services Alan Duncan testified at a joint Hearing before the House
Committee on Oversight and Government Reform, Subcommittee on Energy Policy,
Health Care and Entitlements and the House Committee on Homeland Security,
Subcommittee on Cybersecurity, Infrastructure Protection, and Security Technologies.
Mr. Duncan testified on the IRS’s Information Technology systems for the Affordable
Care Act, how information will be sent and exchanged, and the safeguards to protect
taxpayer data.

Finally, on August 2, 2013, Deputy Inspector General for Audit Michael McKenney
appeared before the House Committee on Oversight and Government Reform,
Subcommittee on Government Operations to provide testimony on the subject of tax
refund-related identity theft and its impact on the IRS and taxpayers. TIGTA has
provided ongoing oversight and testimony on the issue of tax fraud-related identity theft
because of the rapidly growing nature of this tax crime. The IRS has made this issue
one of its top priorities and has made some progress; however, significant
improvements are needed.




                                                   April 1, 2013 – September 30, 2013        63
                                   TIGTA SEMIANNUAL REPORT TO CONGRESS




64   April 1, 2013 – September 30, 2013
               TIGTA SEMIANNUAL REPORT TO CONGRESS



                             Audit Statistical Reports

                    Reports With Questioned Costs
 TIGTA issued no audit reports with questioned costs during this semiannual reporting
 period. 130 The phrase “questioned costs” means costs that are questioned because of:

        •   An alleged violation of a provision of a law, regulation, contract, or other
            requirement governing the expenditure of funds;
        •   A finding, at the time of the audit, that such cost is not supported by adequate
            documentation (an unsupported cost); or
        •   A finding that expenditure of funds for the intended purpose is unnecessary or
            unreasonable.

 The phrase “disallowed cost” means a questioned cost that management, in a
 management decision, has sustained or agreed should not be charged to the
 Government.

                                        Reports With Questioned Costs
                                                                         Questioned           Unsupported
                Report Category                         Number             Costs 131              Costs
                                                                       (in thousands)        (in thousands)
1. Reports with no management decision at
   the beginning of the reporting period                    7                $38,822                   $928
2. Reports issued during the reporting period               0                     $0                     $0
3. Subtotals (Item 1 plus Item 2)                           7                $38,822                   $928
4. Reports for which a management decision
   was made during the reporting period
   a. Value of disallowed costs                             0                     $0                    $0
   b. Value of costs not disallowed                         0                     $0                    $0
5. Reports with no management decision
   at the end of the reporting period (Item 3
   minus Item 4)                                            7                $38,822                   $928
6. Reports with no management decision
   within six months of issuance                            7                $38,822                   $928




 130
       See Appendix II for identification of audit reports involved.
 131
       “Questioned costs” includes “unsupported costs.”

                                                                  April 1, 2013 – September 30, 2013          65
                                               TIGTA SEMIANNUAL REPORT TO CONGRESS



             Reports With Recommendations That
                 Funds Be Put to Better Use
 TIGTA issued seven audit reports during this semiannual reporting period with the
 recommendation that funds be put to better use. 132 The phrase “recommendation that
 funds be put to better use” means funds could be used more efficiently if management
 took actions to implement and complete the recommendation, including:
       •     Reductions in outlays;
       •     Deobligations of funds from programs or operations;
       •     Costs not incurred by implementing recommended improvements related to
             operations;
       •     Avoidance of unnecessary expenditures noted in pre-award reviews of contract
             agreements;
       •     Prevention of erroneous payment of refundable credits, e.g., the EITC; or
       •     Any other savings that are specifically identified.

 The phrase “management decision” means the evaluation by management of the
 findings and recommendations included in an audit report, and the issuance of a final
 decision concerning its response to such findings and recommendations, including
 actions deemed necessary.

                    Reports With Recommendations That Funds Be Put to Better Use
                                                                                            Amount
                             Report Category                              Number
                                                                                        (in thousands)
1. Reports with no management decision at the beginning of the
   reporting period                                                           0                      $0
2. Reports issued during the reporting period                                 7              $5,891,133
3. Subtotals (Item 1 plus Item 2)                                             7              $5,891,133
4. Reports for which a management decision was made during the
   reporting period                                                           7              $5,891,133
                                                               133
   a. Value of recommendations to which management agreed
           i. Based on proposed management action                             3               $260,287
           ii. Based on proposed legislative action                           2              $3,696,725
   b. Value of recommendations to which management did not agree              3              $1,934,121
5. Reports with no management decision at the end of the
   reporting period (Item 3 minus Item 4)                                     0                     $0
6. Reports with no management decision within six months of
   issuance                                                                   0                     $0




 132
       See Appendix II for identification of audit reports involved.
 133
       Includes one report that contained both management and legislative recommendations.

 66            April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



Reports With Additional Quantifiable Impact
          on Tax Administration
In addition to questioned costs and funds put to better use, the Office of Audit has
identified measures that demonstrate the value of audit recommendations to tax
administration and business operations. These issues are of interest to IRS and
Treasury Department executives, Congress, and the taxpaying public, and are
expressed in quantifiable terms to provide further insight into the value and potential
impact of the Office of Audit’s products and services. Including this information also
promotes adherence to the intent and spirit of the Government Performance and
Results Act of 1993 (GPRA). 134

Definitions of these additional measures are:

Increased Revenue: Assessment or collection of additional taxes.

Revenue Protection: Proper denial of claims for refunds, including recommendations
that prevent erroneous refunds or efforts to defraud the tax system.

Reduction of Burden on Taxpayers: Decreases by individuals or businesses in the
need for, frequency of, or time spent on contacts, record keeping, preparation, or costs
to comply with tax laws, regulations, and IRS policies and procedures.
Taxpayer Rights and Entitlements at Risk: The protection of due process (rights)
granted to taxpayers by law, regulation, or IRS policies and procedures. These rights
most commonly arise when filing tax returns, paying delinquent taxes, and examining
the accuracy of tax liabilities. The acceptance of claims for and issuance of refunds
(entitlements) are also included in this category, such as when taxpayers legitimately
assert that they overpaid their taxes.
Taxpayer Privacy and Security: Protection of taxpayer financial and account
information (privacy). Processes and programs that provide protection of tax
administration, account information, and organizational assets (security).
Inefficient Use of Resources: Value of efficiencies gained from recommendations to
reduce costs while maintaining or improving the effectiveness of specific programs;
resources saved would be available for other IRS programs. Also, the value of internal
control weaknesses that resulted in an unrecoverable expenditure of funds with no
tangible or useful benefit in return.
Reliability of Management Information: Ensuring the accuracy, validity, relevance,
and integrity of data, including the sources of data and the applications and
processing thereof, used by the organization to plan, monitor, and report on its
financial and operational activities. This measure will often be expressed as an
absolute value, i.e., without regard to whether a number is positive or negative, of


134
  Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered sections of 5 U.S.C., 31 U.S.C.,
and 39 U.S.C.).

                                                          April 1, 2013 – September 30, 2013             67
                                                TIGTA SEMIANNUAL REPORT TO CONGRESS


overstatements or understatements of amounts recorded on the organization’s
documents or systems.
Protection of Resources: Safeguarding human and capital assets used by or in the
custody of the organization from inadvertent or malicious injury, theft, destruction, loss,
misuse, overpayment, or degradation.

The number of taxpayer accounts and dollar values shown in the following chart
were derived from analyses of historical data and are thus considered potential
barometers of the impact of audit recommendations. Actual results will vary
depending on the timing and extent of management’s implementation of the
corresponding corrective actions and the number of accounts or subsequent
business activities affected as of the dates of implementation. Also, a report may
have issues that affect more than one outcome measure category.


      Reports With Additional Quantifiable Impact on Tax Administration
                                                  Number of
                                Number of                           Dollar Value
 Outcome Measure Category                          Taxpayer
                                Reports 135        Accounts
                                                                  (in thousands)

Increased Revenue                                 10                   827,528    $9,205,370

Revenue Protection                                 5                    39,971     $291,625

Reduction of Burden on Taxpayers                   6                  2,324,440     $58,000
Taxpayer Rights and Entitlements
at Risk                                            9                    76,352      $11,434

Taxpayer Privacy and Security                      2                   138,250           $0

Inefficient Use of Resources                       2                         0       $2,579
Reliability of Management
Information                                       12                   140,556       $2,596

Protection of Resources                            5                         0      $13,279

Management did not agree with the outcome measures in the following reports:
       •   Increased Revenue: Reference Numbers 2013-30-040, 2013-30-077, 2013-40-
           123, 2013-30-112, 2013-30-121, and 2013-40-124;
       •   Revenue Protection: Reference Numbers 2013-30-075, 2013-40-093, and 2013-
           40-124;
       •   Taxpayer Burden: Reference Number 2013-30-121;
       •   Taxpayer Privacy and Security: Reference Number 2013-40-122;
       •   Inefficient Use of Resources: Reference Number 2013-20-118; and
       •   Protection of Resources: Reference Number 2013-20-089.




135
      See Appendix II for identification of audit reports involved.

68            April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS


The following reports contained quantifiable impacts other than the number of taxpayer
accounts and dollar value:
   •   Increased Revenue: Reference Number 2013-30-098;
   •   Taxpayer Burden: Reference Number 2013-10-053;
   •   Taxpayer Rights and Entitlements: Reference Numbers 2013-30-071, 2013-30-
       098, and 2013-30-109;
   •   Taxpayer Privacy and Security: Reference Number 2013-30-109;
   •   Reliability of Management Information: Reference Numbers 2013-10-053, 2013-
       30-051, 2013-10-074, 2013-20-089, 2013-30-098, 2013-13-115, 2013-10-116,
       and 2013-40-131; and
   •   Protection of Resources: Reference Number 2013-10-101.




                                                 April 1, 2013 – September 30, 2013      69
                                                      TIGTA SEMIANNUAL REPORT TO CONGRESS



                 Investigations Statistical Reports
                                 Significant Investigative Achievements
                                      April 1, 2013 – September 30, 2013
          Complaints/Allegations Received by TIGTA
               Complaints against IRS Employees                                            2,930
               Complaints against Non-Employees                                            2,254
          Total Complaints/Allegations                                                    5,184

          Status of Complaints/Allegations Received by TIGTA
               Investigations Initiated                                                    1,503
                                          136
               In Process within TIGTA                                                      384
               Referred to IRS for Action                                                   663
               Referred to IRS for Information Only                                        1,201
                                                137
               Referred to a Non-IRS Entity                                                  12
               Closed with No Referral                                                     1,109
               Closed with All Actions Completed                                            312
               Returned to IRS – No Action Taken                                              0
          Total Complaints                                                                5,184

          Investigations Opened and Closed
               Total Investigations Opened                                                 1,790
               Total Investigations Closed                                                 1,711

          Financial Accomplishments
               Embezzlement/Theft Funds Recovered                                        $4,925
               Court Ordered Fines, Penalties and Restitution                        $8,117,749
               Out-of-Court Settlements                                                       0
          Total Financial Accomplishments                                           $8,122,674




136
      Complaints for which final determination had not been made at the end of the reporting period.
137
      A non-IRS entity includes other law enforcement entities or Federal agencies.

70           April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS




                               Status of Closed Criminal Investigations
       Criminal Referral                                   Employee     Non-Employee        Total
           Referred – Accepted for Prosecution                 41             52              93
           Referred – Declined for Prosecution                 285            208            493
           Referred – Pending Prosecutorial Decision           51             43              94
                                     138                       377            303            680
       Total Criminal Referrals
       No Referral                                             408            580            988


                                                       5 139
       Criminal Disposition                                Employee      Non-Employee       Total
       Guilty                                                  31              27            58

       Nolo Contendere (no contest)                            4               0              4
       Pre-trial Diversion                                     12              0             12
                              140                              0               1              1
       Deferred Prosecution
       Not Guilty                                              0               1              1
                    141                                        2               6              8
       Dismissed
       Total Criminal Dispositions                             49              35            84


                 Administrative Dispositions on Closed Investigations 142
       Administrative Disposition                                                           Total
       Removed or Terminated of Other                                                        220
       Suspended / Reduction in Grade                                                        99
       Resigned Prior to Adjudication                                                        132
       Oral or Written Reprimand / Admonishment                                              46
       Clearance Letter                                                                      72
       Closed - No Action Taken                                                              91
                               143                                                           389
       Non-Employee Actions
       Total Administrative Dispositions                                                    1,049




138
    Criminal referrals include both Federal and State dispositions.
139
    Final criminal dispositions during the reporting period. These data may pertain to investigations
referred criminally in prior reporting periods and do not necessarily relate to the investigations referred
criminally in the Status of Closed Criminal Investigations table above.
140
    Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and
complies with certain conditions imposed by the court. Upon the defendant’s completion of the
conditions, the court dismisses the case. If the defendant fails to fully comply, the court reinstates
prosecution of the charge.
141
    Court dismissed charges.
142
    Final administrative dispositions during the reporting period. These data may pertain to investigations
referred administratively in prior reporting periods and do not necessarily relate to the investigations
closed in the Investigations Opened and Closed table.
143
    Administrative actions taken by the IRS against non-IRS employees.

                                                                April 1, 2013 – September 30, 2013            71
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS



          Inspections and Evaluations Statistical
                         Reports
              Report With Questioned Costs
TIGTA issued one inspection report 144 with questioned costs during this semiannual
reporting period. The phrase “questioned costs” means costs that are questioned
because of:

      •   An alleged violation of a provision of a law, regulation, contract, or other
          requirement governing the expenditure of funds;
      •   A finding, at the time of the inspection, that such cost is not supported by adequate
          documentation (an unsupported cost); or
      •   A finding that expenditure of funds for the intended purpose is unnecessary or
          unreasonable.

The phrase “disallowed cost” means a questioned cost that management, in a
management decision, has sustained or agreed should not be charged to the
Government.


                                   Report With Questioned Costs
                                                             Questioned            Unsupported
              Report Category                    Number       Costs 145               Costs

 1. Reports with no management decision
    at the beginning of the reporting period       0                    0                       0
 2. Reports issued during the reporting
    period                                         1             $197,416                  $7,163
 3. Subtotals (Item 1 plus Item 2)                 1             $197,416                  $7,163
 4. Reports for which a management
    decision was made during the reporting
           146
    period
 c. Value of disallowed costs                      0                    0                       0
 d. Value of costs not disallowed                  0                    0                       0
 5. Reports with no management
    decision at the end of the reporting
                                 147
    period (Item 3 minus Item 4)                   1             $197,416                  $7,163
 6. Reports with no management decision
    within six months of issuance                  0                    0                       0




144
    TIGTA, Reference No. 2013-IE-R005, Inspection of the Internal Revenue Service’s Travel Gainsharing
Program (May 2013).
145
    “Questioned costs” includes “unsupported costs.”
146
    Includes one report in which the IRS allowed part of the questioned costs.
147
    Difference due to rounding.

72          April 1, 2013 – September 30, 2013
              TIGTA SEMIANNUAL REPORT TO CONGRESS



                                                   Appendix I
                               Statistical Reports – Other
                             Audit Reports with Significant
                           Unimplemented Corrective Actions
 The Inspector General Act of 1978 requires identification of significant recommendations described
 in previous semiannual reports for which corrective actions have not been completed. The following
 list is based on information from the IRS Office of Management Control’s automated tracking system
 maintained by Treasury management officials.

                                                     Projected              Report Title and Recommendation Summary
              IRS Management
Reference                                           Completion               (F = Finding No., R = Recommendation No.,
               Challenge Area
 Number                                Issued          Date                                    P = Plan No.)
2007-10-082      Tax-Exempt           May 2007                   Screening Tax-Exempt Organizations Filing Information
                 Organizations                                   Provides Minimal Assurance That Potential Terrorist-Related
                                                                 Activities Are Identified

                                                     01/15/14    F-1, R-1, P-1. Develop and implement a long-term strategy to
                                                                 automate the matching of Forms 1023 and 990 information against a
                                                                 consolidated terrorist watch list to initially identify potential terrorist
                                                                 activities related to tax-exempt organizations.
2009-10-121        Improving          September                  The Taxpayer Advocate Service Should Reevaluate the Roles of
               Performance and          2009                     Its Staff and Improve the Administration of the Taxpayer
               Financial Data for                                Advocacy Panel
              Program and Budget
                   Decisions                         09/30/14    F-2, R-1, P-1. Reevaluate the roles of the staff assigned to assist the
                                                                 Panel and establish guidance to ensure that the Panel functions
                                                                 independently.

2009-40-130   Processing Returns      September                  Repeated Efforts to Modernize Paper Tax Return Processing
               and Implementing         2009                     Have Been Unsuccessful; However, Actions Can Be Taken to
               Tax Law Changes                                   Increase Electronic Filing and Reduce Processing Costs
              During the Tax Filing
                    Season                           02/15/14    F-1, R-2, P-1. Refocus the Modernized Submission Processing
                                                                 Concept to include implementing a process to convert paper filed tax
                                                                 returns prepared by individuals using a tax preparation software
                                                                 package into an electronic format.

2010-20-027   Taxpayer Protection     March 2010                 Additional Security Is Needed For Access to the Registered User
                  and Rights                                     Portal

                                                     10/15/13    F-1, R-1, P-1. Require suitability checks on delegated users who
                                                                 e-file tax returns or access the e-Services incentive products and
                                                                 disable the principal consent feature on e-Services that allows a user
                                                                 to propagate his or her privileges to other users.
                                                     10/15/13    F-1, R-3, P-1. Enhance the e-file application on the Third Party Data
                                                                 Store to post the complete results of the Automated Suitability
                                                                 Analysis Program’s spouse tax compliance check.
                                                     09/15/14    F-1, R-5, P-1. Make passwords more difficult to guess by
                                                                 unauthorized individuals and decrease the use of Social Security
                                                                 numbers as usernames.
                                                     09/15/14    F-1, R-6, P-1. Implement a control to allow users to answer a series
                                                                 of challenge questions to unlock their accounts.

2010-40-045    Security of the IRS    March 2010                 Telephone Authentication Practices Need Improvement to Better
                                                                 Prevent Unauthorized Disclosures

                                                     07/15/14    F-3, R-1, P-1. Incorporate available technology to authenticate
                                                                 callers in the queue as part of the development of the Authentication
                                                                 Retention Project.




                                                                 April 1, 2013 – September 30, 2013                                 73
                                                  TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                    Projected             Report Title and Recommendation Summary
               IRS Management
Reference                                          Completion              (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                                Issued         Date                                  P = Plan No.)
2010-20-044    Modernization of the   May 2010                  Implementing Best Practices and Additional Controls Can
                      IRS                                       Improve Data Center Energy Efficiency and the Environmental
                                                                and Energy Program

                                                    07/30/14    F-1, R-2, P-1. Ensure that information technology equipment energy
                                                                use is measured in order to determine the energy efficiency and
                                                                savings from implementing energy improvements.
                                                    11/15/14    F-1, R-5, P-1. Ensure that energy audits are performed at the data
                                                                centers.

2010-30-061         Taxpayer          June 2010                 Plans Exist to Engage the Tax Preparer Community in Reducing
                   Compliance                                   the Tax Gap; However, Enhancements Are Needed
                    Initiatives
                                                    01/15/14    F-1, R-1, P-1. Update the existing IRS Strategic Plan and ensure that
                                                                strategic plans have all of the information in the plans as required by
                                                                the Government Performance and Results Act of 1993 and Office of
                                                                Management and Budget Circular A-11 (Preparation, Submission,
                                                                and Execution of the Budget).
                                                    01/15/14    F-2, R-1, P-1. Define and include in the IRS Strategic Plan sufficient
                                                                measures that will provide data that can be used to monitor the IRS’s
                                                                efforts to achieve objectives aimed at strengthening partnerships with
                                                                tax practitioners and paid preparers to ensure effective tax
                                                                administration.

2011-40-023      Erroneous and        February                  Reduction Targets and Strategies Have Not Been Established to
               Improper Payments       2011                     Prevent the Issuance of Billions of Dollars in Improper Earned
                  and Credits                                   Income Tax Credit Payments Each Year

                                                    09/15/14    F-1, R-1, P-1. Establish quantifiable reduction targets and strategies
                                                                to meet those targets.

2011-20-046     Security of the IRS   May 2011                  Access Controls for the Automated Insolvency System Need
                                                                Improvement

                                                    11/15/16    F-1, R-1, P-1. Identify incompatible duties and implement policies to
                                                                segregate those duties, issue a memorandum to program managers
                                                                requiring them to adhere to the new policy when assigning duties and
                                                                approving Automated Insolvency System access privileges, and
                                                                designate a limited number of employees to perform the User
                                                                Administrator duties.

2011-40-058     Providing Quality     July 2011                 Taxpayers Do Not Always Receive Quality Responses When
                Taxpayer Service                                Corresponding About Tax Issues

                                                    01/15/15    F-1, R-3, P-1. Complete the study of the interim letters to ensure that
                                                                they are strategically timed, alert taxpayers of delays and provide
                                                                taxpayers with an accurate status and time period for case resolution,
                                                                provide taxpayers with sufficient information to deter them from using
                                                                other channels to contact the IRS regarding their case, and are clear
                                                                and concise.

2011-20-111     Security of the IRS   September                 Continued Centralization of the Windows Environment Would
                                        2011                    Improve Administration and Security Efficiencies

                                                    02/01/14    F-2, R-1, P-1. Ensure that standards and processes are developed
                                                                and implemented enterprise-wide to prevent servers and workstations
                                                                from being connected to the network without the proper authorization
                                                                and required compliance documentation.

2012-40-010      Tax Compliance       December                  More Tax Return Preparers Are Filing Electronically, but Better
                    Initiatives         2011                    Controls Are Needed to Ensure All Are Complying With the New
                                                                Preparer Regulations

                                                    01/15/14    F-3, R-1, P-1. Implement a process to identify a tax return that is
                                                                submitted with a Preparer Taxpayer Identification Number that is
                                                                being used by someone other than the authorized preparer.



 74           April 1, 2013 – September 30, 2013
              TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                  Projected              Report Title and Recommendation Summary
              IRS Management
Reference                                         Completion              (F = Finding No., R = Recommendation No.,
               Challenge Area
 Number                                Issued       Date                                   P = Plan No.)
2012-13-070   Implementing Major      June 2012                Affordable Care Act: While Much Has Been Accomplished, the
               Tax Law Changes                                 Extent of Additional Controls Needed to Implement Tax-Exempt
                                                               Hospital Provisions Is Uncertain

                                                   12/15/13    F-1, R-1, P-1. Establish a Memorandum of Understanding with the
                                                               Department of Health and Human Services that takes into
                                                               consideration when information for the annual report to Congress
                                                               should be received and the proper format of the data to ensure that it
                                                               will be timely and usable for the report to Congress.
2012-42-080    Fraudulent Claims      July 2012                There Are Billions of Dollars in Undetected Tax Refund Fraud
                 and Improper                                  Resulting From Identity Theft
                   Payments
                                                   10/15/13    F-3, R-2, P-1. Limit the number of tax refunds issued via direct
                                                               deposit to the same bank account or debit card account in an attempt
                                                               to reduce the potential for fraud.
2012-30-094     Tax Compliance        September                A Concerted Effort Should Be Taken to Improve Federal
                   Initiatives          2012                   Government Agency Tax Compliance

                                                   04/15/14    F-1, R-4, P-1. Ensure that Federal Agency Delinquency (FAD)
                                                               Program employees adhere to procedures when processing
                                                               delinquent Federal agency cases.
                                                   04/15/14    F-1, R-5, P-1. Establish timeliness standards for FAD Program
                                                               employees to follow when processing Federal agency delinquency
                                                               cases.

2012-30-097     Tax Compliance        September                Actions Are Needed to Ensure Audit Results Post Timely and
                   Initiatives          2012                   Accurately to Taxpayer Accounts

                                                   01/15/14    F-1, R-1, P-2. Develop and implement additional procedures to
                                                               ensure that all audits entering the Campus Case Processing
                                                               operation with short statute expiration dates and large dollar
                                                               assessment amounts are timely and accurately assigned and
                                                               processed in accordance with applicable procedures.
                                                   12/15/13    F-1, R-2, P-1. Conduct a cost-benefit analysis to determine whether it
                                                               would be beneficial to develop and implement systematic controls to
                                                               ensure that the required quick assessments are performed on large
                                                               dollar audits.
2012-11-101    Fraudulent Claims      September                Deficiencies Continue to Exist in Verifying Contractor Labor
                 and Improper           2012                   Charges Prior to Payment
                   Payments
                                                   07/15/14    F-1, R-2, P-1. Ensure the validity of all labor charges for the
                                                               procurement in which TIGTA identified as having a total of $394,430
                                                               in unsupported labor charges. Actions should be initiated to recover
                                                               any funds identified as being paid erroneously.

2012-20-112   Security for Taxpayer   September                An Enterprise Approach Is Needed to Address the Security Risk
              Data and Employees        2012                   of Unpatched Computers

                                                   12/31/13    F-2, R-5, P-1. Correct the issues with Altiris patch management tool
                                                               reporting capabilities.




                                                               April 1, 2013 – September 30, 2013                            75
                                                  TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                    Projected             Report Title and Recommendation Summary
               IRS Management
Reference                                          Completion              (F = Finding No., R = Recommendation No.,
                Challenge Area
 Number                                 Issued        Date                                  P = Plan No.)
2013-40-009     Fraudulent Claims      December                 Many Taxpayers Are Still Not Complying With Noncash
                  and Improper           2012                   Charitable Contribution Reporting Requirements
                    Payments
                                                    01/15/14    F-1, R-1, P-1. Expand current processes to identify all tax returns
                                                                claiming noncash charitable contributions of more than $500 that do
                                                                not have a Noncash Charitable Contribution (Form 8283) attached to
                                                                the tax return. The processes should identify all tax returns claiming
                                                                noncash contributions more than $500,000 for which a qualified
                                                                appraisal has not been attached to the tax return.
                                                    01/15/14    F-1, R-2, P-1. Capture the contribution date, donee signature and/or
                                                                acknowledgement date, and Declaration of Appraiser, and type of
                                                                property donated from Forms 8283 and develop processes to use the
                                                                information to ensure that taxpayers are meeting the requirements for
                                                                claiming deductions for noncash charitable contributions.
                                                    02/15/14    F-1, R-3, P-1. Require taxpayers to include the contribution date in
                                                                addition to the Donee Acknowledgement of Receipt for donations of
                                                                noncash property more than $5,000, clarify that taxpayers must group
                                                                similar items and claim the aggregate value of the noncash
                                                                contributions as deductions regardless of the number of different
                                                                organizations to which the donations are made, and require
                                                                taxpayers to include the number of shares donated when reporting
                                                                contributions of securities.

2013-40-011     Fraudulent Claims      December                 Further Efforts Are Needed to Ensure the Internal Revenue
                  and Improper           2012                   Service Prisoner File is Accurate and Complete
                    Payments
                                                    04/15/14    F-1, R-1, P-1. Ensure that the validation and verification of future IRS
                                                                Prisoner Files to include a check for prisoners using deceased
                                                                individual’s identity information.

2013-40-022     Fraudulent Claims      February                 Taxpayer Referrals of Suspected Tax Fraud Result in Tax
                  and Improper          2013                    Assessments, but Processing of the Referrals Could Be
                    Payments                                    Improved

                                                    01/15/15    F-1, R-5, P-1. Assess the value of the Information Referral (Form
                                                                3949-A) program once the IRS implements the corrective actions
                                                                resulting from the previous TIGTA report, reassess the emphasis
                                                                placed on the program, and prioritize it as needed.
2013-20-023    Security for Taxpayer   February                 Improvements Are Needed to Ensure the Effectiveness of the
               Data and Employees       2013                    Privacy Impact Assessment Process

                                                    03/15/14    F-1, R-1, P-1. Investigate all 184 information systems and collections
                                                                of information identified and coordinate with system owners to
                                                                complete the required Privacy Impact Assessments (PIA).
                                                    03/15/14    F-1, R-2, P-1. Establish an annual reconciliation process in which the
                                                                PIA inventory is reconciled with all information systems and
                                                                collections of information in the current production environment, and
                                                                the completion of the planned revisions to the Major Change
                                                                Determination template, which will help facilitate the annual
                                                                reconciliation process, and a process to identify all completed and
                                                                approved PIAs that have not been updated within three years.
                                                                Coordinate with system owners to review and update these PIAs as
                                                                required.
                                                    10/15/13    F-1, R-4, P-1. Ensure that the 80 PIAs that TIGTA identified as well
                                                                as any other PIAs currently not available to the public are redacted as
                                                                necessary and posted to the IRS public website.
                                                    12/15/13    F-1, R-9, P-1. Ensure that current and complete standard operating
                                                                procedures are established for all PIA processing procedures,
                                                                including reviewing and approving PIAs, updating PIAs, and
                                                                reconciling PIAs to other IRS system inventories.




 76           April 1, 2013 – September 30, 2013
              TIGTA SEMIANNUAL REPORT TO CONGRESS


                                                   Projected               Report Title and Recommendation Summary
              IRS Management
Reference                                          Completion              (F = Finding No., R = Recommendation No.,
               Challenge Area
 Number                                Issued        Date                                    P = Plan No.)
2013-30-020     Tax Compliance        March 2013                Actions Can Be Taken to Reinforce the Importance of
                   Initiatives                                  Recognizing and Investigating Fraud Indicators During Office
                                                                Audits

                                                    09/15/14    F-1, R-1, P-1. Standardize the process for office audit examiners’
                                                                documentation of fraud consideration by developing and
                                                                implementing a specific job aid that requires examiners to
                                                                acknowledge which indicators, if any, were considered during the
                                                                audit.
                                                    03/15/14    F-1, R-2, P-1. Develop additional criteria and guidance for when a
                                                                discussion should be held between the examiner and first-line
                                                                manager about the potential fraudulent activity of the taxpayer to
                                                                cover instances other than omissions of income.

2013-30-021     Tax Compliance        March 2013                The Compliance Assurance Process Has Received Favorable
                   Initiatives                                  Feedback, but Additional Analysis of Its Costs and Benefits Is
                                                                Needed

                                                    04/15/14    F-1, R-1, P-1. Ensure that an evaluation plan is developed and
                                                                implemented to thoroughly assess the Compliance Assurance
                                                                Process (CAP). At a minimum, the evaluation plan should include
                                                                clearly stated objectives that measure success against well-defined
                                                                standards and detailed steps for verifying that sufficient benefits are
                                                                being realized in relation to the costs being incurred.
                                                    04/15/14    F-2, R-1, P-1. Ensure that the guidelines are used to evaluate the
                                                                CAP as a potential new user fee source.

2013-30-028    Achieving Program      March 2013                Improvements Are Needed to Ensure That Performance
              Efficiencies and Cost                             Measures Are Balanced and Adequately Assess the
                     Savings                                    Effectiveness of the Collection Program

                                                    11/15/13    F-1, R-1, P-1. Report performance measurement data for customer
                                                                satisfaction and employee satisfaction on the Enterprise Collection
                                                                Report to promote consistency and transparency throughout the
                                                                Collection program.
                                                    11/15/13    F-2, R-1, P-1. Establish a Collection program performance measure
                                                                and target for each operational objective.




                                                                April 1, 2013 – September 30, 2013                               77
                                          TIGTA SEMIANNUAL REPORT TO CONGRESS


                                Other Stati sti cal R eports
                    The Inspector General Act of 1978 requires Inspectors General

                                     to address the following issues:

                        Issue                                              Result for TIGTA


Access to Information
Report unreasonable refusals of information         As of September 30, 2013, there were no instances
available to the agency that relate to programs     where information or assistance requested by the
and operations for which the Inspector General      Office of Audit was refused.
has responsibilities.

Disputed Audit Recommendations
Provide information on significant management       As of September 30, 2013, there were no instances
decisions in response to audit recommendations      where significant recommendations were disputed.
with which the Inspector General disagrees.

Revised Management Decisions                        As of September 30, 2013, one significant
                                                    management decision was revised, Reference Number
Provide a description and explanation of the        2010-40-121 Improvements Are Needed to Verify
reasons for any significant revised management      Refunds to Nonresident Aliens Before the Refunds Are
decisions made during the reporting period.         Sent Out of the United States. TIGTA recommended
                                                    that the IRS clarify instructions in Publications 519
                                                    (U.S. Tax Guide for Aliens) and 515 (Withholding of
                                                    Tax on Nonresident Aliens and Foreign Entities). The
                                                    IRS requested a change in its original corrective action
                                                    because there is inconsistent guidance in the IRS Field
                                                    Service Advice 1996 with guidance in the I.R.C.
                                                    relating to compensation for the performance of
                                                    service. Updates to the publications would lead to
                                                    further confusion. Therefore, the IRS revised its
                                                    corrective action to address the guidance in Field
                                                    Service Advice 1996. When the advice has been
                                                    completed, the publications will be updated.
Audit Reports Issued in the Prior Reporting
Period With No Management Response
Provide a summary of each audit report issued       As of September 30, 2013, there were no prior reports
before the beginning of the current reporting       where management’s response was not received.
period for which no management response has
been received by the end of the current reporting
period.
Review of Legislation and Regulations
Review existing and proposed legislation and        TIGTA’s Office of Chief Counsel reviewed 195
regulations, and make recommendations               proposed regulations and legislative requests during
concerning the impact of such legislation or        this reporting period.
regulations.




78         April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS



                                     Appendix II
                         Audit Products
              April 1, 2013 – September 30, 2013
                                       Audit Products
 Reference
  Number                                            Report Title
               April 2013
2013-1C-036   Application of Agreed-Upon Procedures
2013-1C-038   Fiscal Year 2006 Corporate Office Incurred Cost Audit
              Travel Card Controls Are Generally Effective, but More Aggressive Actions to Address
2013-10-032
              Misuse Are Needed
              Noncompliance With Cost Accounting Standard 405, Accounting for Unallowable
2013-1C-042
              Costs
              Enhancements Made to the Modernized e-File System in Release 8 Should Improve
2013-20-039
              System Performance for the 2013 Filing Season
              Independent Audit of the Contractor’s Home Office Fiscal Year Ended December 31,
2013-1C-044
              2005, Incurred Cost
              Cost-Reimbursement Contracts Did Not Fully Comply With Federal Acquisition
2013-10-046   Regulation Revisions (Protection of Resources: $3,600,000; Reliability of Information:
              $2,596,033 in contracts improperly coded)
               May 2013
2013-1C-041   Fiscal Year 2005 Intermediate Home Office Incurred Cost Claim
              Review and Verification of Individual Taxpayer Identification Number Applications Has
2013-40-052
              Improved; However, Additional Processes and Procedures Are Still Needed
              Controls Over Partial Payment Installment Agreements Can Be Improved (Increased
2013-30-040
              Revenue: $345,878,705 and 230,178 taxpayer accounts impacted)
              Oversight of Revenue Officer Case Actions Can Be Improved (Taxpayer Burden:
2013-30-043
              96,417 taxpayer accounts impacted)
              Inappropriate Criteria Were Used to Identify Tax-Exempt Applications for Review
              (Reliability of Information: nine case files that had incomplete documentation or could
              not be located and 185 organizations applying for tax-exempt status whose
2013-10-053
              applications were not appropriately identified as having significant potential political
              campaign intervention; Taxpayer Burden: 256 organizations applying for tax-exempt
              status)
2013-1C-045   Preaward Accounting System Audit
              Supplemental Audit of the Contractor’s Corporate Office Fiscal Year 2005 Incurred
2013-1C-047
              Costs
              Actions Are Needed to Accurately Reflect Criminal Investigation’s Fraud Referral
2013-30-051   Evaluation Period and Improve the Criminal Fraud Referral Process (Reliability of
              Information: 3,635 fraud referrals with discrepancies in the initiation or closing date)
              Review of the August 2010 Small Business/Self-Employed Division’s Conference in
2013-10-037
              Anaheim, California
               June 2013
              Processes Ensure That Taxpayer Identification Numbers Used to Claim Dependent
2013-40-059
              Exemptions Are Valid
              The Enterprise Collection Strategy Organization Has Centralized Management of the
2013-30-054   Collection Organization; However, Performance Measures and Key Roles Need to Be
              Developed

                                                         April 1, 2013 – September 30, 2013              79
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS


               The Data Center Consolidation Initiative Has Made Significant Progress, but Program
2013-20-013    Management Should Be Improved to Ensure That Goals Are Achieved (Funds Put to
               Better Use: $60,000,000)
               Fiscal Year 2013 Review of Compliance With Legal Guidelines When Conducting
2013-30-061    Seizures of Taxpayers’ Property (Taxpayer Rights and Entitlements: 14 taxpayer
               accounts impacted)
               Employers Do Not Always Follow Internal Revenue Service Worker Determination
2013-30-058
               Rulings (Increased Revenue: $5,964,655)
               The Purchase Card Program Lacks Consistent Oversight to Identify and Address
2013-10-056    Inappropriate Use (Funds Put to Better Use: $7,060; Protection of Resources:
               $221,232)
               The Taxpayer Protection Program Improves Identity Theft Detection; However, Case
2013-40-062    Processing Controls Need to Be Improved (Reliability of Information: 37,882 taxpayer
               accounts impacted)
               Desktop and Laptop Software License Management Is Not Being Adequately
2013-20-025
               Performed
2013-10-060    Vulnerabilities Exist for Improper or Fraudulent Claims for Bond Tax Credits
                July 2013
2013-10-074    Potential Fair Tax Collection Practices Violations Were Inaccurately Coded
               Review of Costs Associated With the Contractor’s Center for the Business of
2013-1C-057
               Government in Fiscal Years 2007, 2008, and 2009
               Improvements Are Needed to Ensure Successful Development and System Integration
2013-20-063
               for the Return Review Program
               Fiscal Year 2013 Statutory Audit of Compliance With Notifying Taxpayers of Their
2013-30-071
               Rights When Requested to Extend the Assessment Statute
               Fiscal Year 2013 Statutory Review of Disclosure of Collection Activity With Respect to
2013-30-079
               Joint Returns
               Fiscal Year 2013 Statutory Review of Compliance With Lien Due Process Procedures
2013-30-072
               (Taxpayer Burden: 27,389 taxpayer accounts impacted)
2013-1C-048    Calendar Year 2007 Incurred Cost Rate Proposal
2013-1C-049    Follow-up Audit on the Travel Management System
                August 2013
               Income and Withholding Verification Processes Are Resulting in the Issuance of
2013-40-083
               Potentially Fraudulent Tax Refunds (Funds Put to Better Use: $2,900,000)
2013-1C-050    Purchasing System Determination
               Fiscal Year 2013 Mandatory Annual Audit Requirement 6, Labor Floor Checks or
2013-1C-070
               Interviews
               Fiscal Year 2013 Statutory Audit of Compliance With Legal Guidelines Restricting the
2013-30-073
               Use of Records of Tax Enforcement Results
               Fiscal Year 2013 Statutory Audit of Compliance With Legal Guidelines Prohibiting the
2013-30-085    Use of Illegal Tax Protester and Similar Designations (Taxpayer Rights and
               Entitlements: 54 taxpayer accounts impacted)
               Fiscal Year 2013 Statutory Review of Compliance With Legal Guidelines When Issuing
2013-30-092
               Levies (Taxpayer Rights and Entitlements: Three taxpayer accounts impacted)
2013-30-078    Trends in Compliance Activities Through Fiscal Year 2012
               The Correspondence Audit Selection Process Could Be Strengthened (Increased
2013-30-077
               Revenue: $69,358,950 and 2,344 taxpayer accounts impacted)
               The Internal Revenue Service Is Not in Compliance With Executive Order 13520 to
2013-40-084
               Reduce Improper Payments
               Chief Counsel Should Take Steps to Minimize the Risk of Outside Influence on Its
2013-10-081
               Letter Rulings
               Significant Progress Was Made in Achieving Compliance With the Federal Financial
2013-10-091    Management Improvement Act, but Unpaid Assessments Remain a Material
               Weakness


80       April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS


              Fiscal Year 2013 Statutory Review of Restrictions on Directly Contacting Taxpayers
2013-30-080
              (Taxpayer Rights and Entitlements: 8,277 taxpayer accounts impacted)
2013-10-082   Contractor Employees Have Millions of Dollars of Federal Tax Debts
              September 2013
2013-1C-088   Application of Agreed-Upon Procedures
              Correspondence Scan Errors and Image System Limitations Can Delay Resolution of
2013-40-105
              Taxpayer Cases
              Improvements Are Needed in Assessing and Enforcing Internal Revenue Code
2013-30-075
              Section 6694 Paid Preparer Penalties (Revenue Protection: $454,643)
2013-1C-096   Fiscal Year 2011 Floor Check Audit
              Weaknesses in Asset Management Controls Leave Information Technology Assets
2013-20-089   Vulnerable to Loss (Protection of Resources: $6,857,798; Reliability of Information:
              60,548 information technology asset records with incorrect or invalid entries)
              Unsupported and Potentially Erroneous Claims for General Business Credits Are Not
              Always Identified When Tax Returns Are Processed (Revenue Protection:
2013-40-093
              $57,083,515 and 8,657 taxpayer accounts impacted; Inefficient Use of Resources:
              $378,680)
              Recalculations of the Collection Statute Expiration Date Were Not Always Accurate
              (Increased Revenue: 7,977 tax modules where the collection statute was not correctly
              extended; Taxpayer Burden: Nine taxpayer accounts impacted; Taxpayer Rights and
2013-30-098
              Entitlements: 261 tax modules where the collection statute was incorrectly extended;
              Reliability of Information: 116 tax modules where the collection statute date was
              unverifiable)
              The Physical Security Risk Assessment Program Needs Improvement (Protection of
2013-10-101
              Resources: 248 IRS employees located at five facilities)
              Inconsistent Adherence to Quality Requirements Continues to Affect the Accuracy of
2013-40-110
              Some Tax Returns Prepared at Volunteer Sites
              The Office of Appeals Continues to Experience Difficulties in the Handling of Collection
2013-10-103   Due Process Cases (Taxpayer Rights and Entitlements: 15,734 taxpayer accounts
              impacted; Increased Revenue: 4,350 taxpayer accounts impacted)
              Full Compliance With Trusted Internet Connection Requirements Is Progressing;
2013-20-107
              However, Improvements Would Strengthen Security
              Automated Monitoring Is Needed for the Virtual Infrastructure to Ensure Secure
2013-20-106
              Configurations
              Affordable Care Act: Tracking of Health Insurance Reform Implementation Fund Costs
2013-13-115   Could Be Improved (Reliability of Information: 7,221 direct labor hours charged to the
              Health Insurance Reform Implementation Fund)
2013-30-113   The International Campus Compliance Unit Is Improving Individual Tax Compliance
              Actions Are Needed to Strengthen the National Quality Review System for
2013-30-099
              Correspondence Audits
              Fiscal Year 2013 Statutory Review of Compliance With the Freedom of Information Act
2013-30-109   (Taxpayer Rights and Entitlements: 572 responses to information requests; Taxpayer
              Privacy and Security: 13 responses to information requests)
              Detection Has Improved; However, Identity Theft Continues to Result in Billions of
              Dollars in Potentially Fraudulent Tax Refunds (Funds Put to Better Use:
2013-40-122
              $1,883,240,515; Taxpayer Privacy and Security: 138,250 taxpayer accounts
              impacted)
              The Use of Return on Investment Information in Managing Tax Enforcement
2013-10-104
              Resources Could Be Improved
2013-30-114   The Parallel Investigations Process Needs Improvement
              Stolen and Falsely Obtained Employer Identification Numbers Are Used to Report
2013-40-120
              False Income and Withholding (Funds Put to Better Use: $3,894,104,665)
              Customer Account Data Engine 2 Database Deployment Is Experiencing Delays and
2013-20-125
              Increased Costs

                                                        April 1, 2013 – September 30, 2013               81
                                        TIGTA SEMIANNUAL REPORT TO CONGRESS


               Increased Oversight of Information Technology Hardware Maintenance Contracts Is
2013-22-094
               Necessary to Ensure Against Paying for Unnecessary Services
               Improvements Are Needed to Ensure Timely Resumption of Critical Business
2013-10-102
               Processes After an Emergency
               Better Cost-Benefit Analysis and Security Measures Are Needed for the Bring Your
2013-20-108
               Own Device Pilot
               Systemic Penalties on Late-Filed Forms Related to Certain Foreign Corporations Were
               Properly Assessed, but the Abatement Process Needs Improvement (Revenue
2013-30-111    Protection: $155,000,000 and 3,550 taxpayer accounts impacted; Taxpayer Burden:
               $58,000,000 and 625 taxpayer accounts impacted; Reliability of Information: 7,100
               taxpayer accounts impacted)
               Vendors Had Millions of Dollars of Federal Tax Debt (Reliability of Information: 7,461
2013-10-116
               records with unreliable, missing, or invalid data; Protection of Resources: $2,600,000)
               While Efforts Are Ongoing to Deploy a Secure Mechanism to Verify Taxpayer
2013-20-127    Identities, the Public Still Cannot Access Their Tax Account Information Via the
               Internet
               The Law Which Penalizes Erroneous Refund and Credit Claims Was Not Properly
2013-40-123    Implemented (Increased Revenue: $7,550,483,975 and 578,956 taxpayer accounts
               impacted)
               Case Processing Delays and Tax Account Errors Increased Hardship for Victims of
2013-40-129
               Identity Theft (Reliability of Information: 95,429 taxpayers impacted)
               A Process Has Not Been Established to Ensure That Billions of Dollars in Taxes
2013-40-130    Withheld From Foreign Persons Are Remitted (Increased Revenue: $542,893,391;
               Revenue Protection: $58,375,259)
               The Referral Process for Examinations of Tax Returns Claiming the Foreign Earned
2013-30-112
               Income Exclusion Needs to Be Improved (Increased Revenue: $21,000,000)
               Improved Controls Are Needed to Ensure That All Planned Corrective Actions for
2013-20-117
               Security Weaknesses Are Fully Implemented to Protect Taxpayer Data
               Foreign Account Tax Compliance Act: Improvements Are Needed to Strengthen
2013-20-118    Systems Development Controls for the Foreign Financial Institution Registration
               System (Inefficient Use of Resources: $2,200,000)
               Affordable Care Act: Improvements Are Needed to Strengthen Systems Development
2013-23-119
               Controls for the Premium Tax Credit Project
               The Online Payment Agreement Program Benefits Taxpayers and the Internal
               Revenue Service, but More Could Be Done to Expand Its Use (Funds Put to Better
2013-30-121
               Use: $13,100,000; Increased Revenue: $314,200,000; Taxpayer Burden: 2,200,000
               taxpayer accounts impacted)
               Treasury Inspector General for Tax Administration – Federal Information Security
2013-20-128
               Management Act Report for Fiscal Year 2013
               All Individual Tax Returns Filed Electronically in the 2013 Filing Season Were
               Processed Using the Modernized e-File System (Increased Revenue: $1,441,457 and
2013-40-131
               11,700 taxpayer accounts impacted; Reliability of Information: 23,108 prior year tax
               returns with an incorrect tax period recorded)
               Late Legislation Delayed the Filing of Tax Returns and Issuance of Refunds for the
               2013 Filing Season (Increased Revenue: $354,149,000; Funds Put to Better Use:
2013-40-124    $37,780,021; Revenue Protection: $20,711,762 and 27,764 taxpayer accounts
               impacted; Taxpayer Rights and Entitlements: $11,434,473 and 52,270 taxpayer
               accounts impacted)
2013-20-126    Annual Assessment of the IRS Information Technology Program




82       April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



                                          Appendix III
                TIGTA’s Statutory Reporting Requirements
TIGTA issued 20 audit reports required by statute dealing with the adequacy and security
of IRS technology during Fiscal Year (FY) 2013. In FY 2013, TIGTA completed its 15th
round of statutory reviews that are required annually by the IRS Restructuring and Reform
Act of 1998 (RRA 98). It also completed its annual reviews of the Federal Financial
Management Improvement Act (FFMIA) of 1996, the Office of National Drug Control Policy
(ONDCP) Detailed Accounting Submission and Assertions, and the Improper Payments
Elimination and Recovery Act of 2010 (IPERA). The following table reflects the FY 2013
statutory reviews.

       Reference to                   Explanation of the                Comments/TIGTA Audit
    Statutory Coverage                    Provision                           Status

   Enforcement Statistics           Requires TIGTA to evaluate the   Ref. No. 2013-30-073, August 2013
                                    IRS’s compliance with            The IRS did not achieve full compliance
   Internal Revenue Code (I.R.C.)   restrictions under RRA 98 §      with RRA 98 Section 1204
   Section (§) 7803(d)(1)(A)(i)     1204 on the use of enforcement   requirements. TIGTA identified
                                    statistics to evaluate IRS       instances of noncompliance with each
                                    employees.                       subsection of the law:

                                                                         •   Section 1204(a) – eight
                                                                             violations.
                                                                         •   Section 1204(b) – 15 instances
                                                                             of documentation
                                                                             noncompliance.
                                                                         •   Section 1204(c) - one instance
                                                                             of noncompliance.

                                                                     TIGTA also identified five IRS policy
                                                                     violations. In these five instances,
                                                                     managers did not reject employee self-
                                                                     assessments containing record of tax
                                                                     enforcement results (ROTER)
                                                                     information.
                                                                     The IRS is taking a proactive approach
                                                                     to Section 1204 training and has
                                                                     received approval to conduct the
                                                                     mandatory training in the form of a
                                                                     briefing every two years. However,
                                                                     once the mandatory biannual briefing
                                                                     period is over, the training is not
                                                                     scheduled to be given in the interim to
                                                                     any newly hired Section 1204 employee
                                                                     or manager. To address our concerns
                                                                     regarding Section 1204 new hires, IRS
                                                                     management stated that they plan to
                                                                     provide training each quarter for any
                                                                     recently hired Section 1204 employees
                                                                     and managers, instead of having them
                                                                     wait until the next biannual briefing.




                                                              April 1, 2013 – September 30, 2013               83
                                            TIGTA SEMIANNUAL REPORT TO CONGRESS



         Reference to                Explanation of the                   Comments/TIGTA Audit
      Statutory Coverage                 Provision                              Status
     Restrictions on Directly
     Contacting Taxpayers         Requires TIGTA to evaluate the       Ref. No 2013-30-080, August 2013
                                  IRS’s compliance with restrictions   The IRS has a number of policies and
     I.R.C. § 7803(d)(1)(A)(ii)   under I.R.C. § 7521 on directly      procedures in place to help ensure that
                                  contacting taxpayers who have        taxpayers are afforded the right to
                                  indicated they prefer their          designate a qualified representative to
                                  representatives be contacted.        act on their behalf in dealing with IRS
                                                                       personnel in a variety of tax matters.
                                                                       Each year, TIGTA focuses on an office
                                                                       or function of the IRS that interacts with
                                                                       taxpayers and their representative to act
                                                                       on their behalf in dealing with IRS
                                                                       personnel in a variety of tax matters.
                                                                       For this review, TIGTA analyzed how
                                                                       well the Office of Appeals (Appeals) has
                                                                       ensured that its personnel are
                                                                       appropriately including taxpayers’
                                                                       representatives in its activities. A
                                                                       statistical sample of 96 of 72,239 cases
                                                                       closed by Appeals showed that Appeals
                                                                       personnel did not always involve
                                                                       representatives appropriately in some
                                                                       key actions.
                                                                       In 11 of 96 sampled cases, Appeals
                                                                       personnel deviated from procedures by
                                                                       attempting to contact the taxpayer
                                                                       directly by telephone or not ensuring
                                                                       that copies of taxpayer correspondence
                                                                       were sent to the taxpayer’s authorized
                                                                       representative. In addition, no
                                                                       documentation was found in managerial
                                                                       reviews indicating that checks were
                                                                       made to ensure that Appeals personnel
                                                                       were involving representatives in all
                                                                       case actions and providing
                                                                       representatives copies of all original
                                                                       correspondence sent to the taxpayers.




84           April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS



    Reference to                 Explanation of the                     Comments/TIGTA Audit
 Statutory Coverage                  Provision                                Status

Filing of a Notice of Lien    Requires TIGTA to evaluate the         Ref. No 2013-30-072, July 2013
                              IRS’s compliance with required         TIGTA reviewed a statistically valid
I.R.C. § 7803(d)(1)(A)(iii)   procedures under I.R.C. § 6320         sample of 133 Notices of Federal Tax
                              upon the filing of a notice of lien.   Liens filed for the 12-month period
                                                                     ending June 30, 2012. IRS regulations
                                                                     require that taxpayer representatives be
                                                                     given copies of all correspondence
                                                                     issued to the taxpayer. However, for
                                                                     five of the 47 cases in the statistically
                                                                     valid sample in which the taxpayer had
                                                                     an authorized representative, the IRS
                                                                     did not notify the taxpayers’
                                                                     representative of the Notice of Federal
                                                                     Tax Lien filings. TIGTA estimated that
                                                                     27,389 taxpayers may have been
                                                                     adversely affected because the IRS did
                                                                     not follow requirements to notify the
                                                                     taxpayers’ representatives of the
                                                                     taxpayers’ rights related to liens.
                                                                     In addition, the IRS is not always
                                                                     following internal procedures for
                                                                     undelivered lien notices. IRS
                                                                     procedures require address verification
                                                                     and if applicable, resolution of
                                                                     undelivered lien notices within 14
                                                                     calendar days of receipt. TIGTA
                                                                     selected a judgmental sample of 248
                                                                     undelivered lien notices returned to the
                                                                     Cincinnati (113 lien notices) and Fresno
                                                                     (135 lien notices) Campuses in October
                                                                     2012. For 102 of the 248 undelivered
                                                                     lien notices, employees did not perform
                                                                     the required research within 14 calendar
                                                                     days of receipt of the returned lien
                                                                     notice.

Extensions of the Statute     Requires TIGTA to include              Ref. No 2013-30-071, July 2013
of Limitations for            information regarding                  The IRS is required to notify taxpayers
Assessment of Tax             extensions of the statute of           of their rights when requesting an
                              limitations for assessment of tax      extension of the statute of limitations for
I.R.C. § 7803(d)(1)(C)        under I.R.C. § 6501 and the            assessing additional taxes and
                              provision of notice to taxpayers       penalties. TIGTA’s review of a
I.R.C. § 6501(c)(4)(B)        regarding the right to refuse or       statistical sample of 51 closed taxpayer
                              limit the extension to particular      audit files with statute extensions found
                              issues or a particular period of       that the IRS is in compliance with
                              time.                                  Internal Revenue Code 6501(c)(4)(B).
                                                                     TIGTA’s review found instances in
                                                                     which there was no documentation to
                                                                     support that the IRS complied with IRS
                                                                     procedures related to notifying
                                                                     taxpayers’ representatives when an
                                                                     authorization for third-party
                                                                     representation existed. Taxpayers
                                                                     might be adversely affected if the IRS
                                                                     does not follow requirements to notify
                                                                     both the taxpayers and their
                                                                     representatives of the taxpayers’ rights
                                                                     related to statute extensions.


                                                              April 1, 2013 – September 30, 2013                   85
                                                TIGTA SEMIANNUAL REPORT TO CONGRESS



         Reference to                    Explanation of the                 Comments/TIGTA Audit
      Statutory Coverage                     Provision                            Status

     Levies                            Requires TIGTA to evaluate the    Ref. No. 2013-30-092, August 2013
                                       IRS’s compliance with required    The IRS is protecting most taxpayers’
     I.R.C. § 7803(d)(1)(A)(iv)        procedures under I.R.C. § 6330    rights when issuing systemically
                                       regarding levies.                 generated and manually prepared
                                                                         levies. TIGTA reviewed 15 systemically
                                                                         generated and 30 manual levies
                                                                         identified through the Automated
                                                                         Collection System and determined that
                                                                         controls were effective to ensure that
                                                                         taxpayers were given notice of their
                                                                         appeal rights at least 30 calendar days
                                                                         prior to the issuance of the levies. In
                                                                         addition, TIGTA reviewed 27
                                                                         systemically generated and 18 manual
                                                                         levies identified through the Integrated
                                                                         Collection System and determined that
                                                                         taxpayers were given notice of their
                                                                         appeal rights at least 30 calendar days
                                                                         prior to issuance of the levies.
                                                                         However, three systemic levies had
                                                                         additional tax assessments in which a
                                                                         new notice of intent to levy was not sent
                                                                         prior to issuing the levies, as required.
                                                                         Ref. No. 2013-10-103, September
     Collection Due Process            Requires TIGTA to evaluate the    2013
                                       IRS’s compliance with required    In this year’s audit, TIGTA continued to
     I.R.C. § 7803(d)(1)(A)(iii) and   procedures under I.R.C. §§ 6320   identify the same deficiencies in the
     (iv)                              and 6330 regarding taxpayers’     IRS’s processing of Collection Due
                                       rights to appeal lien or levy     Process cases as previously reported.
                                       actions.                          Specifically, the Office of Appeals did
                                                                         not always classify taxpayer requests
                                                                         properly and, as a result, some
                                                                         taxpayers received the wrong type of
                                                                         hearing; errors continued relating to the
                                                                         determination of the Collection Statute
                                                                         Expiration Date on taxpayer accounts;
                                                                         and Appeals personnel did not always
                                                                         document their impartiality statement in
                                                                         hearing notification letters issued to
                                                                         taxpayers.
                                                                         TIGTA also identified delays in the initial
                                                                         processing of requests for hearings prior
                                                                         to receipt by Office of Appeals
                                                                         personnel. Some taxpayer requests for
                                                                         a hearing took over 90 days to reach
                                                                         Office of Appeals personnel from the
                                                                         Compliance function, which could have
                                                                         affected the taxpayer’s due process
                                                                         rights.




86            April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS



    Reference to                Explanation of the                  Comments/TIGTA Audit
 Statutory Coverage                 Provision                             Status

Seizures                     Requires TIGTA to evaluate the      Ref. No. 2013-30-061, June 2013
                             IRS’s compliance with required      TIGTA reviewed a random sample of 50
I.R.C. § 7803(d)(1)(A)(iv)   procedures under I.R.C. §§ 6330     of the 738 seizures conducted from July
                             through 6344 when conducting        1, 2011, through June 30, 2012, to
                             seizures.                           determine whether the IRS is complying
                                                                 with legal and internal guidelines for
                                                                 conducting each seizure. In the majority
                                                                 of the seizures, the IRS followed all
                                                                 guidelines.
                                                                 However, in 15 seizures, TIGTA
                                                                 identified 17 instances in which the IRS
                                                                 did not comply with a particular I.R.C.
                                                                 requirement. Specifically, TIGTA found:

                                                                     •    The sale of the seized property
                                                                          was not properly advertised
                                                                          (I.R.C. § 6335(b)).
                                                                     •    The amount of the liability for
                                                                          which the seizure was made
                                                                          was not correct on the notice of
                                                                          seizure provided to the
                                                                          taxpayer (I.R.C. § 6335(a)).
                                                                     •    Proceeds resulting from the
                                                                          seizure of properties were not
                                                                          properly applied to the
                                                                          taxpayer’s account or seizure
                                                                          and sale expenses were not
                                                                          properly charged (I.R.C. §§
                                                                          6341 and 6342(a)).
                                                                     •    The balance-due letter sent to
                                                                          the taxpayer after sale
                                                                          proceeds were applied to the
                                                                          taxpayer’s account did not
                                                                          show the correct remaining
                                                                          balance (I.R.C. § 6340(c)).

Taxpayer Designations –      An evaluation of the IRS’s          Ref. No. 2013-30-085, August 2013
Illegal Tax Protester        compliance with restrictions        The IRS has not reintroduced past
Designation and Nonfiler     under RRA 98 § 3707 on              Illegal Tax Protestor codes or similar
Designation                  designation of taxpayers.           designations on taxpayer accounts.
                                                                 However, TIGTA found that out of
I.R.C. § 7803(d)(1)(A)(v)                                        approximately 257 million records and
                                                                 cases, there were 54 instances in which
                                                                 45 employees referred to taxpayers as
                                                                 “Tax Protester,” “Constitutionally
                                                                 Challenged,” or other similar
                                                                 designations in case narratives on the
                                                                 computer systems analyzed.




                                                            April 1, 2013 – September 30, 2013               87
                                                TIGTA SEMIANNUAL REPORT TO CONGRESS



         Reference to                   Explanation of the                      Comments/TIGTA Audit
      Statutory Coverage                    Provision                                 Status

     Disclosure of Collection        Requires TIGTA to review and            Ref. No. 2013-30-079, July 2013
     Activities With Respect to      certify whether the IRS is              IRS procedures provide employees with
     Joint Returns                   complying with I.R.C.                   sufficient guidance for handling joint filer
                                     § 6103(e) (8) to disclose               collection activity information requests.
     I.R.C. § 7803(d)(1)(B)          information to an individual filing a   However, TIGTA could not determine
                                     joint return on collection activity     whether the IRS fully complies with
     I.R.C. § 6103(e)(8)             involving the other individual filing   I.R.C. § 6103(e)(8) requirements when
                                     the return.                             responding to written collection activity
                                                                             information requests from joint filers.
                                                                             IRS management information systems
                                                                             do not separately record or monitor joint
                                                                             filer requests, and there is no legal
                                                                             requirement for the IRS to do so.
                                                                             Further, TIGTA does not recommend
                                                                             the creation of a separate tracking
                                                                             system.

     Taxpayer Complaints             Requires TIGTA to include in            Statistical results on the number of
                                     each of its Semiannual Reports to       taxpayer complaints received are shown
     I.R.C. § 7803(d)(2)(A)          Congress the number of taxpayer         on page 70.
                                     complaints received and the
                                     number of employee misconduct
                                     and taxpayer abuse allegations
                                     received by IRS or TIGTA from
                                     taxpayers, IRS employees and
                                     other sources.



                                                                             Ref. No. 2013-10-074, July 2013
     Administrative or Civil         Requires TIGTA to include               Although the IRS did not close any
     Actions With Respect to the     information regarding any               cases it classified as Fair Tax
     Fair Tax Collection Practices   administrative or civil actions with    Compliance Practices violations in
     Act of 1996                     respect to violations of the fair       Fiscal Year 2012, TIGTA determined
                                     debt collection provision of I.R.C.     that 13 cases closed during Fiscal Year
     I.R.C. § 7803(d)(1)(G)          § 6304, including a summary of          2012 that were coded as
                                     such actions, and any resulting         “unprofessional conduct” cases should
     I.R.C. § 6304                   judgments or awards granted.            have been coded and worked as
                                                                             potential Fair Tax Compliance Practices
     RRA 98 § 3466                                                           violations. In addition, TIGTA identified
                                                                             eight open cases (as of September 30,
                                                                             2012) that should also have been
                                                                             classified as Fair Tax Compliance
                                                                             Practice violations but were not. This
                                                                             occurred because the IRS’s system for
                                                                             tracking employee investigations
                                                                             incorrectly coded cases received
                                                                             electronically from TIGTA’s Office of
                                                                             Investigations as unprofessional
                                                                             conduct cases instead of potential Fair
                                                                             Tax Compliance Practices cases. In
                                                                             addition, there were no civil actions
                                                                             resulting in monetary awards for
                                                                             damages to taxpayers because of a Fair
                                                                             Tax Compliance Practices violation.




88          April 1, 2013 – September 30, 2013
        TIGTA SEMIANNUAL REPORT TO CONGRESS



    Reference to            Explanation of the                    Comments/TIGTA Audit
 Statutory Coverage             Provision                               Status

Denial of Requests for   Requires TIGTA to include             Ref. No. 2013-30-109, September
Information              information regarding improper        2013
                         denial of requests for information    TIGTA reviewed a statistically valid
I.R.C. § 7803(d)(1)(F)   from the IRS, based on a              sample of 55 Freedom of Information
                         statistically valid sample of the     Act/Privacy Act requests from a
I.R.C. § 7803(d)(3)(A)   total number of determinations        population of 3,415 requests and found
                         made by the IRS to deny written       nine (16.4 percent) in which taxpayer
                         requests to disclose information      rights may have been violated because
                         to taxpayers on the basis of I.R.C.   the IRS improperly withheld or failed to
                         § 6103 or 5 U.S.C. § 552(b)(7).       adequately search for and provide
                                                               information to requestors. In addition,
                                                               the IRS may have violated taxpayer
                                                               rights by failing to adequately search for
                                                               and provide information in three (5.6
                                                               percent) of 54 sampled I.R.C. § 6103
                                                               information requests. When the sample
                                                               results are projected to their respective
                                                               populations, approximately 559
                                                               Freedom of Information Act/Privacy Act
                                                               and 13 I.R.C. § 6103 information
                                                               requests may have had information
                                                               erroneously withheld.
                                                               All Freedom of Information Act/Privacy
                                                               Act information requests sampled were
                                                               responded to timely. There are no
                                                               statutory time frames within which the
                                                               IRS must respond to I.R.C. § 6103
                                                               information requests. However, for 15
                                                               (27.8 percent) of the 54 I.R.C. § 6103
                                                               information requests, the IRS took more
                                                               than 30 calendar days to provide a
                                                               response.
                                                               Additionally, sensitive taxpayer
                                                               information was inadvertently disclosed
                                                               in response to nine (16.4 percent) of the
                                                               Freedom of Information Act/Privacy Act
                                                               and four (7.4 percent) of the I.R.C. §
                                                               6103 information requests reviewed.




                                                       April 1, 2013 – September 30, 2013                   89
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS



         Reference to               Explanation of the              Comments/TIGTA Audit
      Statutory Coverage                Provision                         Status

     Adequacy and Security of    Requires TIGTA to evaluate the   Information Technology Reviews:
     the Technology of the IRS   IRS’s adequacy and security of   Ref. No. 2013-20-030, March 2013
                                 its technology.                  Ref. No. 2013-23-034, March 2013
     I.R.C. § 7803(d)(1)(D)                                       Ref. No. 2013-20-039, April 2013
                                                                  Ref. No. 2013-20-025, June 2013
                                                                  Ref. No. 2013-20-013, June 2013
                                                                  Ref. No. 2013-20-063, July 2013
                                                                  Ref. No. 2013-20-089, September 2013
                                                                  Ref. No. 2013-22-094, September 2013
                                                                  Ref. No. 2013-20-118, September 2013
                                                                  Ref. No. 2013-20-126, September 2013
                                                                  Ref. No. 2013-20-125, September 2013
                                                                  Ref. No. 2013-23-119, September 2013


                                                                  Security Reviews:
                                                                  Ref. No. 2013-20-016, January 2013
                                                                  Ref. No. 2013-20-023, February 2013
                                                                  Ref. No. 2013-20-127, September 2013
                                                                  Ref. No. 2013-20-106, September 2013
                                                                  Ref. No. 2013-20-107, September 2013
                                                                  Ref. No. 2013-20-108, September 2013
                                                                  Ref. No. 2013-20-117, September 2013
                                                                  Ref. No. 2013-20-128, September 2013




90          April 1, 2013 – September 30, 2013
        TIGTA SEMIANNUAL REPORT TO CONGRESS



    Reference to                      Explanation of the                 Comments/TIGTA Audit
 Statutory Coverage                       Provision                            Status

Federal Financial                  Requires TIGTA to evaluate the     Ref. No. 2013-10-091, August 2013
Management Improvement             financial management systems to    The IRS made significant progress in
Act of 1996 (FFMIA)                ensure compliance with Federal     addressing previously identified
                                   requirements or the                remediation plan material weaknesses.
31 U.S.C. § 3512                   establishment of a remediation     For example, the Government
                                   plan with resources, remedies,     Accountability Office reported the
                                   and intermediate target dates to   downgrade of the information security
                                   bring the IRS into substantial     material weakness to a significant
                                   compliance.                        deficiency during the Fiscal Year 2012
                                                                      financial statement audit, and the IRS
                                                                      removed it from the December 31,
                                                                      2012, remediation plan. This material
                                                                      weakness was initially identified in the
                                                                      June 1993 Government Accountability
                                                                      Office report. In addition, the IRS met
                                                                      all intermediate target dates established
                                                                      in its remediation plan.

                                                                      However, the material weaknesses
                                                                      related to unpaid assessments remain.
                                                                      In a previous report, TIGTA
                                                                      recommended that the IRS determine
                                                                      whether the planned November 2014
                                                                      implementation of a key system, the
                                                                      Customer Account Data Engine 2, will
                                                                      fully address the unpaid assessments
                                                                      material weakness, and TIGTA
                                                                      recommended that the IRS update
                                                                      future remediation plans with a more
                                                                      accurate implementation date, if
                                                                      necessary. IRS management agreed
                                                                      with this recommendation and plans to
                                                                      reassess the November 2014 closing
                                                                      date for this material weakness once the
                                                                      scope for Customer Account Data
                                                                      Engine 2 is determined. As a result,
                                                                      TIGTA will continue to monitor the IRS’s
                                                                      progress in achieving compliance with
                                                                      the FFMIA.

Office of National Drug            Requires TIGTA to authenticate     Ref. No. 2013-10-019, January 2013
Control Policy (ONDCP)             the IRS’s ONDCP detailed           Nothing came to TIGTA’s attention that
Detailed Accounting                accounting submission and          caused TIGTA to believe that the
Submission and Assertions          assertions.                        assertions in the Detailed Accounting
                                                                      Submission and Performance Summary
National Drug Enforcement                                             Report were not fairly presented in all
Policy 21 U.S.C. § 1704(d) and                                        material respects in accordance with
the Office of National Drug                                           ONDCP-established criteria.
Control Policy Circular entitled
Drug Control Accounting, dated
May 1, 2007.




                                                               April 1, 2013 – September 30, 2013                 91
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS



         Reference to               Explanation of the               Comments/TIGTA Audit
      Statutory Coverage                Provision                          Status

     Improper Payments           Requires TIGTA to assess the     Ref. No. 2013-40-015, January 2013
     Elimination and Recovery    IRS’s compliance with improper   The IRS used the Department of the
     Act of 2010 (IPERA)         payment requirements.            Treasury’s Improper Payment Risk
                                                                  Assessment Questionnaire (the
     31 U.S.C. § 3321                                             Questionnaire) and guidance to
                                                                  complete the FY 2011 risk assessment
                                                                  for each designated administrative and
                                                                  revenue program fund. TIGTA
                                                                  determined that the risk assessment
                                                                  process adequately reflects the risk of
                                                                  improper payments in the IRS’s
                                                                  administrative program funds.
                                                                  However, the process does not provide
                                                                  a reliable assessment of the risk of
                                                                  improper payments in the IRS’s revenue
                                                                  program funds. The IRS’s review
                                                                  process for revenue program fund risk
                                                                  assessments is informal and did not
                                                                  always adhere to required guidelines for
                                                                  performing the assessment. The design
                                                                  of the Questionnaire does not provide
                                                                  an adequate assessment of the risk
                                                                  associated with tax refunds. For
                                                                  example, not all of the questions apply
                                                                  to tax refund payments. Depending on
                                                                  the response to these questions, the
                                                                  program’s risk score can be affected. In
                                                                  addition, questions pertaining to other
                                                                  areas of potential risk within tax
                                                                  administration are not included in the
                                                                  Questionnaire.

                                                                  Moreover, other issues, such as
                                                                  insufficient verification of identity or
                                                                  income, can pose a significant risk for
                                                                  improper payments. Prior TIGTA
                                                                  reports indicated that this risk could be
                                                                  significant. As a result of identity theft,
                                                                  the IRS may have paid $5.2 billion in
                                                                  potentially fraudulent tax refunds.
                                                                  TIGTA also previously found that the
                                                                  verification process for Individual
                                                                  Taxpayer Identification Number
                                                                  applications was substantially deficient.
                                                                  More than 481,500 tax returns
                                                                  associated with these applications had
                                                                  claims for the Additional Child Tax
                                                                  Credit totaling more than $916 million.




92          April 1, 2013 – September 30, 2013
       TIGTA SEMIANNUAL REPORT TO CONGRESS



    Reference to              Explanation of the               Comments/TIGTA Audit
 Statutory Coverage               Provision                          Status

Improper Payments          Requires TIGTA to assess the     Ref. No. 2013-40-024, February 2013
Elimination and Recovery   IRS’s compliance with improper   The Department of the Treasury
Act of 2010 (IPERA)        payment requirements.            identifies the programs for which the
                                                            IRS must assess the risk of improper
31 U.S.C. § 3321                                            payments. The IRS compiles the
                                                            required information and forwards it to
                                                            the Department of the Treasury for
                                                            inclusion in the Department’s agency
                                                            financial report.

                                                            TIGTA’s analysis of the information that
                                                            the IRS provided to the Department of
                                                            the Treasury showed that the IRS is not
                                                            in compliance with all IPERA
                                                            requirements. Specifically, the IRS has
                                                            not established annual Earned Income
                                                            Tax Credit (EITC) improper payment
                                                            reduction targets and has not reported
                                                            an improper payment rate of less than
                                                            10 percent. This is the second
                                                            consecutive year that the IRS is not in
                                                            compliance with the IPERA.

                                                            Although the IRS has implemented a
                                                            number of programs over the years to
                                                            address EITC improper payments, the
                                                            IRS faces significant challenges to
                                                            becoming compliant with the IPERA.
                                                            Specifically, the process the Department
                                                            of the Treasury uses to assess the risk
                                                            of improper payments within its bureaus
                                                            does not effectively assess the risk of
                                                            improper payments in tax
                                                            administration. In addition, the ever-
                                                            changing population of EITC claimants
                                                            makes it difficult for the IRS to gain
                                                            lasting improvements in EITC
                                                            compliance through outreach,
                                                            education, and enforcement.




                                                       April 1, 2013 – September 30, 2013              93
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS



         Reference to               Explanation of the                Comments/TIGTA Audit
      Statutory Coverage                Provision                           Status

     Executive Order 13520,      Requires TIGTA to assess the      Ref. No. 2013-40-084, August 2013
     Reducing Improper           IRS’s compliance with the Order   The IRS is still not in compliance with
     Payments and Eliminating    on an annual basis.               the requirements of Executive Order
     Waste in Federal Programs                                     13520. The IRS has not established
                                                                   annual improper payment reduction
                                                                   targets as required. The IRS cited the
                                                                   complexity of the Earned Income Tax
                                                                   Credit (EITC) program as well as the
                                                                   need to balance the reduction in
                                                                   improper payments while still
                                                                   encouraging individuals to use the credit
                                                                   as the two main reasons why reduction
                                                                   targets have not been established. IRS
                                                                   management stated that they recently
                                                                   met with the Office of Management and
                                                                   Budget and agreed to work together to
                                                                   develop supplemental measures and
                                                                   indicators in lieu of reduction targets.
                                                                   However, the IRS did not indicate when
                                                                   these measures would be in place.
                                                                   The IRS is also not in compliance with
                                                                   the quarterly reporting requirement for
                                                                   high-dollar improper EITC payments
                                                                   (payments totaling more than $5,000).
                                                                   Based on our review, TIGTA estimates
                                                                   that more than 10,400 of the EITC
                                                                   claims totaling more than $52.8 million
                                                                   in Tax Year 2009 met the criteria for the
                                                                   quarterly reporting to TIGTA as required
                                                                   by the Executive Order.

                                                                   Finally, although privacy laws limit the
                                                                   IRS’s ability to fully comply with the
                                                                   high-dollar EITC quarterly reporting
                                                                   requirement to the Council of the
                                                                   Inspectors General on Integrity and
                                                                   Efficiency, there are actions that the IRS
                                                                   can take to comply with the intent of the
                                                                   Executive Order. For example, the IRS
                                                                   could provide the Council with an
                                                                   aggregated number of EITC high-dollar
                                                                   payments along with the other required
                                                                   information.




94         April 1, 2013 – September 30, 2013
          TIGTA SEMIANNUAL REPORT TO CONGRESS



                                    Appendix IV
                         Section 1203 Standards
In general, the Commissioner of Internal Revenue shall terminate the employment of any IRS
employee if there is a final administrative or judicial determination that, in the performance of
official duties, such employee committed any misconduct violations outlined below. Such
termination shall be a removal for cause on charges of misconduct.

Misconduct violations include:

   •   Willfully failing to obtain the required approval signatures on documents authorizing the
       seizure of a taxpayer’s home, personal belongings, or business assets;
   •   Providing a false statement under oath with respect to a material matter involving a
       taxpayer or taxpayer representative;
   •   Violating, with respect to a taxpayer, taxpayer representative, or other employee of the
       IRS, any right under the Constitution of the United States, or any civil right established
       under Title VI or VII of the Civil Rights Act of 1964; Title IX of the Education
       Amendments of 1972; Age Discrimination in Employment Act of 1967; Age
       Discrimination Act of 1975; Section 501 or 504 of the Rehabilitation Act of 1973; or Title I
       of the Americans with Disabilities Act of 1990;
   •   Falsifying or destroying documents to conceal mistakes made by any employee with
       respect to a matter involving a taxpayer or taxpayer representative;
   •   Committing assault or battery on a taxpayer, taxpayer representative, or other employee
       of the IRS, but only if there is a criminal conviction or a final judgment by a court in a civil
       case, with respect to the assault or battery;
   •   Violating the Internal Revenue Code of 1986, as amended (the Code), the Department
       of the Treasury regulations, or policies of the IRS (including the Internal Revenue
       Manual) for the purpose of retaliating against or harassing a taxpayer, taxpayer
       representative, or other employee of the IRS;
   •   Willfully misusing provisions of § 6103 of the Code for the purpose of concealing
       information from a congressional inquiry;
   •   Willfully failing to file any return of tax required under the Code on or before the date
       prescribed therefore (including any extensions), unless such failure is due to reasonable
       cause and not to willful neglect;
   •   Willfully understating Federal tax liability, unless such understatement is due to
       reasonable cause and not to willful neglect; and
   •   Threatening to audit a taxpayer for the purpose of extracting personal gain or benefit.

The Commissioner of Internal Revenue may mitigate the penalty of removal for the misconduct
violations outlined above. The exercise of this authority shall be at the sole discretion of the
Commissioner and may not be delegated to any other officer. The Commissioner, in his/her
sole discretion, may establish a procedure that will be used to decide whether an individual
should be referred to the Commissioner for determination. Any mitigation determination by the
Commissioner in these matters may not be appealed in any administrative or judicial
proceeding.




                                                         April 1, 2013 – September 30, 2013               95
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS



                        Appendix V
                Statistical Reports - Other
            Inspection Reports With Significant
            Unimplemented Corrective Actions
The Inspector General Act of 1978, as amended, requires identification of significant
recommendations described in previous semiannual reports for which corrective actions have not
been completed. The following list is based on information from the IRS Office of Management
Control’s automated tracking system maintained by Treasury management officials.

                                             Projected           Report Title and Recommendation Summary
             IRS Management
Reference                                   Completion            (F = Finding No., R = Recommendation No.,
              Challenge Area
 Number                         Issued           Date                            P = Plan No.)
 2011-IE-                      June 2011                 Follow-up Review of Controls Over Religious
  R004                                                   Compensatory Time

                                             9/30/2014   F-1, R-1, P-1. The IRS Human Capital Officer should modify
                                                         the IRS RCT procedures to require that all employees
                                                         (bargaining unit and non-bargaining unit) repay advanced RCT
                                                         before a manager can approve employees’ voluntary requests
                                                         to earn overtime, compensatory time, or credit hours.
                                             9/30/2014   F-1, R-2, P-1. The IRS Human Capital Officer should modify
                                                         the IRS RCT procedures to require that all employees
                                                         (bargaining unit and non-bargaining unit) submit written
                                                         requests to earn or use RCT, and develop a standard form for
                                                         requesting, authorizing, and documenting the use of RCT.


 2013-IE-                      November                  Review of Criminal Investigation’s Relocation Incentives
  R002                           2012                    and Post-of-Duty Neutral Program

                                             11/15/13    F-1, R-1, P-1. The Chief, CI, should evaluate the effectiveness
                                                         of TCS and PCS assignments as part of CI’s overall succession
                                                         planning strategy.




96          April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS



                                 Appendix VI
  Implementing Section 989C of the Dodd-Frank
   Wall Street Reform and Consumer Protection
    Act Inspector General Peer Review Activity
     April 1, 2013 through September 30, 2013

Last Peer Review Conducted on TIGTA Office on Investigations:

No peer reviews were conducted on the TIGTA Office of Investigations during
this reporting period.

Last Peer Review Conducted by TIGTA Office of Investigations:

The TIGTA Office of Investigations conducted a peer review of the U.S. Department of
Agriculture (USDA), Office of Inspector General (OIG), Office of Investigations. The on-
site review was completed April 11, 2013. The draft peer review report was issued June
27, 2013. There were no deficiencies identified in the draft peer review report.

Our report stated:

“In our opinion, the system of internal safeguards and management procedures for the
investigative function of the USDA OIG in effect for the period beginning March 1, 2012,
and ending February 28, 2013, are in compliance with the quality standards established
by the Council of the Inspectors General on Integrity and Efficiency and the applicable
United States Attorney General’s Guidelines with statutory law enforcement authority,
as applicable. These safeguards and procedures provide reasonable assurance of
conforming to professional standards in the planning, execution, and reporting of its
investigations.”

Last Peer Review Conducted on TIGTA Office of Inspections and
Evaluations

As part of the Council of the Inspectors General for Integrity and Efficiency (CIGIE) pilot
peer reviews, during this six-month reporting period a review was conducted by the
Department of Defense, Office of Inspector General. The Deputy Inspector General for
Inspections and Evaluations agreed with review team’s review results and plans to
implement corrective actions to address the single recommendation. Specifically, the
Office of Inspections and Evaluations plans to develop and document procedures
designed to ensure agency officials appropriately follow-up on recommendations
contained in Inspection and Evaluation reports.




                                                   April 1, 2013 – September 30, 2013         97
                                      TIGTA SEMIANNUAL REPORT TO CONGRESS



                                 Appendix VII
               Data Tables Provided by the IRS
The memorandum copied below is the IRS’s transmittal to TIGTA. The tables that
follow the memorandum contain information that the IRS provided to TIGTA and consist
of IRS employee misconduct reports from the IRS Automated Labor and Employee
Relations Tracking System (ALERTS) for the period from April 1, 2013 through
September 30, 2013. Also, data concerning substantiated RRA 98 §1203 allegations
for the same period are included. IRS management conducted inquiries into the cases
reflected in these tables.




98      April 1, 2013 – September 30, 2013
                    TIGTA SEMIANNUAL REPORT TO CONGRESS



        Reports of Employees Misconduct for the Period
                      April 1, 2013 through September 30, 2013
                          Summary by Disposition Groups
                                      (Tables Provided by the IRS)
         Disposition              TIGTA Report of   Administrative      Employee Tax      Employee Character   Totals
                                    Investigation      Case            Compliance Case      Investigation

REMOVAL (PROBATION PERIOD
                                        31               69                   10                   0            110
COMPLETE)

REMOVAL AT OPM DIRECTION                0                 0                    0                   1             1

PROBATION/SEPARATION                    3                91                    0                   4            98

SEPARATION OF TEMP                      0                28                    0                   0            30

RESIGN.,RET., ETC. (SF50 NOTED)         13               14                    0                   1            30

RESIGN. RET., ETC. (SF50 NOT
                                        37               162                  14                   9            222
NOTED)

SUSP., 14 DAYS OR LESS                  58               173                  107                  4            342

SUSP., MORE THAN 14 DAYS                42               49                   23                   0            114

INDEFINITE SUSPENSION                   4                26                    0                   0            30

REPRIMAND                               64               229                  133                  15           441

ADMONISHMENT                            52               191                  215                  20           478

WRITTEN COUNSELING                      39               161                  128                  0            328

ORAL COUNSELING                         0                67                    7                   0            74

A D: IN LIEU OF REPRIMAND               7                24                    7                   3            41

A D: IN LIEU OF SUSPENSION              17               46                   25                   3            91

CLEARANCE LETTER                        83               74                    9                   0            166

CLEARANCE, NO LTR ISS                   0                24                    0                   0            25

CWA CAUTIONARY LTR                     127               145                  91                   94           457

CWA LETTER                              51               108                  29                   31           219

CWA NO LETTER                           0                165                  23                   23           211

FORWARDED TO TIGTA                      0                 9                    0                   0            10

TERMINATION FOR ABANDOMENT
                                        0                65                    0                   0            65
OF POSITION

TERMINATION - OTH THAN JOB
                                        0                 4                    0                   0             4
ABNDMNT

CASE SUSPENDED PENDING
                                        1                 0                    0                   0             2
EMPLOYEE RTD
PROSECUTION PENDING FOR                                                                                          3
TIGTA ROI's                             3                 0                    0                   0
Total                                  632              1924                  828                 208          3592


                                                                     April 1, 2013 – September 30, 2013        99
                                           TIGTA SEMIANNUAL REPORT TO CONGRESS


Notes:
 *Columns containing numbers of two or less and protected by I.R.C. Section 6103 are annotated with a 0.

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and §4(a)2 of Treasury Delegation
Order 115-01, January 14, 1999.

Extract Date: Thursday, October 17, 2013




 100        April 1, 2013 – September 30, 2013
           TIGTA SEMIANNUAL REPORT TO CONGRESS



 Reports of Employee Misconduct for the Period
            April 1, 2013 through September 30, 2013
                        National Summary
                   (Tables Provided by the IRS)


                                                                  Cases Closed
                                     Conduct
  Inventory            Open                                           Cases                         Ending
                                      Cases                                           Non-
  Case Type          Inventory                       Conduct         Merged                        Inventory
                                     Received                                       Conduct
                                                      Issues        with Other
                                                                                     Issues
                                                                      Cases


ADMINISTRATIVE           665            2696            2800             48             22             491
CASE

EMPLOYEE
BACKGROUND               91              188            233              7               0             39
INVESTIGATION


EMPLOYEE TAX
COMPLIANCE               517            1566            1266            256              0             561
CASE


TIGTA REPORT
OF                       529             730            741              11              0             507
INVESTIGATION

Total                   1802            5180            5040            322             22            1598
Source: Automated Labor and Employee Relations Tracking System (ALERTS)


TIGTA Investigations - Any matter involving an employee in which TIGTA conducted an
investigation into alleged misconduct and referred a Report of Investigation to IRS for
appropriate action.

Administrative Case - Any matter involving an employee in which management conducted an
inquiry into alleged misconduct.

Background Investigations - Any matter involving an NBIC investigation into an employee's
background that is referred to management for appropriate action.

Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax
Compliance program which becomes a matter of official interest.

This report is being produced in accordance with 26 USC 7803(b)(2) and §4(a)2 of Treasury Delegation Order 115-
01, January 14, 1999.

 Extract Date: Thursday, October 17, 2013

                                                               April 1, 2013 – September 30, 2013             101
                                                     TIGTA SEMIANNUAL REPORT TO CONGRESS



                              Summary of Substantiated
                            I.R.C. Section 1203 Allegations
                        Recorded in ALERTS for the Periods
                      April 1, 2013 through September 30, 2013
                             (Tables Provided by the IRS)

                                                                           Removed                            In
                                        Resigned/        Probation                         Penalty
 § 1203 Violation       Removals                                           On Other                       Personnel   Total
                                         Retired         Separation                        Mitigated
                                                                           Grounds                         Process

1203(b)(1): WILLFUL
UNAUTH SEIZ TP                0               0                0                0              0                0      0

1203(b)(2): FALSE
STTMNT UNDER OATH             0               0                0                0              0                0      0
1203(b)(4):
CONCEALED WORK                0               0                0                0              0                2      2
ERROR
1203(b)(5):
CONVICTION-                   0               0                0                0              0                0      0
ASSAULT/BATT
1203(b)(6):
IRC/IRM/REG VIOL-             0               0                0                0              0                0      0
RETAIL
1203(b)(8): WILLFUL
UNTIMELY RETURN               3               0                0                0              10              19      34

1203(b)(9): WILLFUL
UNDERSTATED TAX               5               0                0                0              6               21      34

1203(b)(10): THREAT
OF AUD/PERSONAL               0               0                0                0              0                0      0

         Totals               8               4                0                0              16              42      70

Source: Automated Labor and Employee Relations Tracking System (ALERTS) and 1203 Review Board
records.


Notes:
 1. The cases reported as "Removals" and "Penalty Mitigated" do not reflect the results of any third party appeal.

 2. Columns containing numbers of two or less and protected by I.R.C. Section 6103 are annotated with a zero.




This report is being produced in accordance with 26 USC 7803(b)(2) and §4(a)2 of Treasury Delegation Order
      115-01, January 14, 1999.
Extract Date: Thursday, October 17, 2013


      102         April 1, 2013 – September 30, 2013
         TIGTA SEMIANNUAL REPORT TO CONGRESS



                   Glossary of Acronyms


ACA                 Affordable Care Act

BYOD                Bring Your Own Device

BATF                Bureau of Alcohol, Tobacco, Firearms, and Explosives

CY                  Calendar Year

CFO                 Chief Financial Officer

DCCI                Data Center Consolidation Initiative
EITC                Earned Income Tax Credit
FBI                 Federal Bureau of Investigations

FY                  Fiscal Year
FEIE                Foreign Earned Income Exclusion

FSL                 Forensic Science Laboratory

FTE                 Full-time Equivalent
GTSP                Gainsharing Travel Savings Program

ITIN                Individual Taxpayer Identification Number

I.R.C.              Internal Revenue Code
IRS                 Internal Revenue Service
                    Internal Revenue Service Restructuring and Reform Act of
RRA 98              1998

CCU                 International Campus Compliance Unit

NTEU                National Treasury Employees Union

OA                  Office of Audit

OEP                 Office of Employee Protection

I&E                 Office of Inspections and Evaluations


                                              April 1, 2013 – September 30, 2013   103
                                       TIGTA SEMIANNUAL REPORT TO CONGRESS




 OIG                     Office of Inspector General
 OI                      Office of Investigations
 OMB                     Office of Management and Budget
 OPA                     Online Payment Agreement
 PPIA                    Partial Payment Installment Agreement
 PII                     Personal Identifying Information

 PTC-CE                  Premium Tax Credit Computation Engine

 PMO                     Program Management Office
 RRP                     Return Review Program

 SB/SE                   Small Business/Self-Employed
 TY                      Tax Year
 TIGTA                   Treasury Inspector General for Tax Administration
 U.S.                    United States




104      April 1, 2013 – September 30, 2013
 TIGTA SEMIANNUAL REPORT TO CONGRESS



Inspector General’s
Message to Congress




                                  April 1, 2013 – September 30, 2013   105
                                    TIGTA SEMIANNUAL REPORT TO CONGRESS




106   April 1, 2013 – September 30, 2013
